<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-227]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-227
 
        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2006

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 3058/S. 1446*

MAKING APPROPRIATIONS FOR THE DEPARTMENTS OF TRANSPORTATION, TREASURY, 
AND HOUSING AND URBAN DEVELOPMENT, THE JUDICIARY, DISTRICT OF COLUMBIA, 
AND INDEPENDENT AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2006, 
                         AND FOR OTHER PURPOSES

    [* Appropriations in the jurisdiction of the Senate District of 
 Columbia Subcommittee were funded by the House in H.R. 3058 and added 
                     by the Senate as division B.]

                               __________

                          District of Columbia

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
99-857                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                               __________
                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                    SAM BROWNBACK, Kansas, Chairman
MIKE DeWINE, Ohio                    MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi (ex        ROBERT C. BYRD, West Virginia (ex 
    officio)                             officio)
                           Professional Staff

                             Mary Dietrich
                             Emily Brunini
                        Kate Eltrich (Minority)


                            C O N T E N T S

                              ----------                              

                       Wednesday, April 20, 2005

                                                                   Page
District of Columbia: Courts.....................................     1

                        Wednesday, June 15, 2005

District of Columbia.............................................    53


        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, APRIL 20, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:35 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Sam Brownback (chairman) 
presiding.
    Present: Senators Brownback and DeWine.

                          DISTRICT OF COLUMBIA

                                 Courts

STATEMENT OF HON. ANNICE M. WAGNER, CHIEF JUDGE, 
            DISTRICT OF COLUMBIA COURT OF APPEALS, AND 
            CHAIR, JOINT COMMITTEE ON JUDICIAL 
            ADMINISTRATION


               opening statement of senator sam brownback


    Senator Brownback. The hearing will come to order. Thank 
you all for joining us this morning. Sorry for running just a 
little bit late. I wish we were holding the hearing outside. 
Such a beautiful D.C. day. And in the spring and the flowering 
trees and everything, it looks just gorgeous.
    I'm delighted to convene this hearing. It's my first as the 
chairman of the D.C. Appropriations subcommittee. I've 
previously served as the authorizing subcommittee chairman, but 
not the appropriations subcommittee chairman. And so, I'm 
delighted to be on this side, and pleased, also, to be joined 
by the immediate past-chairman of the D.C. Appropriations 
subcommittee, who did a great job with this subcommittee. And I 
look forward to carrying on his legacy and seeking his wisdom 
and counsel on how to do it, particularly on some issues with 
the Family Court. I was just over at the courts yesterday, and 
saw a little bit of the hallways there and some of the items 
done. I think we have made some nice progress there.
    The hearing today will be on the fiscal year 2006 budget 
request for the District of Columbia Courts, the Court Services 
and Offender Supervision Agency, and the Public Defender 
Service.
    Since the enactment of the National Capital Revitalization 
and Self-Government Improvement Act of 1997, the Federal 
Government has provided the sole source of funding for these 
three agencies.
    The President has requested $221.7 million for the courts 
in fiscal year 2006. This is $30.9 million more than the fiscal 
year 2005 enacted levels. I understand that the lion's share of 
this increase will be used to restore the now-vacant Old 
Courthouse so that it can house the Court of Appeals, which, in 
turn, will free up more space in the Moultrie Courthouse for 
the safe family/friendly Family Court. In addition, it will 
provide much-needed courthouse space. The renovation of the Old 
Courthouse will also be an important historical preservation 
achievement. This building is the fourth oldest in the District 
of Columbia and has great historic significance. It's where 
President Lincoln was first inaugurated--or, excuse me, where 
his first Inaugural Ball was held and where his assassination 
conspirators were tried and convicted. It's where Frederick 
Douglass had his offices, and where Daniel Webster practiced 
law.
    I'm also interested in hearing the progress that the courts 
are making in implementing the D.C. Family Court Act of 2001. 
The goals of this legislation are ``one family, one judge,'' 
exclusive jurisdiction of the Family Court, better training for 
judges and all staff, increased accountability of attorneys, 
judges, and staff, better technology to track cases, attorney 
dispute resolution, and better facilities to provide a safe and 
family friendly environment. I believe that the full 
implementation of this law is the most critical priority facing 
the D.C. Courts.
    The Director of the Court Services and Offender Supervision 
Agency (CSOSA) will also present this agency's fiscal year 2006 
budget request. CSOSA is responsible for supervising adults who 
are on pretrial release, probation, and/or parole, supervision 
in the District. The President's fiscal year 2006 budget 
request is $203.4 million for CSOSA, an increase of $23 million 
over the fiscal year 2005 enacted level.
    I'd like to hear how these additional resources will be 
used to further the agency's mission and goals. This 
subcommittee has appropriated funds specifically to enable 
CSOSA to reduce its caseload ratio for sex offenders, for 
domestic violence offenders, and for offenders with mental 
health problems. I'd like to hear whether these caseloads are 
continuing to decline.
    Also, this subcommittee has provided resources to allow 
CSOSA to purchase GPS anklet monitoring equipment to ensure 
that parolees are not venturing to places like schools and 
libraries, where they are prohibited. I'd like to know if the 
agency will be able to expand the use of this important 
monitoring technique, and if I can use it on my own children.
    Finally--Mike, you probably figured that out years ago, 
haven't you, on how to follow your own children?
    Finally, we'll hear from the Director of the Public 
Defender Service (PDS) for the District of Columbia, who will 
also present her agency's fiscal year 2006 budget request. PDS 
provides legal representation to indigent adults and children 
facing criminal charges in the District. PDS also provides 
legal representation for people in the mental health system, as 
well as to children in the delinquency system, including those 
who have special education needs due to learning disabilities. 
The President's budget request for PDS is $29.8 million, the 
same as the fiscal year 2005 enacted level.
    I want to thank you all for appearing here today. I've had 
a chance to meet several of you previously, and I've enjoyed 
those encounters. I'm in an input mode. I need information, and 
I look forward to that.
    The prepared statement of Senator Landrieu, the ranking 
member, will appear in the record at this point.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    Good morning. I would like to welcome our new chairman, 
Senator Sam Brownback of Kansas today to his first hearing of 
the District of Columbia Appropriations Subcommittee. We are 
very fortunate to have Chairman Brownback joining the 
District's appropriations oversight committee as he had a hand 
in the shape and focus of this bill as the previous chairman of 
the authorizing subcommittee.
    Under Chairman Brownback's leadership in 1997 the D.C. 
Revitalization Act eliminated the $600 million Federal payment 
appropriated by Congress to the District. The Act transferred 
several functions of the D.C. government to full Federal 
responsibility, areas traditionally carried out at the state 
level: criminal justice and District employee pensions. I hope 
Chairman Brownback and I can focus this year on the effect of 
the Revitalization Act and we can do more to find the 
appropriate balance between the Federal government and the 
District.
    The District's criminal justice activities are under the 
direct oversight of this subcommittee and are comprised of the 
main entities here today: the D.C. Courts, the Court Services 
and Offender Supervision Agency (CSOSA) and the Public Defender 
Service. These agencies encompass the representation, 
adjudication, and supervision of offenders in the District. The 
final component of criminal justice, corrections, was 
successfully terminated by the closure of Lorton prison and the 
D.C. Correction's Trustee transition of all adult felons to the 
Federal Bureau of Prisons in December 2001. Corrections of D.C. 
adult felons are now the sole responsibility of the Federal 
system; some 6,400 D.C. inmates housed in the Bureau of Prisons 
are scattered in 77 prisons nationwide. Though we do not fund 
the corrections of D.C. adult felons, we do fund the challenges 
of re-entry and the impact of transition on the District 
community--particularly, the ability of offenders to maintain 
close ties with children and families.
    The CSOSA is the primary entity responsible for successful 
re-entry, as well as pre-trial and pre-sentencing supervision. 
I welcome Director Paul Quander back to the committee, thank 
you for your leadership and we look forward to your testimony. 
In fiscal year 2006 CSOSA requests an increase of $24.8 million 
(14 percent) from fiscal year 2005 and increases staff by 77 
for a total of 1,467 positions (a 6 percent increase in 
staffing). The main increase ($14.6 million) is to staff the 
new Re-Entry and Sanctions Center which will provide a 30 day 
intensive re-entry program for the highest risk offenders. The 
President recommends minor increases over fiscal year 2005 for 
the two other primary functions, Pre-Trial and Public Defender 
Service, to continue their critical services. I look forward to 
hearing from their directors, Susan Schaffer and Avis Buchanan, 
to explore the request further and discuss creative areas of 
supporting your functions.
    The other Federal component under this subcommittee's 
jurisdiction, the D.C. Courts, is responsible for the 
administration of justice of District residents accused of D.C. 
Code violations. I am glad to welcome back Chief Judge Annice 
Wagner and Chief Judge Rufus King. Congratulations are in order 
for Chief Judge Wagner, as I understand you are retiring soon. 
You have made a tremendous contribution, not only to the 
District, but to improving the administration of the Courts and 
their transition to Federal oversight.
    The Courts are requesting $342.7 million for fiscal year 
2006 operations of the court system and capital improvements. 
This is $151.9 million more than the enacted level in fiscal 
year 2005, which is a 79 percent increase. Of this increase, 
the majority is for the capital improvement plan for Judiciary 
Square, which entails major renovation of the five main 
buildings on the square. The President's request for fiscal 
year 2006 for the entire Court's is $221.7 million, which is an 
increase of $30.9 million from fiscal year 2005. We have much 
work to determine the needs of the Courts and how to meet them 
in a stretched Federal budget year.
    The Court's capital improvements request totals $192.8 
million which is an increase of $136.7 million over the fiscal 
year 2005 enacted level of $56 million. The Court's continue to 
budget for major construction and renovation by paying the 
entire cost up front. Though this is the preferred method of 
GSA, the Committee strongly encouraged the Court's to negotiate 
a phased funding approach and which lead to our approach of 
funding only the fiscal year 2005 needs last year. The 
President's request for capital is $83.5 million and continues 
the concept that major construction can be phased. The Court's 
proposed approach, a 243 percent increase from last year, is 
honestly un-affordable for the Federal government.
    The fiscal year 2005 conference report provided $56 million 
for Capital Improvements and directed the Courts to negotiate a 
phased payment plan with GSA. If, as the Court's staff 
provided, $31.7 million was provided for the Old Courthouse 
project, then $24 million was remaining. Why, within that $24 
million could the $6 million needed to keep the Family Court 
design on track not allocated?
    I understand the funding was tight, but it is sufficient 
for both projects. Money for design of the family court to the 
garage because the designs would have gone ``stale'' since they 
wouldn't be able to implement them until much later than they 
anticipated because we didn't provide the full funding. We 
should explore the issue of priorities in this hearing and I 
look forward to your views. However, let me be clear, creation 
of the Family Court has been the highest priority of this 
subcommittee; I know the Court's have not missed that point so 
I hope you pay the requisite attention to the facility.
    The President's recommendation for the D.C. Federal 
entities includes healthy increase and signals support for 
these important functions. This is not the case elsewhere in 
the Federal budget for programs which affect the entire nation. 
Chairman Brownback, I am pleased to be here to begin my fourth 
year as the ranking member of the D.C. Appropriations 
Subcommittee. I look forward to the testimony of our federal 
entities and to working with you in the coming year.

    Senator Brownback. Senator DeWine, thoughts?

                    STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Well, Mr. Chairman, let me just, first, 
congratulate you on becoming chairman of this subcommittee. I 
know that you will do a great job. I had the opportunity to 
serve, as you've indicated, as chairman of the subcommittee, 
with Senator Landrieu. I enjoyed working with her. I enjoyed 
working with our panelists. And it was my great pleasure to 
serve as chairman of the subcommittee.
    I know that you will do a great job, and I know you share 
my passion for children. Senator Landrieu and I had many 
focuses during the time that we passed the gavel back and 
forth, but probably our main focus was on children. And I know, 
from my experience with you and my discussions with you over 
the years, that you share that same passion. So, I look forward 
to working with you as we continue to work on issues such as 
the Family Court, foster care, adoption, and the other issues 
that are so very, very important for the District of Columbia.
    So, I welcome you and just look forward to working with you 
on the subcommittee, and I'm glad I'm still on the 
subcommittee. And we have a lot of work to do.
    Senator Brownback. Thank you, Senator DeWine, and I look 
forward to your input and thoughts on how we move forward.
    Presentations will be in the following order: the Honorable 
Annice Wagner, the Chief Judge, District of Columbia Court of 
Appeals, and Chair of the Joint Committee on Judicial 
Administration; then the Honorable Rufus King, III, Chief 
Judge, District of Columbia Superior Court; the Honorable Paul 
Quander, Jr., Director, Court Services and Offender Supervision 
Agency; and Ms. Avis Buchanan, Director of the District's 
Public Defender Service.
    Our timer clock is not working. If you can be in the 5- to 
7-minute ballpark, we will take your complete statements into 
the record, and that'll give us, I think, the best opportunity 
to also have some interaction.
    So, Judge Wagner, thank you for joining us. Good to see you 
again. Welcome.
    Judge Wagner. Good morning. Mr. Chairman, Senator DeWine, 
Senator Landrieu, and subcommittee members, thank you for this 
opportunity to discuss the fiscal year 2006 budget request for 
the District of Columbia Courts.
    As you know, I am appearing today in my capacity as Chair 
of the Joint Committee on Judicial Administration in the 
District of Columbia, which is the policymaking body for the 
District of Columbia Courts. I am also serving as Chief Judge 
of the District of Columbia Court of Appeals.
    My remarks this morning will summarize the request for the 
courts and highlight the courts' most critical priority, which 
is our capital budget. With me this morning is Chief Judge 
Rufus King, also Ms. Anne Wicks, our Executive Officer for the 
courts and Secretary to the Joint Committee, and we are all 
prepared to answer questions you may wish to pose concerning 
the courts' budget request.
    Unquestionably, we live in a changing environment, facing 
new challenges in our Nation and in our Nation's Capital and in 
our court system. Whatever challenges we face, the fair and 
effective administration of justice remains critical to our way 
of life in America.
    The District of Columbia Courts are committed to meeting 
these new challenges and the changing needs of a 21st century 
society. The District of Columbia Courts serve approximately 
10,000 courthouse visitors each day, process more than 200,000 
cases each year, and employ a staff of 1,200 who directly serve 
the public, process cases, and provide administrative support. 
The District of Columbia Courts are among the busiest and most 
productive court systems in the United States.
    In accordance with our strategic plan, we are undergoing 
significant changes to accommodate and apply new technologies 
and to ensure that the courts of this jurisdiction have a sound 
infrastructure. Notably, improved facilities are identified as 
a high priority among all constituency groups surveyed by the 
courts as the strategic plan was developed. Therefore, although 
we have requested funds for several important operating 
initiatives, the critical focus of our fiscal year 2006 budget 
request is our infrastructure; that is, all court buildings, 
information technology systems, and security essential for the 
protection of all who use and work in the courthouses. Only by 
investing in these areas will the courts be in a position to 
ensure that our facilities are in a safe and healthy condition, 
reasonably up to date, and that the type of security necessary 
to protect our citizens and our institutions is in place.
    The courts are responsible for four buildings in the 
historic Judiciary Square, and expect to have a fifth building 
returned to the courts' inventory this year. One of the 
original historic green spaces identified by Pierre L'Enfant's 
plan for the capital of a new nation, Judiciary Square is the 
subject of an urban renewal plan that the courts have developed 
in response to requirements of the National Capital Planning 
Commission.
    The courts have conducted extensive planning efforts; 
first, to evaluate and to address the physical condition of our 
facilities, and, second, to document and to address the courts' 
severe space shortage for court operations. The restoration of 
the Old Courthouse for use by the District of Columbia Court of 
Appeals is pivotal to meeting the space needs of the court 
system. An architectural jewel and the centerpiece of Judiciary 
Square, the Old Courthouse is one of the oldest public 
buildings in the District of Columbia, and you've already 
outlined some of its rich history.
    A picture of that Old Courthouse is right in front of me 
this morning.
    The architectural and historical significance of the Old 
Courthouse led to its listing on the National Register of 
Historic Places and its designation as an official project of 
Save America's Treasures. Investment in the Old Courthouse, 
however, is a practical solution to a space problem. It will 
enable the Court of Appeals to vacate 37,000 square feet of 
critically needed space in the Moultrie Courthouse, which was 
designed to meet the unique needs of a busy urban trial court, 
and it will free this space for Superior Court and for Family 
Court operations. Restoration of the Old Courthouse is the 
courts' highest priority in the fiscal year 2006 budget. We are 
pleased that Congress appropriated funds to finance the first 
phase of construction in fiscal year 2005, and expressed its 
commitment to fund the balance in fiscal year 2006. We are also 
pleased that the President has once again supported full 
funding for the Old Courthouse in his budget recommendation for 
fiscal year 2006.
    The President has recommended at least partial funding for 
most of the courts' priorities in the capital budget request, 
and we do appreciate that support. The courts' buildings range 
in age from 25 to 200 years old, and pose significant 
maintenance and modernization challenges. Deferred maintenance 
necessitated by many years of limited capital funding has led, 
of course, and expectedly, to increased costs for many 
projects. However, we have carefully examined the President's 
capital budget recommendation, and, although it is less than 
the courts' original request, we have found a way to reschedule 
project phases in order to continue, without interruption, the 
most important projects within the President's recommended 
funding level.
    Mr. Chairman and members of the subcommittee, the District 
of Columbia Courts have long enjoyed a national reputation for 
excellence. We are proud of the courts' record for 
administering justice in a fair, accessible, and cost-efficient 
manner. Adequate funding for the courts' fiscal year 2006 
priorities is critical to our success both in the next year and 
as we implement plans to continue to provide high-quality 
service to the community in the future. We appreciate the 
President's level of support for the courts' funding needs and 
the support that we have received from this body.

                           PREPARED STATEMENT

    We look forward to working with you throughout the 
appropriations process, and we thank you for this opportunity 
to discuss the fiscal year 2006 budget request of the courts.
    [The statement follows:]

                 Prepared Statement of Annice M. Wagner

    Mister Chairman, Senator Landrieu, Subcommittee members, thank you 
for this opportunity to discuss the fiscal year 2006 budget request of 
the District of Columbia Courts. I am Annice Wagner, and I am appearing 
in my capacity as the Chair of the Joint Committee on Judicial 
Administration in the District of Columbia. I also serve as Chief Judge 
of the District of Columbia Court of Appeals.
    As you know, the Joint Committee is the policy-making body for the 
District of Columbia Courts. By statute, its responsibilities include, 
among others, facilities, general personnel policies, accounts and 
auditing, procurement and disbursement, management of information 
systems and reports, and submission of the Courts' annual budget 
request to the President and Congress. This jurisdiction has a two-tier 
system comprised of the D.C. Court of Appeals, our court of last 
resort, and the Superior Court of the District of Columbia, a trial 
court of general jurisdiction, which includes our Family Court. 
Administrative support functions for our Courts are provided by what 
has come to be known as the Court System.
    My remarks this morning will summarize the request and highlight 
our most critical priority, our capital budget. With me this morning 
are Chief Judge Rufus King, III, Chief Judge of the Superior Court, Ms. 
Anne Wicks, the Executive Officer for the Courts and Secretary to the 
Joint Committee, and Mr. Joseph Sanchez, our Administrative Officer. We 
are prepared to answer questions you may wish to pose concerning the 
budget request for the Courts.

                              INTRODUCTION

    We live in a changing environment, facing new challenges to our 
nation, our Nation's Capital, and our court system. Whatever challenges 
we face, the fair and effective administration of justice remains 
crucial to our way of life. The District of Columbia Courts are 
committed to responding to the changing needs of our society and 
meeting these new challenges. We have been steadfast in our mission, 
which is to protect rights and liberties, uphold and interpret the law, 
and resolve disputes peacefully, fairly and effectively in the Nation's 
Capital. Through our Strategic Plan, finalized in fiscal year 2003 and 
now in the implementation phase, the Courts strive to enhance the 
administration of justice; broaden access to justice and service to the 
public; promote competence, professionalism, and civility; improve 
court facilities and technology; and build trust and confidence. We 
appreciate the support that this Subcommittee has given us that makes 
possible the achievement of these goals for our community.
    The Courts are committed to fiscal prudence and sound financial 
management. We are undergoing significant changes to meet the 
challenges of new technologies and are working to ensure that the 
courts of this jurisdiction have a sound infrastructure. Although we 
have requested funds for several important operating initiatives, the 
critical focus of our fiscal year 2006 budget request is our 
infrastructure.
    To support the Courts' mission and goals in fiscal year 2006, the 
Courts are requesting $342,734,000 for Court operations and capital 
improvements. Of this amount, $10,270,000 is requested for the Court of 
Appeals; $89,088,000 is requested for the Superior Court; $50,502,000 
is requested for the Court System; and $192,874,000 is requested for 
capital improvements for courthouse facilities. In addition, the Courts 
request $54,000,000 for the Defender Services account.
    The demands on the D.C. Courts require additional resources in 
fiscal year 2006. To build on past accomplishments and to support 
essential services to the public in the Nation's Capital, investment in 
infrastructure, and security are essential priorities. Only by 
investing in these areas will the Courts be in a position to ensure 
that our facilities are in a safe and healthy condition and reasonably 
up-to-date and that the type of security necessary to protect our 
citizens and our institution is in place. Focus on these capital areas 
is particularly critical now to meet these needs and to ensure that the 
quality of justice is not compromised.

                          RECENT ACHIEVEMENTS

    As the Courts approach the eighth year of direct federal funding in 
fiscal year 2006, we are continuing to build on past reforms that have 
enhanced our services to the community and demonstrated our commitment 
to fiscal responsibility. We are particularly proud of the Courts' 
progress with a number of recent achievements that include the 
following:
  --Commencement of construction on the Restoration of the Old 
        Courthouse, a building of historic and architectural 
        significance that is critical to meeting the long term space 
        needs of the Courts by freeing space in the Moultrie Building 
        for the final phase of the implementation of the Family Court, 
        following approval of design plans by the National Capital 
        Planning Commission, Commission of Fine Arts and Historic 
        Preservation Board;
  --Revision, as requested by the National Capital Planning Commission, 
        of a draft Master Plan for Judiciary Square, an urban design 
        and renewal plan for revitalization of this historic area that 
        dates to the original L'Enfant Plan for the Nation's Capital;
  --Further implementation of the Family Court Act, including: opening 
        the new Family Court space on the JM level in fiscal year 2004, 
        which consolidates the public face of the Family Court and 
        houses the new Central Intake Center to provide one-stop 
        services to Family Court customers; implementation of the one 
        family-one judge principle; creation of attorney panels for 
        neglect and juvenile cases and development of attorney practice 
        standards; establishment of a Family Treatment Court; piloting 
        a Self-Help Center with assistance from the bar; hiring nine 
        additional magistrate judges; investing three new Family Court 
        Judges; opening the Mayor's Services Liaison Center in the 
        courthouse; and transferring all required children's cases to 
        Family Court judges;
  --Implementation of a five-year strategic plan, ``Committed to 
        Justice in the Nation's Capital,'' as Court divisions prepared 
        Management Action Plans to align their activities and 
        objectives with the Strategic Plan, the product of nine months 
        of extensive input from stakeholders, detailed analysis of 
        community trends, and significant work by the Strategic 
        Planning Leadership Council;
  --Implementation of the Courts' new case management system, IJIS 
        (Integrated Justice Information System) in Family Court, Wave 1 
        in August 2003, Wave 2 in December 2003, and in the new Intake 
        Center in August 2004; in the Probate Division in May 2004; and 
        in the Small Claims and Landlord and Tenant Branches of the 
        Civil Division in December 2004 and February 2005, 
        respectively;
  --Launching of the Courts' website, designed to enhance public access 
        by providing information on operations and procedures, answers 
        to frequently asked questions, and documents that can be 
        printed out and filed with the court;
  --Continuing sound fiscal management, including an ``unqualified'' 
        opinion for the fourth year in a row on the Courts' annual 
        independent financial audit conducted in accordance with OMB 
        Circular No. A-133 (Audits of States, Local Governments, and 
        Non-Profit Organizations);
  --Implementation by the Court of Appeals of a comprehensive revision 
        of its rules of practice, the first such revision since the 
        mid-1980's;
  --Implementation of the Landlord Tenant Resource Center to provide 
        free legal information to unrepresented landlords and tenants 
        with residential housing disputes and to provide assistance 
        with referrals to legal and social service providers;
  --Promulgation of draft Probate attorney practice standards, creation 
        of the Probate Review Task Force, and greater oversight of 
        Probate attorneys and fiduciaries to enhance service to 
        incapacitated adults and other parties in Probate cases;
  --Reengineering of the Appeals Coordinator's Office to facilitate 
        appellate case filings by providing one-stop services in a 
        central point of filing for all appellate cases, regardless of 
        the division in which the Superior Court proceeding took place; 
        and
  --Renovation of specialized and more efficient space for the Landlord 
        Tenant and Small Claims courts, juvenile probation (the Social 
        Services Division), and the Crime Victims Compensation Program, 
        as the Courts' Master Plan for Facilities is implemented.

           CRITICAL FISCAL YEAR 2006 PRIORITY--INFRASTRUCTURE

    The District of Columbia Courts serve approximately 10,000 
courthouse visitors each day, process more than 200,000 cases each 
year, and employ a staff of 1,200 who directly serve the public, 
process the cases, and provide administrative support. The District of 
Columbia Courts are among the busiest and most productive court systems 
in the United States\1\. For example, published report indicate that 
the Superior Court of the District of Columbia has the seventh highest 
number of cases filed per judge, and the highest number of civil and 
criminal case filings per capita of all state courts in the nation, and 
our Court of Appeals has the second highest number of appeals filed per 
capita among all states and the highest among those with a similar 
court structure.
---------------------------------------------------------------------------
    \1\ See Examining the Work of State Courts 2003: A National 
Perspective from the Court Statistics Project, by B. Ostrom, N. Kauder, 
& R. LaFountain (National Center for State Courts 2004).
---------------------------------------------------------------------------
    The Courts' capital funding requirements are significant because 
they include funding for projects critical to maintaining, preserving, 
and building in a timely manner safe and functional courthouse 
facilities essential to meeting the heavy demands of the administration 
of justice in our Nation's Capital. To effectively meet these demands, 
the Courts' facilities must be both functional and emblematic of their 
public significance and character. The 2006 Capital Budget seeks to 
address these issues in a comprehensive manner.
    Facilities that provide adequate and efficiently designed space 
enhance the administration of justice, simplify public interaction with 
courts, and improve access to justice for all. In contrast, facilities 
with inadequate space for employees to perform their work, with 
evidence of long-deferred maintenance and repair, and with inefficient 
layouts can detract from the public perception of a court and impair 
its ability to function in the community. This negative perception 
impacts public trust and confidence in courts, a nationally recognized 
critical requirement for the effective administration of justice. The 
National Center for State Courts succinctly states the relationship 
between courts and their facilities:
  --Court facilities should not only be efficient and comfortable, but 
        should also reflect the independence, dignity, and importance 
        of our judicial system . . . It is difficult for our citizens 
        to have respect for the courts and the law, and for those who 
        work in the court, if the community houses the court in 
        facilities that detract from its stature.\2\
---------------------------------------------------------------------------
    \2\ Don Hardenbergh with Robert Tobin, Sr. and Chang-Ming Yeh, The 
Courthouse: A Planning and Design Guide for Court Facilities, National 
Center for State Courts, 1991, p. xiii.
---------------------------------------------------------------------------
    The D.C. Courts presently maintain 1.1 million gross square feet of 
space in Judiciary Square. The age of the Courts' buildings range from 
nearly 200 to 25 years. Many years of deferred maintenance forced by 
limited financial resources has left these buildings in a state that 
may in fact be perceived to detract from the stature of the Courts.
    The Courts' fiscal year 2006 budget request seeks resources to meet 
health and safety building codes and to provide safe, sanitary, and 
healthful facilities to the public in the courthouse. For example, 
adequate ventilation must be provided in the courthouse buildings. 
Electrical systems must be upgraded, both to meet modern office needs 
and to limit risk of fire. Fire and security recommendations from the 
U.S. Marshals Service must be implemented. Safety hazards posed by 
disintegrating flooring materials must be remedied.
    The halls of justice in the District of Columbia must be well 
maintained, efficient, and adequately sized to inspire the confidence 
of the members of the public who enter our buildings. The Courts' 
facilities plans reflected in the fiscal year 2006 budget request will, 
over the next ten years, meet the well-documented space needs of the 
Courts and return the buildings to a condition that reflects the 
dignity of the Courts and inspires trust in the justice system of the 
Nation's Capital.
    The Courts' facilities plans will also enhance the efficient 
administration of justice and improve public access to justice in this 
jurisdiction by co-locating related functions. The restoration of the 
Old Courthouse for the Court of Appeals, for example, will provide the 
public with a single location for services that are currently located 
on different floors and in different buildings from most Court of 
Appeals offices. Offices related to the Family Court will be 
consolidated through the planned addition to the Moultrie Courthouse. 
More efficient location of these offices will not only facilitate 
public access to the Courts, but will also enhance the efficiency of 
staff operations.
    In addition, basic mechanical systems impact the administration of 
justice. A broken air conditioning system, for example, can force 
suspension of a trial when courtroom temperatures rise to unbearable 
levels.

                FACILITIES IN THE COURTS' STRATEGIC PLAN

    The capital projects included in this request are an integral part 
of the Courts' Strategic Plan, completed in fiscal 2003. The Strategic 
Plan of the D.C. Courts, entitled Committed to Justice in the Nation's 
Capital, articulates the mission, vision, and values of the Courts in 
light of current initiatives, recent trends, and future challenges. It 
addresses issues such as implementation of a Family Court, increasing 
cultural diversity, economic disparity, complex social problems of 
court-involved individuals, the increasing presence of litigants 
without legal representation, rapidly evolving technology, the 
competitive funding environment, emphasis of public accountability, 
competition for skilled personnel, and increased security risks.
    Improved facilities were a need identified as a high priority among 
all constituency groups surveyed by the Courts as the Strategic Plan 
was developed. Employees, judges, and attorneys were asked to identify 
the most important issues the Courts must address in the coming years, 
and they all ranked ``enhance court facilities'' among the highest 
priorities. In addition, approximately half of judges and 65 percent of 
employees reported inadequate light, heat, air conditioning, and 
ventilation in their workspaces.
    ``Improving Court Facilities and Technology'' is the Plan's 
Strategic Issue 4. The Strategic Plan states--

    ``The effective administration of justice requires an appropriate 
physical and technical environment. Court personnel and the public 
deserve facilities that are safe, comfortable, secure, and functional, 
and that meet the needs of those who use them. Technology must support 
the achievement of the Courts' mission.''

                      THE D.C. COURTS' FACILITIES

    In preparing the fiscal year 2006 capital budget request, the 
Courts carefully assessed the capital requirements essential to 
performing our statutory and constitutionally mandated functions. The 
Courts' request for capital funding is particularly critical in fiscal 
year 2006 because of the need: (1) to address essential public health 
and safety conditions in our busy court buildings, including our main 
building to which some 10,000 people come each day; (2) to meet the 
courts' space requirements for conducting their business, which 
includes our new Family Court, recently established by Congress; and 
(3) to avoid interruption of ongoing projects as that typically results 
in substantially increased costs.\3\ Significantly increased space 
needs for court operations and inadequate capital funding in prior 
years that necessitated maintenance deferral compel the Courts' 
significant capital request for fiscal year 2006.
---------------------------------------------------------------------------
    \3\ For example, in the last decade, the estimated cost for 
restoring the Old Courthouse has more than tripled.
---------------------------------------------------------------------------
    The Courts are responsible for four buildings in the square: the 
Old Courthouse at 451 Indiana Avenue, the Moultrie Courthouse at 500 
Indiana Avenue, N.W., and Buildings A and B, which are located between 
4th and 5th Streets and E and F Streets, N.W. In addition, when the 
District government's payroll office vacates Building C, the old 
Juvenile Court, it will be returned to the Courts' inventory. Recent 
studies by the General Services Administration (GSA) have documented 
both the D.C. Courts' severe space shortage \4\ and the inadequacy of 
the physical condition of the Courts' facilities.\5\
---------------------------------------------------------------------------
    \4\ Master Plan for D.C. Courts Facilities, 2002.
    \5\ Building Evaluation Report, 2001.
---------------------------------------------------------------------------
    The recently completed Master Plan for D.C. Courts Facilities, 
conducted by experts in architecture and space planning, secured 
through the General Services Administration (GSA) defined a present 
shortfall of 48,000 square feet of space, with a shortfall of 134,000 
square feet projected in the next decade. The experts proposed to meet 
the Courts' space needs through three mechanisms: (1) renovation of the 
Old Courthouse for use by this jurisdiction's court of last resort, the 
District of Columbia Court of Appeals, which will free critically 
needed space in the Moultrie Courthouse for trial court operations; (2) 
construction of an addition to the Moultrie Courthouse, a major portion 
of which will be developed as a separately accessible Family Court 
facility; and (3) the future occupation of Building C, adjacent to the 
Old Courthouse.
    The restoration of the Old Courthouse for use by the District of 
Columbia Court of Appeals is pivotal to meeting the space needs of the 
court system. We are very pleased that Congress financed the first 
phase of construction last year and expressed its support for funding 
the balance in fiscal 2006. We are also very pleased that the President 
has recognized the importance of this project by supporting it in his 
budget recommendation for fiscal 2006.
    Investment in the restoration of the Old Courthouse not only will 
improve efficiencies by co-locating the offices that support the Court 
of Appeals, but also will provide 37,000 square feet of space 
critically needed for Superior Court and Family Court functions in the 
Moultrie Courthouse. The Moultrie Courthouse is uniquely designed to 
meet the needs of a busy trial court. It has three separate and secure 
circulation systems--for judges, the public, and the large number of 
prisoners present in the courthouse each day. Built in 1978 for 44 
trial judges, today it is strained beyond capacity to accommodate 62 
trial judges and 24 magistrate judges in the trial court and 9 
appellate judges, as well as senior judges and support staff for the 
two courts. Essential criminal justice and social service agencies also 
occupy office space in the Moultrie Courthouse. The Courts have clearly 
outgrown the space available in the Moultrie Courthouse. The space is 
inadequate for this high volume court system to serve the public in the 
heavily populated metropolitan area in and around our Nation's Capital. 
The Courts require well-planned and adequate space to ensure efficient 
operations in a safe and healthy environment.

                       HISTORIC JUDICIARY SQUARE

    The historical and architectural significance of Judiciary Square 
lend dignity to the important business conducted by the Courts and, at 
the same time, complicate somewhat efforts to upgrade or alter the 
structures within the square. As one of the original and remaining 
historic green spaces identified in Pierre L'Enfant's plan for the 
capital of a new nation, Judiciary Square is of keen interest to the 
Nation's Capital.
    The Old Courthouse, the centerpiece of the historic Judiciary 
Square, built from 1821 to 1881, is one of the oldest public buildings 
in the District of Columbia. Inside the Old Courthouse, Daniel Webster 
and Francis Scott Key practiced law and John Surratt was tried for his 
part in the assassination of President Abraham Lincoln. The 
architectural and historical significance of the Old Courthouse led to 
its listing on the National Register of Historic Places and its 
designation as an official project of Save America's Treasures. The 
unique character of the building, together with its compact size, makes 
it ideal for occupancy by the highest court of the District of 
Columbia. At the same time, the structure requires extensive work to 
meet health and safety building codes and to readapt it for modern use 
as a courthouse. Since it has been vacated, with the support of 
Congress, the Courts have been able to take steps to prevent its 
further deterioration. The restoration of the Old Courthouse for use as 
a functioning court building will not only provide much needed space 
for the Courts, but it will also impart new life to one of the most 
significant historic buildings and precincts in Washington, D.C. It 
will meet the needs of the Courts and benefit the community through an 
approach that strengthens a public institution, restores a historic 
landmark, and stimulates neighborhood economic activity.
    Buildings A, B, and C, dating from the 1930's, are situated 
symmetrically along the view corridor comprised of the National 
Building Museum, the Old Courthouse, and John Marshall Park and form 
part of the historic, formal composition of Judiciary Square. These 
buildings have been used primarily as office space in recent years, 
with a number of courtrooms in operation in Building A. The D.C. Courts 
have begun implementation of the Master Plan, relocating the Superior 
Court's two highest volume courtrooms, Small Claims and Landlord and 
Tenant, into Building B. This move vacated space in the Moultrie 
Building that was immediately renovated for the Family Court, 
permitting the construction of three new courtrooms, three new hearing 
rooms, a centralized case intake facility, a family-friendly waiting 
area and District government liaison offices for Family Court matters. 
The Interim Space Plan for the Family Court was completed and opened 
for business in July 2004.
    The H. Carl Moultrie I Courthouse, built in the 1970's, although 
not historic, is also located along the view corridor and reinforces 
the symmetry of Judiciary Square through its similar form and material 
to the municipal building located across the John Marshall Plaza. 
Currently the Moultrie Courthouse provides space for most Court of 
Appeals, Superior Court, and Family Court operations and clerk's 
offices, as previously described.

                      JUDICIARY SQUARE MASTER PLAN

    The National Capital Planning Commission (NCPC) required that the 
D.C. Courts develop a Master Plan for Judiciary Square--essentially an 
urban design plan--before any construction can be commenced in the 
area. The D.C. Courts have worked with all stakeholders on the Plan, 
including the United States Court of Appeals for the Armed Forces, the 
National Law Enforcement Officers Memorial Fund (Memorial Fund), the 
Newseum, and the Metropolitan Police Department. A draft Judiciary 
Square Master Plan was submitted to the NCPC in June 2003 and 
subsequently approved in August 2003. Review of the final plan is 
anticipated in May 2005.
    The Judiciary Square Master Plan integrates the facilities 
development program of the Courts into a rapidly changing and publicly 
oriented area of the District. The Plan resolves important technical 
issues related to access, service, circulation, and security while re-
establishing the importance of this historic setting in the ``City of 
Washington.'' It provides a comprehensive framework for project 
implementation and lays the groundwork for the regulatory approval 
process with the National Capital Planning Commission, the U.S. 
Commission of Fine Arts, the District of Columbia Office of Historic 
Preservation, the District of Columbia Office of Planning, and the 
District of Columbia Department of Transportation, among others.
    The Judiciary Square Master Plan recommends (1) re-introduction of 
landscaped green space around court buildings and the construction of 
secure underground parking garages for the Courts, including the U.S. 
Court of Appeals for the Armed Forces, to house vehicles now parked in 
surface lots; (2) integration of a new service area, security features 
and landscape concept; and (3) coordination of the Courts' development 
with development of the National Law Enforcement Officers Museum by the 
Memorial Fund.
    The Judiciary Square Master Plan will ensure the preservation of 
one of the last green spaces in the District of Columbia awaiting 
revitalization, incorporating areas where the public can gather and 
relax, and creating a campus-like environment where citizens can feel 
safe and secure. The Judiciary Square Master Plan will be of great 
benefit to the city of Washington, D.C.

                       MASTER PLAN FOR FACILITIES

    The Courts have been working with GSA on a number of our capital 
projects since fiscal year 1999, when the Courts assumed responsibility 
for our capital budget from the District's Department of Public Works. 
In 1999, GSA produced a study for the renovation of the Old Courthouse 
to house the D.C. Court of Appeals. In 2001, GSA prepared Building 
Evaluation Reports that assessed the condition of the D.C. Courts' 
facilities, which have been adversely affected by maintenance deferrals 
necessitated by severely limited capital funds in prior years. These 
projects culminated in the development of the first Master Plan for 
D.C. Court Facilities, which delineates the Courts' space requirements 
and provides a blueprint for optimal space utilization, both in the 
near and long term.
    The Master Plan for D.C. Court Facilities, completed in December 
2002, incorporates significant research, analysis, and planning by 
experts in architecture, urban design and planning. During this study, 
GSA analyzed the Courts' current and future space requirements, 
particularly in light of the significantly increased space needs of the 
Family Court. The Master Plan examined such issues as alignment of 
court components to meet evolving operational needs and enhance 
efficiency; the impact of the D.C. Family Court Act of 2001 (Public Law 
Number 107-114); accommodation of space requirements through 2012; and 
planning to upgrade facilities, including, for example, security, 
telecommunications, and mechanical systems. The Plan identified a space 
shortfall for the Courts over the next decade of 134,000 occupiable 
square feet, and, as noted above, proposed to meet that need through 
renovation of the Old Courthouse for adaptive reuse by the D.C. Court 
of Appeals; construction of an addition to the Moultrie Courthouse; and 
reoccupation of Building C, adjacent to the Old Courthouse. In 
addition, the Plan determined that other court facilities must be 
modernized and upgraded to meet health and safety standards and to 
function with greater efficiency.

                    FAMILY COURT IN THE MASTER PLAN

Interim Family Court Space Plan
    The Master Plan incorporates an Interim Space Plan for the Family 
Court that provides the facilities necessary to fully implement the 
Family Court Act, as well as a long term plan that optimizes space and 
programmatic enhancements for the Family Court. The Interim Space Plan 
for Family Court was completed in the summer of 2004 and procedural 
changes have been implemented within the Family Court to meet the 
requirements of the Family Court Act. Recently completed components of 
the Plan are straightforward.
  --During fiscal year 2002, the Courts constructed and reconfigured 
        space in the Moultrie Courthouse to accommodate nine new Family 
        Court magistrate judges and their support staff. The Courts 
        also constructed four new hearing rooms in Building B for 
        Family Court magistrate judges hearing child abuse and neglect 
        cases, and renovated short-term space for the Mayor's Services 
        Liaison Office.
  --Two Superior Court operations formerly located on the JM level of 
        the Moultrie Courthouse, the Small Claims and Landlord Tenant 
        Branches of the Superior Court's Civil Division, were relocated 
        in November 2003 to Building B to free space for the Family 
        Court. Construction of space and system upgrades in Building B 
        were completed and these Courts have been fully operational in 
        their new location since December 2003.
  --Construction in JM Level of the Moultrie Courthouse for the Interim 
        Space Plan of the Family Court was completed in the summer of 
        2004, and progress has been made toward establishing a fully 
        consolidated Family Court. The project provides the Family 
        Court with three new courtrooms, three new hearing rooms, the 
        Mayor's Services Liaison Office, a Centralized Family Court 
        Case Filing and Intake Center, a family-friendly child waiting 
        area, and a new Family Court entrance from the John Marshall 
        Plaza into the Moultrie Courthouse. In addition, the corridors 
        and hallways along the courthouse's JM-level were redesigned to 
        create family-friendly seating and waiting areas.

Long Term Family Court Space Plan
    The long term plan for the Family Court includes expansion of the 
Moultrie Courthouse. Once complete, it will provide a state-of-the-art, 
family-friendly facility for Family Court operations, with its own 
identity and separate entrance, which will be a model for the nation. 
The plan envisions a safe facility that will be inviting and welcoming 
to families with children of all ages and that will incorporate a 
``one-stop'' concept by locating all related court units in one place 
and making it easier for families to access needed social services from 
D.C. government agencies. The interim Family Court plan is designed to 
transition smoothly into this long term plan and to maximize the 
efficient use of time and money.
    The Master Plan studied the cost and feasibility of expanding the 
Moultrie Courthouse in the Feasibility Study for the H. Carl Moultrie I 
Courthouse--May 2003. This approach has been developed with the 
overarching objectives of keeping the court system continually 
operating efficiently while carefully complying with the Family Court 
Act. Independent projects related to the Family Court Act include the 
renovation and expansion of the Old Courthouse to free space in the 
Moultrie Building, system upgrades and renovation of Buildings A & B, 
occupation and renovation of Building C, leasing of space for functions 
not directly related to the public and court proceedings, and 
renovation and expansion of the Moultrie Courthouse. These projects 
will shift operations currently located in existing Court facilities 
(1) to create ``swing space'' that permits the required construction to 
take place in an operating courthouse that receives 10,000 visitors 
daily and (2) to make contiguous office space available for all related 
Family Court activities.

                  CAPITAL FUNDING IN FISCAL YEAR 2006

    To permit the Courts to continue to meet the needs of the community 
and the demands confronting the District's judicial branch, adequate 
resources are essential. The most critical issue we face today is 
sufficient capital funding to address the Courts' severe space shortage 
and aging infrastructure. Only by investing in these areas will the 
Courts be in a position to ensure that the type of security necessary 
to protect our citizens and our institution is in place, and that our 
facilities are in a safe and healthy condition and reasonably up-to-
date.
    The first part of the Capital Budget request identifies projects to 
renovate, improve, and expand court facilities, as specified in the 
Master Plan for Facilities. The request is a comprehensive, five-year 
plan, with projects divided into phases to the extent practicable. In 
fiscal year 2006, $59.26 million is requested to complete the 
construction of the Old Courthouse renovation, which began in March 
2005. In addition, $21.4 million is requested for the Juvenile Holding 
area renovation, C Street Expansion, and Renovation and Reorganization 
parts of the Moultrie Courthouse Renovation and Expansion project in 
fiscal year 2006. For work to renovate Building C and for construction 
in Building A, $35.5 million is requested. To design and prepare signs 
to guide the public through the court complex, which will become 
increasingly important as court operations move out of the Moultrie 
Courthouse, $5 million is requested. For design work to implement 
campus perimeter security features around Judiciary Square Court 
buildings including installation of plinth walls, bollards, fencing, 
and security furnishings and the widening of sidewalks, $3.5 million is 
requested. To begin design work on a new East Underground Garage 
project, $3 million is requested.
    The second part of the Capital Budget request addresses the 
condition of the Courts' existing infrastructure, including projects 
necessary for the health and safety of the public in the courthouse and 
including the Integrated Justice Information System (IJIS). The Courts 
have expanded the scope of the Fire and Security Alarm Systems project 
to include installation of a sprinkler system for the entire Moultrie 
Courthouse. This is a significant health and safety infrastructure 
upgrade for which $15.6 million is requested in fiscal year 2006, as 
recommended by GSA and U.S. Marshals Service studies. For HVAC, 
Electrical, and Plumbing Upgrades to remediate lead-contaminated 
drinking fountains, provide adequate ventilation, and meet electrical 
load needs, among other things, $27 million is requested. To renovate 
dilapidated restrooms used by the public and court staff, $2.5 million 
is requested. In addition, $8.6 million is requested for, among other 
things, ADA accessibility, safety repairs, and refurbishment of run-
down areas in courtrooms and secure areas. To improve safety and ADA 
accessibility in public areas, to clean the exterior of the Courts' 
buildings, to replace doors and windows in historic Buildings A and B, 
to repair roofing and to make other general repairs, $10 million is 
requested. Finally, $1.51 million is requested for continued 
implementation of IJIS.
    The capital projects identified are critical to the Courts' ability 
to meet the current and future needs of the District of Columbia 
Courts. Approval of the requested capital funding in fiscal year 2006 
offers important advantages including: (1) addressing urgent public 
health and safety conditions in the Court's busy buildings; (2) 
allowing ongoing projects to continue without interruption, thereby 
avoiding increased costs occasioned by delays; (2) and meeting the 
Courts' critical space requirements, including our New Family Court.

                     STATUS OF KEY CAPITAL PROJECTS

Old Courthouse Restoration
    The D.C. Courts' numerous facilities renovation projects have 
converging critical scheduling paths. The Old Courthouse project is the 
first step in a series of interdependent moves that must progress in 
sequence to provide space and make way for the next step in the Courts' 
Master Plan for Facilities. Since the pre-design study for the 
restoration was completed in 1999, the Courts have, with the support of 
Congress and the President, taken steps to preserve the building, 
including making watertight the roof, and mothballing the building. 
Design of the Old Courthouse restoration began April 30, 2003 with the 
selection, from among nearly 30 bids in the General Services 
Administration procurement process, of Beyer Blinder Belle Architects 
and Planners LLP (BBB). BBB is a nationally renowned architectural and 
engineering firm whose historic preservation and renovation projects 
have included Grand Central Station, Ellis Island, and the U.S. 
Capitol.
    BBB first completed the design of the first phase of the 
restoration, the parking garage to be shared by the U.S. Court of 
Appeals for the Armed Forces, and its construction has begun.
    BBB has also completed the design of the Restoration of the Old 
Courthouse itself. The regulatory agency approval process is completed. 
The Commission of Fine Arts (CFA) gave final approval to the Old 
Courthouse design on July 15, 2004 and the National Capital Planning 
Commission (NCPC) approved the design of the Old Courthouse and the 
interim plaza on August 5, 2004. As requested by both agencies, the 
Courts continue to seek an agreement on a final design for the plaza 
with the National Law Enforcement Museum (NLEM), which is authorized to 
build an underground museum with aboveground entrance pavilions on part 
of the site. We believe that the key to an agreement is a neutral 
treatment that respects dignity of the Old Courthouse as well as the 
separation between law enforcement and courts of law that must 
necessarily exist in our system of government.
    We are very pleased that the President has supported the Courts' 
plans for the construction phase of the Old Courthouse restoration, 
including $51.5 million in his budget recommendations for the Courts.

Moultrie Courthouse Expansion
    The expansion of the Moultrie Courthouse is a key element in the 
long-term plan for Family Court. The expansion builds on the interim 
plan for the Family Court, completed last summer, that consolidates the 
public face of the Family Court through a centralized intake center and 
space for the Mayor's Services Liaison Office and provides a separate 
entrance as well as new courtrooms, hearing rooms, and a family-
friendly child waiting area. The expansion will complete the facilities 
enhancements for the Family Court providing, for example, additional 
space for child protection mediation, increased Child Care Center 
space, and safe and comfortable family waiting areas. It will also 
fully consolidate all administrative operations of the Family Court 
including relocation of juvenile probation (the Social Services 
Division of the Family Court) from Building B to the Moultrie 
Courthouse. A portion of the addition will meet critical space needs 
for other Superior Court operations.

                    COMPLETE BUDGET REQUEST SUMMARY

    To build on past accomplishments and to serve the public in the 
District of Columbia, the Courts require additional resources in fiscal 
year 2006 to invest in capital infrastructure and technology; security; 
strategic management; self-representation services; enhanced and more 
timely customer service; financial, materiel, and facilities 
management; and human resources. Without additional capital resources, 
the courthouse and the District's historic buildings will continue to 
deteriorate; without remediation, the Courts' information technology 
will fail; and without targeted investments in these critical areas, 
the quality of justice in the Nation's Capital will be compromised. The 
fiscal year 2006 request addresses these requirements by:
  --Investing in Infrastructure.--To ensure the health, safety, and 
        quality of court facilities and to address court space needs, 
        the fiscal year 2006 capital request totals $192,874,000. The 
        fiscal year 2006 capital request incorporates the significant 
        research and planning comprising the D.C. Courts' first-ever 
        Master Plan for Facilities, completed in December 2002. In the 
        master plan process, the General Services Administration (GSA) 
        analyzed the Courts' current and future space requirements, 
        particularly in light of the significantly increased space 
        needs of the Family Court, and established a 134,000 occupiable 
        square feet shortfall over the next ten years. The Master Plan 
        recommended a three-part approach to meeting the Courts' space 
        needs: (1) restoration of the Old Courthouse at 451 Indiana 
        Avenue to house the D.C. Court of Appeals and to make 
        additional space available in the Moultrie Courthouse to 
        accommodate the Family Court and other Superior Court 
        operations; (2) an addition to the Moultrie Courthouse to 
        accommodate fully consolidated and state-of-the art Family 
        Court facilities; and (3) reoccupation of Court Building C, 
        adjacent to the Old Courthouse and currently being vacated by 
        the District government.
  --Old Courthouse.--Included in the Courts' capital request is 
        $59,260,000 \6\ to complete the restoration of the Old 
        Courthouse. Built from 1820 through 1881, the Old Courthouse is 
        an architectural jewel that has been the site of many historic 
        events. The structure is uninhabitable in its present condition 
        and requires extensive work to ensure that it meets health and 
        safety building codes. Design of the project began in June 
        2003, and construction of the accompanying garage is scheduled 
        to begin in February 2005. In the fiscal year 2005 
        appropriation, Congress financed the first phase of the project 
        and expressed its support for the restoration and its 
        commitment to fund it in fiscal year 2006. The work begun in 
        fiscal year 2005 must proceed without delay in fiscal year 2006 
        to avoid disruption of the work, increased costs, and the risk 
        of costly partial restorations in a building that cannot be 
        used until completed. Restoring this historic landmark to meet 
        the urgent space needs of the Courts and preserving it for 
        future generations are critical priorities for the District of 
        Columbia Courts.
---------------------------------------------------------------------------
    \6\ Please note that the Courts' request to the President for this 
project was $51,500,000, which was based on the average of the House 
and Senate versions of the fiscal year 2005 appropriations bill. The 
enacted fiscal year 2005 figure was lower than this average, 
necessitating an increased request for this project.
---------------------------------------------------------------------------
  --Moultrie Courthouse.--Also included in the capital budget request 
        is $21,400,000 to continue work on the Moultrie Courthouse, as 
        delineated in the Master Plan. This amount includes $9,000,000 
        for the design \7\ of the C Street Expansion, an addition 
        planned for the south side of the Moultrie Courthouse. The 
        addition will complete the facilities enhancements for the 
        Family Court, providing, for example, a new Family Court 
        entrance, child protection mediation space, increased Child 
        Care Center space, safe and comfortable family waiting areas, 
        and consolidation of all related Family Court offices in one 
        place (to include the Social Services Division, currently 
        housed in Court Building B, which provides juvenile probation 
        supervision). Furthermore, a portion of the addition will meet 
        critical space needs for other Superior Court operations. This 
        request also includes (1) $5,000,000 to renovate space in the 
        Moultrie Building for the juvenile holding area, which will 
        free space for Family Court offices; (2) $6,000,000 for the 
        second phase of the renovation and reorganization of the 
        Moultrie Courthouse, to make optimal use of existing space as 
        envisioned in the Master Plan; and (3) $1,400,000 for 
        preconstruction work on the Indiana Avenue expansion of the 
        Moultrie Courthouse primarily to provide a security screening 
        lobby for the public to await entry to the courthouse sheltered 
        form the weather.
---------------------------------------------------------------------------
    \7\ Funds provided for this project in fiscal year 2005 had to be 
reprogrammed to another construction project.
---------------------------------------------------------------------------
  --Maintaining Infrastructure.--The capital budget also includes 
        $48,100,000 to maintain the Courts' existing infrastructure, 
        preserving the health and safety of courthouse facilities for 
        the public and the integrity of historic buildings for the 
        community. The Courts facilities encompass more than 1.1 
        million gross square feet of space. Over the course of many 
        years, limited resources have forced the Courts to defer 
        routine maintenance of these facilities, leading to increased 
        risk of system failures that threaten public health and safety 
        in the Courthouse. For example, the $27,000,000 requested for 
        HVAC, Electrical and Plumbing Upgrades will be used to replace 
        public drinking fountains that have been disconnected due to 
        lead contamination and 21 failing air handling units that 
        ventilate the Moultrie Courthouse. Historic court buildings on 
        Judiciary Square, such as Buildings A and B, were funded by 
        Congress and constructed in the 1930's and require ongoing 
        maintenance, such as the replacement of doors and windows. The 
        cost for such maintenance is included in the fiscal year 2006 
        General Repair Projects request.
  --Homeland Security.--To protect the 10,000 daily visitors to the 
        courthouse and meet the increased security threat post 
        September 11, 2001, the Courts' capital budget request includes 
        $19,100,000, for security enhancements. This figure includes 
        $3,500,000 for campus perimeter security to protect the 
        occupants of the high-profile court buildings in Judiciary 
        Square and $15,600,000 to finance fire and security 
        improvements recommended by both a U.S. Marshal Service 
        Physical Security Survey and a GSA Preliminary Engineering 
        Report (including design, construction, and installation of a 
        new fire and security system and building sprinklers as well as 
        additional security cameras, duress alarms and upgrades).
  --Investing in Information Technology (IT).--To achieve the Courts' 
        strategic goal of improving technology, including providing a 
        case management system with accurate, reliable data across 
        every operating area available to the judiciary, the District's 
        child welfare and criminal justice communities and the public, 
        the Courts request $4,744,000 in fiscal year 2006. This amount 
        includes $3,230,000 in the operating budget for a new case 
        management system in the Court of Appeals, IT infrastructure 
        enhancement, IT business integration, and systems to enhance 
        service to District citizens serving as jurors. In addition, 
        the Courts' capital budget request includes $1,514,000 to 
        finance the final phase of IJIS, which the Court launched in 
        fiscal year 1999. As noted above, implementation of IJIS is 
        well underway, with the full Family Court module operational in 
        December 2003 and the Probate module operational in May 2004.
  --Strategic Planning and Management.--To support implementation of 
        long-range strategic planning and court performance measurement 
        and reporting, $635,000 is requested for an Office of Strategic 
        Management. This request would build on the Courts current 
        strategic planning effort by coordinating enterprise-wide 
        projects and enhancing the Courts' performance measurement 
        capability. The request would finance performance management 
        software, training, and staff to establish and analyze court 
        performance, perform strategic planning, and coordinate and 
        prioritize competing projects and activities.
  --Serving the Self-Represented.--To enhance equal access to justice 
        for the more than 50,000 litigants without lawyers who come to 
        the courthouse each year, especially in the Family Court, Civil 
        Division, and Court of Appeals, $1,895,000 and 10 FTEs are 
        requested for staff and facilities for a Self-Representation 
        Service Center. This initiative would utilize best practices 
        and build upon the very limited pro bono services currently 
        available in the courthouse. This initiative is particularly 
        vital to the public we serve, as a recent study found that 
        local agencies providing legal services to the poor turn away 
        more than 50 percent of persons who seek assistance. These 
        individuals require assistance when they arrive in the 
        courthouse with no choice but to represent themselves.
  --Enhanced and More Timely Public Service.--To enhance and provide 
        more timely services to the public, the Courts' fiscal year 
        2006 request includes $1,833,000 and 11 FTEs. Included in the 
        total is $780,000 for a pilot program to enhance the record of 
        court proceedings and timely transcript production; $525,000 
        and 8 FTEs to provide services for incapacitated adults and 
        other customers in the Probate Division; $259,000 and 2 FTEs to 
        expand mediation, interpreting and juror services; and $269,000 
        and 1 FTE to undertake community outreach, to increase 
        monitoring of juveniles on probation and to enhance the 
        reference materials in the library.
  --Financial, Materiel, and Facilities Management.--To enhance 
        financial, materiel, and facilities management, $2,098,000 and 
        15 FTEs are requested. Included in the total is $636,000 and 8 
        FTEs to build upon financial and program management 
        improvements, including creation of an independent internal 
        audit function; $722,000 and 1 FTE for materiel management, 
        including warehouse space, equipment, and staff; and $740,000 
        and 6 FTEs to enhance facilities management and administrative 
        support, including building engineers and equipment leases.
  --Investing in Human Resources.--To help the Courts attract, develop, 
        and retain highly qualified employees and address the risks of 
        high retirement eligibility, $1,852,000 is requested, including 
        $800,000 for succession planning and tuition assistance and 
        $109,000 and one FTE to enhance training for court personnel. 
        Currently, 24 percent of the Courts' non-judicial employees, of 
        whom 17 percent are in top management positions, are eligible 
        to retire in the next five years, representing a potential loss 
        of experience and talent that the Courts must plan now to 
        address.
  --Built-In Increases.--The fiscal year 2006 request also includes 
        $3,417,000 for a COLA increase, $676,000 for non-pay 
        inflationary cost increases, and $568,000 for within-grade 
        increases. The Courts' request includes within-grade increases 
        for employees because unlike typical agencies, which may fund 
        these increases through cost savings realized during normal 
        turnover, the Courts have a very low turnover rate (7 percent 
        in fiscal year 2004).
  --Strengthening Defender Services.--In recent years, the Courts have 
        devoted particular attention to improving the financial 
        management and reforming the administration of the Defender 
        Services programs. For example, the Courts have significantly 
        revised the Criminal Justice Act (CJA) Plan for representation 
        of indigent defendants to ensure that highly qualified 
        attorneys represent indigent defendants. In addition, the 
        Courts have developed a new Counsel for Child Abuse and Neglect 
        (CCAN) Plan for Family Court cases, adopting Attorney Practice 
        Standards and requiring attorney training and screening to 
        ensure that well-qualified attorneys are appointed in these 
        cases. The Guardianship Program has also been revised, imposing 
        a training requirement on attorneys participating in the 
        program.
      In the Defender Services account, the Courts' fiscal year 2006 
        budget request represents an increase of $15,500,000 over the 
        fiscal year 2005 enacted level of $38,500,000. Of the total 
        increase, $6,500,000 is requested to cover projected increases 
        in the base program due to higher criminal caseloads, increases 
        in a contract guardian ad litem program, and program management 
        efficiencies that have resulted in accelerated attorney 
        payments. The remaining $9 million reflects a compensation 
        adjustment for attorneys from $65 to $90 per hour, to keep pace 
        with the rate paid court-appointed attorneys at the Federal 
        courthouse across the street from the D.C. Courts.

                               CONCLUSION

    Mister Chairman, Senator Landrieu, Subcommittee members, the 
District of Columbia Courts have long enjoyed a national reputation for 
excellence. We are proud of the Courts' record of administering justice 
in a fair, accessible, and cost-efficient manner. Adequate funding for 
the Courts' fiscal year 2006 priorities is critical to our success, 
both in the next year and as we implement plans to continue to provide 
high quality service to the community in the future. We appreciate the 
President's level of support for the Courts' funding needs in 2006 and 
the support we have received from the Congress. We look forward to 
working with you throughout the appropriations process, and we thank 
you for this opportunity to discuss the fiscal year 2006 budget request 
of the Courts.

    Senator Brownback. Thank you, Judge Wagner. How many years 
have you served the court system? You were telling me the other 
day.
    Judge Wagner. In June, it will be 28 years. I've been on 
the Court of Appeals since 1990 and served in the trial court 
prior to that time. It's been a wonderful opportunity. It's 
been a privilege to serve. It has made me both proud and 
optimistic about our future.
    Senator Brownback. I remember you saying the number of 
years, and I was very impressed. And that's fabulous. Thanks 
for your years of great service that you've provided, and 
continue to provide, as well, in the courts.
    Judge King, who has a distinguished set of years, too. How 
many years, as well?
    Judge King. I'm 20, now.
    Senator Brownback. Twenty. Oh, a mere child.

STATEMENT OF HON. RUFUS KING, III, CHIEF JUDGE, 
            SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
    Judge King. Mr. Chairman, Senator Landrieu, subcommittee 
members, thank you for this opportunity to discuss the D.C. 
Courts' fiscal year 2006 budget request.
    I'm Rufus King, III, and I'm appearing in my capacity as 
Chief Judge of the Superior Court of the District of Columbia.
    As you know, the Superior Court is the trial court for the 
District of Columbia. It is a unified court of general 
jurisdiction, hearing matters brought to court under all areas 
of District of Columbia law.
    Chief Judge Wagner's testimony on behalf of the Joint 
Committee on Judicial Administration details the courts' 
complete budget request. So, my testimony will highlight the 
Family Court, the integrated justice information system (IJIS), 
and some of our problem-solving courts as initiatives of 
special importance to the Superior Court.
    The District of Columbia Family Court Act of 2001 changed 
the way the court serves children and families in the District. 
The act authorized additional judges, and this subcommittee 
provided additional resources to enable the court to meet the 
challenges presented by those special cases and as authorized 
under the act.
    The Family Court, ably led by presiding Judge Lee 
Satterfield, his deputy, Judge Anita Josey-Herring, and 
division director Dianne King, has largely implemented the 
Family Court Act. Through close collaboration with D.C. 
executive branch agencies in the child welfare system, the 
Family Court is making great strides in improving the lives of 
children and families in the District.
    Recently, we have increased the compliance with the 
Adoptions and Safe Families Act. In 2003, the compliance rate 
was 93 percent, as opposed to 51 percent in the year 2000, when 
we started, just before the act was passed.
    The court has implemented the Benchmark Permanency Hearing 
Pilot Program for older youth in foster care to help them plan 
for the time when they become independent. Children between the 
ages of 15 and 21 years make up 35 percent of the children 
under court supervision in our neglect system.
    In July, we opened the new Family Court space in the 
Moultrie Courthouse. This space consolidates the public face of 
the Family Court, and, as you saw yesterday, Mr. Chairman, 
provides a family friendly environment with comfortable waiting 
areas. I am especially proud to be able to report that all of 
the construction for the Family Court has been completed in-
budget and on time.
    We have established a truancy task force to address absence 
from school as one of the early warning signs of troubled 
families and children, as well as a predictor of future crime.
    Turning to the integrated justice information system, the 
courts' unified information technology initiative was put in 
place to consolidate 20 different databases and provide 
comprehensive information to judicial officers. It was 
implemented first in the Family Court. To date, it has been 
implemented in the Family Court, the Probate Division, and the 
small claims and landlord/tenant branches of the civil 
division. The remainder of the civil division and the criminal 
division are scheduled to come online later this year, which 
will complete its implementation in Superior Court.
    When the system is completed, judges and staff will be able 
to easily cross-reference cases in any division of the court so 
that a judge in a neglect case will be able to keep track of 
other cases involving that family in criminal court or 
landlord/tenant court, as well as in other family cases.
    Critical to the principle of ``one family, one judge,'' the 
IJIS system also enhances efficiency of operations and provides 
better information to judges and the public. It also supports 
our ability to communicate with other child welfare agencies, 
as required in the Family Court Act.
    In response to the needs in a different community we serve, 
the Superior Court has implemented several programs known as 
``problem-solving courts.'' These courts are gaining prominence 
nationally as communities seek to cope with lower-level or 
quality-of-life crimes. The expectation is that by addressing 
the causes underlying minor crimes, such as substance abuse and 
mental health issues, early, the court helps slow down the rate 
of recidivism and graduation to more serious crime. These 
courts combine restorative justice under which the offender 
repays the community in some way--cleaning up the graffiti, 
doing some form of community service, for example--and 
therapeutic justice, in which an effort is made, from the very 
outset of a case, to connect the offender with social services 
or other services that might be needed in order to address 
underlying problems.
    The Superior Court has several such problem-solving courts. 
The D.C. and traffic community court serves all of those cases. 
The east of the river community court serves a variety of minor 
criminal offenses. An adult drug court and juvenile drug court 
serve those particular needs. And a family treatment court 
serves the needs of persons afflicted with drug abuse in a 
family setting, prior to the breakup of the family, rather than 
following it.
    The east of the river community court, to take one, just 
one, was implemented for all cases from wards 6 and 7, as a 
pilot project in September 2002. This community faces 
significant inner-city challenges, including high rates of 
poverty, crime, and disorder. And these rates are actually 
higher there than in many parts of the city. Most defendants 
appearing in this court have substance abuse problems and lack 
job skills and education. The court seeks to ensure that those 
who have harmed the community through criminal activities 
perform community service, and the judge seeks to implement and 
coordinate the implementation of services designed to 
discourage the defendants from returning to court.
    Mr. Chairman, the D.C. Courts are proud of our efforts to 
serve children and families and to implement technology that 
enables them to enhance our service to the public and to 
respond directly to community needs. We expect to continue 
these programs in the future, with your support.

                           PREPARED STATEMENT

    Thank you for this opportunity to address the subcommittee. 
I'd be pleased to answer any questions you may have.
    Senator Brownback. Thank you, Judge King.
    [The statement follows:]

                Prepared Statement of Rufus G. King, III

    Mister Chairman, Senator Landrieu, Subcommittee members, thank you 
for this opportunity to discuss the D.C. Courts' fiscal year 2006 
budget request. I am Rufus King and I am appearing in my capacity as 
the Chief Judge of the Superior Court of the District of Columbia.
    As you know, the Superior Court is the trial court for the District 
of Columbia. It is a unified court of general jurisdiction, hearing 
matters brought to court under all areas of District of Columbia law.
    Chief Judge Wagner's testimony on behalf of the Joint Committee on 
Judicial Administration details the Courts' complete budget request, so 
my testimony will highlight specific operational areas of the Superior 
Court, in particular the Family Court, the Integrated Justice 
Information System, and our problem-solving courts.

                      FAMILY COURT IMPLEMENTATION

    The District of Columbia Family Court Act of 2001 changed the way 
the court serves children and families in the District. The Act 
authorized additional judges and this Subcommittee provided additional 
resources to enable the Court to meet the challenges presented by the 
Act. Key elements of implementing the Act included the One Family/One 
Judge concept, improved use of technology, and creation of family-
friendly space in the courthouse.
    The Family Court, ably led by Presiding Judge Lee Satterfield and 
Division Director Dianne King, after examining best practices around 
the nation, has largely implemented the major elements of the Family 
Court Act. Through close collaboration with Executive Branch agencies 
in the child welfare system, the Family Court is making great strides 
in improving the lives of children and families in the district.
    The Court's Transition Plan, submitted pursuant to the Family Court 
Act in April 2002, set out seven specific goals to achieve its mission 
of providing positive outcomes for children and families. Last month, 
the Court submitted to Congress the third annual Family Court report, 
which details the Family Court's activities in 2004. I would like to 
highlight some of the measures taken and continued recently to achieve 
each goal.
    1. Make child safety and prompt permanency the primary 
considerations in decisions involving children.
  --Completed implementation of one family, one judge case management 
        approach.
  --Increased compliance with the Adoptions and Safe Families Act 
        (ASFA) \1\. In 2003, 93 percent of cases were in compliance 
        with ASFA permanency hearing requirements, compared to 51 
        percent in 2000.
---------------------------------------------------------------------------
    \1\ Refers to the Federal ASFA statute, Public Law 105-89.
---------------------------------------------------------------------------
  --Established Attorney Practice Standards for juvenile cases.
  --Continued use of improved AFSA compliant court order forms.
  --Continued operation of the Mayor's Services Liaison Center at the 
        courthouse.
  --Continued operation of the Benchmark Permanency Hearing pilot 
        program for older youth in foster care to help them make 
        decisions and plans for their future and to coordinate a full 
        range of services necessary for their success when they gain 
        independence. Children 15 years of age or older make up 35 
        percent of children under court supervision in the neglect 
        system.
  --Continued operation of the Family Treatment Court.
    2. Provide early intervention and diversion opportunities for 
juveniles charged with offenses, to enhance rehabilitation and promote 
public safety.
  --Use Time Dollar Institute's Youth Court Diversion Program (run by 
        students).
  --Collaborated with the Metropolitan Police Department to create a 
        Restorative Justice Supervision Program to address an increase 
        in unauthorized use of motor vehicle crimes by juveniles.
    3. Appoint and retained well-trained and highly motivated judicial 
officers.
  --Conducted third annual Family Court Interdisciplinary Cross 
        Training Conference, entitled ``Family Court Partnerships: 
        Supporting the Emotional Well-Being and Mental Health of 
        Children, Youth, and Families,'' in October 2004.
  --Planned and hosted bi-monthly cross training programs for all 
        stakeholders.
  --Participated in national training programs on issues relating to 
        children and families, including training programs and an 
        annual conference of the National Council of Juvenile and 
        Family Court Judges.
    4. Promote alternative dispute resolution.
  --Continued operation of the Child Protection Mediation Program, 
        which has been found to result in significantly faster 
        adjudication, disposition, and permanency in children's cases. 
        In addition, mediation appears to reduce recidivism in neglect 
        cases.
  --Continued implementation of the case evaluation program in 
        partnership with the D.C. Bar, for domestic relations cases 
        when counsel represents parties.
  --Implemented same day mediation in domestic relations cases.
    5. Use technology effectively to track cases of children and 
families.
  --Collaborated with the Child and Family Services Agency (CFSA) to 
        scan court orders into the agency's automated system so that 
        agency social workers have complete and accurate information.
  --Continued operating courtwide the Integrated Justice Information 
        System (IJIS) to facilitate case management.
    6. Encourage and promote collaboration with the community and 
community organizations.
  --Continued to meet regularly with stakeholders and participated in 
        numerous committees of organizations serving children and 
        families.
    7. Provide a family friendly environment by ensuring materials and 
services are understandable and accessible.
  --In July, opened the new Family Court space in the Moultrie 
        Courthouse. This space consolidates the public face of the 
        Family Court with centralized intake center, provides one-stop 
        shopping with the Mayor's Services Liaison Center, and provides 
        a family-friendly environment with comfortable waiting areas 
        decorated with artwork created by children from the D.C. Public 
        Schools.
  --Continued operation of the Pro-Se Self Help Clinic at the 
        courthouse, in partnership with the D.C. Bar, so litigants 
        without counsel can obtain materials about Family Court 
        processes and seek assistance with court forms.
  --Continued review and revision of Family Court forms, through 
        working groups, to make them more understandable.
    I would like to mention one other initiative in the Family Court: 
the Truancy Task Force. A joint effort of the Family Court, the D.C. 
School Board, the D.C. Public Schools, the Child and Family Services 
Agency, the Metropolitan Police Department, the Public Defender Service 
and the D.C. Office of the Attorney General seeks to address truancy, 
which is often the first sign of problems in the home. These problems 
may result in the child's misbehavior, a criminal act that brings 
juvenile delinquency charges, or adult criminal acts.
    The truancy effort involves a protocol for parents of students with 
more than 15 unexcused absences to determine whether services are 
needed, the child is neglected, or a criminal charge should be brought 
for violation of the Compulsory School Attendance Act. One Family Court 
judge hears cases of all of a parents' children. Early intervention 
demonstrates to parents that they have a responsibility to get their 
children to school. CFSA works with the family to determine whether 
services, such as parenting classes, are needed and monitors to make 
sure the children are back in school and no educational or other 
neglect occurs.
    The Truancy Task Force has made great strides over the past year. 
So far this initiative has shown tremendous success: a reduction in 
truancy of 51 percent for elementary school children between the first 
semester of the 2003 school year and the first semester 2004.

                 INTEGRATED JUSTICE INFORMATION SYSTEM

    The Court's major information technology initiative to consolidate 
some 20 different data bases and provide comprehensive information to 
judicial officers was implemented first in the Family Court. The 
Integrated Justice Information System (IJIS) is especially critical in 
the Family Court, where related case data is necessary to make the best 
decisions for children and families.
    IJIS is a multi-year project to replace the aging computer 
infrastructure of the Superior Court and link it with the Court of 
Appeals by creating an integrated case information system to eliminate 
the fragmented legacy systems. The project was commenced in fiscal year 
1999 with a Federal grant-funded needs assessment. After much planning 
and preparation, implementation began late in fiscal year 2002, and we 
expect to complete the implementation later this year.
    Apart from making the policy of one judge/one family possible in 
Family Court, IJIS project is part of a District-wide effort to improve 
information technology within and among the District's criminal justice 
agencies. Once complete, the system will allow the Court electronically 
to store and retrieve data, to make information available to the 
public, and to exchange vital information with law enforcement and 
homeland security agencies much more effectively.
    In August 2003, the Courts implemented Wave 1 of the Family Court. 
Family Court began using IJIS to process adoptions cases, abuse and 
neglect cases, and juvenile delinquency cases. In addition, IJIS was 
used for juvenile probation cases in the Family Court's Social Services 
Division and Family Court mediation cases in the Court's Multi-Door 
Dispute Resolution Division. In December 2003, with Wave 2, IJIS was 
implemented in additional Family Court cases, including domestic 
relations and mental health and mental retardation, and the Marriage 
Bureau and Counsel for Child Abuse and Neglect office. The Central 
Intake Center began using IJIS in August 2004 when it opened.
    The Family Court has been sharing data with the Child and Family 
Services Agency, the Department of Youth and Rehabilitative Services 
(formerly the Youth Services Administration), the Office of the 
Attorney General, and the Pre-Trial Services Agency through the JUSTIS 
system, an interagency data sharing system created originally to 
address criminal justice data sharing needs. The Court has continued to 
involve all interested internal and external stakeholders as it has 
validated requirements, developed testing plans, and conducted 
training.
    IJIS implementation continued in other divisions of the Superior 
Court. The Probate Division began using IJIS in May 2004. IJIS was 
implemented in the Small Claims Branch of the Civil Division in 
December 2004. The Civil Division's Landlord Tenant Branch began using 
IJIS in February 2005. The Criminal Division is scheduled to come on 
line later this year.

                         PROBLEM SOLVING COURTS

    In response to needs in the community we serve, the Superior Court 
has implemented several programs known as problem-solving courts. These 
types of courts are gaining prominence nationally as communities seek 
to cope with lower level or ``quality of life'' crimes and the social 
ills, which frequently underlie these kinds of crimes. These courts 
typically combine restorative justice, in which the offender repays the 
community, such as through community service, and therapeutic justice, 
in which the offender is linked with social services available through 
Executive Branch agencies or in the community, for example alcohol 
counseling.
    The Superior Court has several such problem solving courts. My 
remarks today will highlight the D.C. and Traffic Community Court, the 
East of the River Community Court, a drug court, and the Family 
Treatment Court. In addition, I will discuss the Domestic Violence 
Unit, a one-stop-shopping program that links domestic violence victims 
with government and community assistance.

Community Courts
    Community courts are collaborative efforts that bring together 
courts, government agencies, and community partners to respond to crime 
and public safety issues in innovative ways. In a community court, 
numerous parties play a role in solving local problems--not just the 
traditional judge, prosecutor and defense attorney, but also social 
service providers, government agencies, community organizations, and 
individual residents. Through this partnership, community courts can 
respond more effectively to crime and develop solutions that improve 
outcomes for the community, the victims, and the defendants.
    As in a traditional court setting, these courts seek to determine 
guilt or innocence. Unlike traditional courts, they have a broad array 
of responses. Community courts seek not only to punish offenders but 
also to repair the harm done. Community courts frequently require 
offenders to repay the community by performing court-supervised 
community service. They also seek to reduce the likelihood of future 
offenses by linking offenders to needed services, such as drug 
treatment, job training, or mental health services.
    By strengthening ties between the Court and the community, the 
community courts ultimately seek to improve neighborhood daily life, 
strengthen communities and improve public confidence in the criminal 
justice system. The Superior Court has two community courts: the D.C. 
and Traffic Community Court and the East of the River Community Court.
    Implemented in January 2002, the D.C. and Traffic Community Court 
handles all D.C. misdemeanor cases and traffic violations from all 
parts of the City. D.C. misdemeanor crimes, often referred to as 
``quality of life'' offenses, include, for example, disorderly conduct, 
aggressive panhandling, possession of an open container of alcohol, and 
drinking in public. Although such criminal behavior is not violent, it 
can have significant negative impacts on communities. Much of this 
court's business is traffic cases, including a substantial number of 
cases involving driving without permits, operating after suspension 
and/or revocation. In a diversion program, charges may be dropped 
against defendants without driver's permits if they obtain valid 
licenses.
    The East of the River Community Court was implemented as a pilot 
project in September 2002, and expanded into a permanent program in 
June 2003. This community court handles all U.S. misdemeanor cases 
(i.e., prostitution and minor drug offenses) not involving domestic 
violence that occur in area east of the Anacostia River, a community 
facing significant inner-city challenges, including higher rates of 
poverty, crime and disorder than in other sections of the District. In 
the Community Court, the judge, prosecutor, defense counsel, and 
pretrial services staff work together to identify social service needs 
that may contribute to criminal behavior and to fashion appropriate 
diversion programs to address those needs. Most defendants appearing in 
the Court have substance abuse problems and lack job skills and 
education. In addition, the Court seeks to ensure that those who have 
harmed the community through criminal activities perform community 
service that benefits the same community. The judge seeks to administer 
justice in a manner that reflects a balance between punishment, 
community restitution, and services that the defendant may need. The 
judge also attends numerous community meetings and other neighborhood 
events to establish and strengthen relationships with community 
residents, keep abreast of community developments, and better address 
crime problems and community concerns.

Drug Court
    The Superior Court Drug Intervention Program (Drug Court) was 
launched following a 1993 pilot project determined that a sanctions-
based program, which penalized participants for failing drug tests and 
encouraged treatment, was an effective drug court model due to the 
certainty of penalties, the swiftness of penalties, and the fairness of 
the process. In fiscal 2004, among pre-trial defendants who use drugs, 
23 percent were rearrested while on pretrial release; however, among 
Drug Court participants, only 10 percent were rearrested
    The court serves as a forum for motivating, supporting, and 
measuring progress as the defendant goes through drug rehabilitation. 
Defendants in the Drug Court gain early program intervention after 
arrest, undergo regular urinalysis, and receive immediate access to 
needed treatment. Eligibility requirements for the Drug Court program 
are closely monitored in cooperation with the U.S. Attorney's Office. 
The Drug Court is open to misdemeanants either as a diversion program 
or after a finding of guilty or entry of guilty plea and to felony-
charged defendants as a pre-trial release option.
    The Drug Court uses supervision, client-centered treatment 
interventions, and immediate and meaningful responses to defendant 
behavior to promote each participant's desire to lead a drug free life. 
Case managers monitor the defendant's compliance and provide 
supervision and substance abuse counseling services. Drug-testing staff 
provides results to measure the defendant's progress.

Family Treatment Court
    The Family Treatment Court is a yearlong voluntary, comprehensive 
substance abuse treatment program for mothers (or other female 
caretakers) whose children are the subject of a child neglect case. In 
May 2003, the Family Court and the Office of the Deputy Mayor for 
Children, Youth, Families, and Elders, in cooperation with key District 
health and human services agency stakeholders, partnered to develop the 
Family Treatment Court (FTC), an effort to serve drug-dependent mothers 
with active child neglect cases and to assist them to enhance their 
parenting skills.
    The mission of the FTC is to promote safe and permanent homes for 
children by working collaboratively with stakeholders to develop 
readily accessible services based on a continuum of care that is 
culturally competent, family focused, and strength based. The goal of 
the FTC is to help the individual abstain from drug use and to promote 
emotional, financial, and personal self-sufficiency with enhanced 
parenting and coping skills.
    Those interested in participating must stipulate to the allegations 
of neglect. The first 6 months involve the residential component of the 
program, where the women are housed in a treatment facility. Following 
a period of adjustment, up to four children aged ten and under may 
accompany their mother in the program. Program participants receive 
intensive drug treatment, individual and/or family counseling, 
parenting instruction, health screenings, mental health treatment, and 
biweekly court appearances before the Family Treatment Court Judge. 
Social workers from the Child and Family Services Agency ensure that 
the goals embodied in the identified treatment plan for both children 
and their mother are met.
    If the mothers successfully complete the residential phase, they 
formally graduate and proceed to the community-based after care phase 
under the auspices of the Addiction Prevention and Recovery Program 
(APRA). Strict court monitoring and drug testing remain in effect. 
Through the collaborative efforts of the Mayor's Services Liaison 
Office and stakeholder partnerships, the women are afforded 
opportunities to procure housing and jobs and to further their 
education.

Domestic Violence Unit
    The Court's award-winning Domestic Violence Unit hears cases in 
which parties request protection orders against persons to whom they 
are related. The Unit provides ``one-stop-shopping'' for domestic 
violence victims through two intake centers staffed by the U.S. 
Attorney's Office, the D.C. Office of the Attorney General, the 
Metropolitan Police Department, Women Empowered Against Violence 
(WEAVE), and D.C. Coalition Against Domestic Violence. Victims can file 
for a temporary protection order on the basis of alleged domestic 
violence, receive legal counsel, and support services, and meet with an 
advocate from the Court's Crime Victim's Compensation Program to find 
out about other resources available to them.
    In October 2002, the Court opened the satellite Domestic Violence 
Intake Center at Greater Southeast Hospital. Twenty-eight percent of 
new domestic violence cases are filed at the Southeast center. The 
location is convenient for Southeast residents: there is free parking 
and it is Metro-accessible. In addition, the location in the hospital 
facilitates the provision of both medical care and legal protection. 
The petitioner is transported via a web camera to the judicial officer 
hearing the request in a courtroom at the Moultrie Courthouse. Judges 
hear and see the petitioners and, if appropriate, grant and issue 
temporary protection orders, which are transmitted electronically from 
the courtroom to the waiting petitioner at the Center.
    The four judges and two magistrate judges in the Domestic Violence 
Unit also hear cases alleging violations of protection orders and all 
misdemeanor criminal cases involving an ``intrafamily offense.'' When 
appropriate, judges in the Domestic Violence Unit also adjudicate 
related divorce, custody, visitation, paternity and support cases 
involving the same parties, as well as certain related civil actions.

                               CONCLUSION

    Mister Chairman, Senator Landrieu, the D.C. Courts are proud of our 
efforts to serve children and families, to implement technology that 
enables to enhance our service to the public, and to respond to the 
community. We expect to continue these programs in the future, with 
your support. Thank you for this opportunity to address the 
Subcommittee. I would be pleased to answer any questions you may wish 
to pose.

             Court Services and Offender Supervision Agency

STATEMENT OF HON. PAUL A. QUANDER, JR., DIRECTOR
    Senator Brownback. Mr. Quander.
    Mr. Quander. Good morning, Chairman Brownback.
    Thank you for the opportunity to appear before you today in 
support of the Court Services and Offender Supervision Agency's 
(CSOSA) fiscal year 2006 budget request. As you are aware, 
CSOSA provides community supervision to approximately 15,000 
offenders sentenced under the District of Columbia Code. The 
Pretrial Services Agency, which is an independent entity within 
CSOSA, supervises an additional 7,000 defendants.
    CSOSA requests $203,388,000 in direct budget authority for 
fiscal year 2006. Of this amount, $131,360,000 is for the 
Community Supervision Program, which supervises sentenced 
offenders; $42,195,000 is for the Pretrial Services Agency; and 
$29,833,000 is for the Public Defender Service, which transmits 
its budget with CSOSA's. The total budget request represents a 
14 percent increase over CSOSA's fiscal year 2005 enacted 
budget.
    Our fiscal year 2006 budget contains one major request, to 
fully implement an ongoing initiative. The Community 
Supervision Program requests $14,630,000 and 77 positions to 
operate the Reentry and Sanctions Center, or RSC, at Karrick 
Hall. This facility housed our Assessment and Orientation 
Center Program, or AOC, until 2004, when the program was 
temporarily relocated to allow the much-needed renovation work 
to be completed at Karrick Hall, which is on the grounds of 
D.C. General Hospital.
    In fiscal year 2002, CSOSA received a $13 million 
appropriation to renovate and expand the AOC program. We 
greatly appreciate the subcommittee's past support for these 
funds. At that time, Congress authorized 95 positions necessary 
to operate the expanded units. Eighteen of these positions were 
funded in fiscal year 2004 to allow us to begin hiring the key 
staff that must be in place during the pre-operations planning 
and training process. The renovations are scheduled for 
completion early in fiscal year 2006. In order for us to open 
the new units on schedule, we need to begin hiring the 
remaining 77 positions several months before the expected 
opening.
    The Reentry and Sanctions Center is based on the Assessment 
and Orientation Center Program model, which has been in 
operation since 1996. The AOC is a 30-day transition from 
prison to community, designed specifically for high-risk 
substance abusing offenders. The program focuses on physical, 
intellectual, and emotional assessment and treatment readiness. 
AOC participants are often not appropriate for Halfway House 
placements, so the AOC provides an essential alternative to 
direct release from prison to the street. The AOC also provides 
services to defendants who are court-ordered to participate in 
this program.
    The Reentry and Sanctions Center will expand the AOC 
capacity from its current 27 beds to approximately 100 beds, 
enabling us to offer these services to about 1,200 individuals 
per year. These beds will be divided into four men's units, one 
female unit, and one unit for offenders with mental health 
issues. We are particularly eager to make the AOC program 
available to the underserved female population. The expanded 
capacity will enable us to realize the great potential of this 
program as a residential sanction for supervised offenders and 
defendants who relapse into substance abuse. Residential 
sanctions are an essential aspect of effective community 
supervision, particularly if they can be imposed quickly. 
Removing the offender from the external factors that contribute 
to the violation also allows us to assess and stabilize him or 
her, evaluate the case plan, and make adjustments before 
incarceration is the only option.
    An initial study of the AOC's effectiveness indicated a 
74.5 percent drop in drug use after 1 year among program 
graduates. The type of programming offered at the AOC, and 
expanded to the Reentry and Sanctions Center, improves 
treatment outcomes, which, in turn improves supervision 
outcomes.
    Although the Reentry and Sanctions Center is the main 
feature of our budget request, I would also like to highlight a 
few of this past year's most important accomplishments.
    We have developed an automated research-based risk and 
needs assessment tool that will assist our community 
supervision officers in developing prescriptive supervision 
plans and improving case management.
    We opened a Day Reporting Center Program to provide an all-
day supervision option for high-risk offenders.
    We expanded our global positioning system electronic 
monitoring program, begun as a pilot in fiscal year 2004, to an 
average caseload of approximately 50 offenders. The Pretrial 
Services Agency increased the use of electronic monitoring to 
all defendants assigned to heightened or intensive supervision.
    We continue our faith initiative, matching returning 
offenders with volunteer mentors from the area's faith 
institutions. This January, we celebrated our fourth reentry 
week, a series of events highlighting the faith-community 
concern for, and contribution to, returning offenders.

                           PREPARED STATEMENT

    In conclusion, I would like to thank the subcommittee for 
your continued support for our program. I remain confident that 
we are putting in place the most effective community 
supervision program possible and that the citizens of the 
District of Columbia will be safer, as a result.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you very much.
    [The statement follows:]

               Prepared Statement of Paul A. Quander, Jr.

    Chairman Brownback and Members of the Subcommittee: Thank you for 
the opportunity to appear before you today in support of the Court 
Services and Offender Supervision Agency's (CSOSA's) fiscal year 2006 
budget request. As you know, CSOSA provides community supervision to 
approximately 15,000 offenders sentenced under the D.C. Code. The 
Pretrial Services Agency, which is an independent entity within CSOSA, 
supervises an additional 8,000 defendants. Since its establishment in 
1997, CSOSA has rebuilt community supervision in the District of 
Columbia. We are proud to say that we now have one of the most 
responsive, innovative, and comprehensive systems of community 
supervision in the country. While we are still implementing some key 
aspects of our program model, we believe that we have put in place a 
system of accountability, sanctions, and support services that will 
enable us to better achieve our public safety mission.
    CSOSA requests $203,388,000 in direct budget authority for fiscal 
year 2006. Of this amount, $131,360,000 is for the Community 
Supervision Program, which supervises sentenced offenders; $42,195,000 
is for the Pretrial Services Agency; and $29,833,000 is for the D.C. 
Public Defender Service, which transmits its budget with CSOSA's. The 
total budget request represents a 14 percent increase over CSOSA's 
fiscal year 2005 enacted budget.
    Our fiscal year 2006 budget contains one major request to fully 
implement an ongoing initiative. The Community Supervision Program 
requests $14,630,000 and 77 positions to operate the Reentry and 
Sanctions Center, or RSC, at Karrick Hall. This facility housed our 
Assessment and Orientation Center Program until 2004, when the program 
was temporarily relocated to allow the much-needed renovation work to 
begin.
    In fiscal year 2002, CSOSA received a $13 million appropriation to 
renovate and expand the Assessment and Orientation Center program. At 
that time, Congress authorized the 95 positions necessary to operate 
the expansion units. Eighteen of these positions were funded in fiscal 
year 2004 to allow us to begin hiring the key staff that must be in 
place during the pre-operations planning and training process. The 
renovations are scheduled for completion early in fiscal year 2006. In 
order for us to open the new units on schedule, we need to begin hiring 
the remaining 77 positions several months before the expected opening.
    We greatly appreciate the Subcommittee's past support of the 
Reentry and Sanctions Center. As we move toward implementation, I would 
like to take a moment to discuss the program, its place in our overall 
strategy, and the potential benefits it can realize.
    The Reentry and Sanctions Center is based on our successful 
Assessment and Orientation Center, or AOC, which has been operating 
since 1996. The AOC targets offenders and defendants with long 
histories of substance abuse and crime. Although nearly 70 percent of 
CSOSA's population has a history of substance abuse, it is this core 
group of long-term users that are the most resistant to change, the 
most intractable--and the most likely to recidivate. The AOC program 
targets these individuals with 30 days of intensive programming. For 
offenders, this is a critical period during reentry from prison to the 
community. Many of these offenders leave prison without secure housing, 
family connections, or community ties. They have been away a long time, 
and they have no idea where to go or how to do things differently. At 
the AOC, we provide comprehensive intellectual, psychological, and 
physical assessments so that we understand each individual's particular 
issues. If there's a health issue, we ensure that the offender gets 
treatment. If there's a psychological issue, we ensure that he has 
access to appropriate therapy. We provide programming and support to 
help the offender clarify his thinking about what he needs to do. We 
explain the rules and processes of supervision so that the offender 
understands what is expected of him. In short, the AOC is a 30-day 
transition from prison to community designed specifically for the high-
risk substance abusing offender. These individuals are often not 
appropriate for Halfway House placement, so the AOC provides an 
essential alternative to direct release from prison to the street. The 
AOC also provides services to defendants who are court-ordered to 
participate in the program.
    The Reentry and Sanctions Center will expand the AOC's capacity 
from its current 27 beds to approximately 100 beds, enabling us to 
offer these services to about 1,200 individuals per year. These beds 
will be divided into four men's units, one women's unit, and one unit 
for offenders with mental health diagnoses. We are particularly eager 
to make the AOC program available to the underserved female population.
    The expanded capacity will enable us to realize the great potential 
of this program as a residential sanction for supervised offenders and 
defendants who are relapsing into substance abuse. Residential 
sanctions are an essential aspect of effective community supervision, 
particularly if they can be imposed quickly. The longer the interval 
between violation and sanction, the less force the sanction carries--
and the more time the offender has to escalate to even more dangerous 
behavior. Removing the offender from the external factors that 
contributed to the violation allows us to assess and stabilize him or 
her, evaluate the case plan, and make adjustments before the behavior 
gets to the point that supervision cannot contain it. Having this type 
of environment is particularly important for special needs offenders, 
such as those with dual mental health and substance abuse issues, who 
are currently somewhat difficult to place in our Halfway Back 
residential sanctions.
    An initial study of the AOC's effectiveness indicated a 74.5 
percent drop in drug use after 1 year among program graduates. 
Criminologist Dr. Faye Taxman, who has studied effective supervision 
practices extensively, has written, ``Pretreatment activities are 
critical to improving the client's commitment to behavior change, 
motivation, and adjustment to the treatment process.'' \1\ In other 
words, the type of programming offered at the AOC, and expanded to the 
Reentry and Sanctions Center, improves treatment outcomes--which in 
turn improves supervision outcomes.
---------------------------------------------------------------------------
    \1\ Faye Taxman, Ph.D. ``Unraveling 'What Works' for Offender in 
Substance Abuse Treatment,'' National Drug Court Institute Review, Vol. 
II, No. 2, 1999.
---------------------------------------------------------------------------
    CSOSA's strategic plan identifies four critical success factors 
that are essential to our success: risk and needs assessment, close 
supervision, treatment and support services, and partnerships. The 
Reentry and Sanctions Center initiative touches all of those factors. 
It will be our most powerful tool to date in a system of assessment-
driven, community-based supervision that is already a national model.
    Although the Reentry and Sanctions Center is the main feature of 
our budget request, I would also like to highlight several of this past 
year's most important accomplishments:
  --We have developed an automated, research-based risk and needs 
        assessment tool that will assist our Community Supervision 
        Officers in developing prescriptive supervision plans.
  --We have fully implemented electronic submission of Presentence 
        Investigation Reports, raising our on-time completion rate from 
        51 percent in 2002 to 97 percent last year.
  --We continue to increase offender drug testing. The average monthly 
        frequency has risen from 1.9 times per month in 1999 to 3.7 
        times per month last year.
  --We opened a Day Reporting Center program to provide an all-day 
        supervision option for high-risk offenders. This program 
        involves unemployed offenders in academic and vocational 
        education, as well as life skills classes, to increase their 
        compliance with supervision.
  --We implemented several key enhancements in our automated case 
        management system, including automated rearrest notification, 
        automated violation reporting, and an expanded management 
        reporting capability.
  --We expanded our Global Positioning System electronic monitoring 
        program, begun as a pilot in fiscal year 2004, to an average 
        caseload of approximately 50 offenders.
  --We continue to implement our model of supervising offenders in 
        their communities. This past year, we signed a lease on a new 
        field unit on Rhode Island Avenue, and we are developing a Far 
        Northeast Field Unit on Benning Road. These units will close a 
        critical gap in ensuring that our Community Supervision 
        Officers are deployed throughout the neighborhoods in which 
        most offenders reside. At the Benning Road site, the Pretrial 
        Services Agency will also locate supervision officers in the 
        field for the first time. In developing these projects, we 
        continue to work collaboratively with community groups to 
        ensure that our presence is welcome and our mission is known.
  --We have achieved a 94 percent response rate to offender supervision 
        violations. The implementation of the Reentry and Sanctions 
        Center will increase the range of sanctions available to us, 
        but I am pleased to report that we are already responding to 
        the vast majority of violations. The Pretrial Services Agency 
        also improved its response rates in fiscal year 2004, 
        sanctioning 80 percent of drug testing violations, 79 percent 
        of contact conditions, 83 percent of curfew conditions 
        violations, and 97 percent of treatment program condition 
        violations.
  --The Pretrial Services Agency increased the use of electronic 
        monitoring to all defendants assigned to Heightened or 
        Intensive Supervision.
  --We continue our faith initiative, matching returning offenders with 
        volunteer mentors from the area's faith institutions. This 
        January, we celebrated our fourth Reentry Week, a series of 
        events highlighting the faith community's concern for, and 
        contribution to, returning offenders. This year's Reentry Week 
        featured a community forum organized by previously incarcerated 
        persons to discuss implementation of the District's Citywide 
        Reentry Strategy, which CSOSA played a major role in 
        developing.
  --We continued our outreach to the Rivers Correctional Institution in 
        North Carolina, which houses over 1,000 D.C. offenders. We are 
        now conducting quarterly ``Community Resource Day'' 
        presentations via videoconference. These presentations provide 
        information on housing, health care, education, and 
        employment--as well as presentations about supervision and 
        release--to inmates within 90 days of reentry.
    In conclusion, I want to thank the subcommittee for your continued 
support for our program. As you can see, CSOSA is in transition. Soon, 
we will be able to say that we have completed the system we set out to 
build. I remain confident that it is the most effective community 
supervision program possible, and that the citizens of the District of 
Columbia will be safer as a result of its implementation.

                        Public Defender Service

STATEMENT OF AVIS E. BUCHANAN, ESQ., DIRECTOR
    Senator Brownback. Ms. Buchanan, thank you for joining us 
today.
    Ms. Buchanan. Good morning, Mr. Chairman and members of the 
subcommittee.

                              INTRODUCTION

    I am Avis E. Buchanan, Director of the Public Defender 
Service for the District of Columbia. I am here today to 
testify in support of PDS's fiscal year 2006 budget request. We 
thank the subcommittee for its earlier support of our programs, 
and I welcome you, Senator Brownback, to your new chairmanship.
    In 2005, PDS will proudly mark its 35th year of providing 
quality defense representation to people in the District of 
Columbia. Since 1970, when PDS took on its role as a model 
public defender, PDS has maintained a reputation as the best 
public defender office in the country, local or Federal. To 
maintain that reputation, PDS has designated fiscal year 2006 
as a year of performance management assessment for PDS. We will 
continue to evaluate our staffing complement and our fiscal 
year 2005 data collection for our constitutionally mandated 
mission. We are, therefore, proposing a budget that remains at 
the level of the President's fiscal year 2005 budget request, 
$29.8 million.
    PDS's core work consists of the more serious, complex, and 
resource-intensive criminal cases, but PDS also handles matters 
such as criminal appeals, serious delinquency charges, parole 
revocations, involuntary mental health system commitments, drug 
court, and special education for children in the delinquency 
system.

                    FISCAL YEAR 2005 ACCOMPLISHMENTS

    PDS has grown more sophisticated in its administrative and 
program functioning since 1970. Our fiscal year 2005 
accomplishments include implementing our first-ever strategic 
plan and conducting our first-ever survey of the District's 
local judges. All 35 responding trial court judges agreed, and 
27 of these strongly agreed--the highest-possible rating--that 
PDS provides and promotes quality legal representation to the 
indigent.
    One appellate judge wrote, ``Of all the litigants' counsel 
who come before the Court of Appeals on a regular basis, PDS 
lawyers are uniformly better. They give this judge, and, I 
believe, all judges, a sense that their clients are soundly and 
zealously represented while giving the court considered legal 
arguments. If I were facing prosecution in the District of 
Columbia, I would want PDS to represent me.''
    I am proud of that opinion of this office. I am proud that 
PDS collaborates with others to improve the justice system, 
that we touch individual lives, that we have a strong training 
program, and that we have improved our operations.

                        PROGRAM ACCOMPLISHMENTS

    Our collaborative work includes helping to develop the 
District's new pilot sentencing program. The pilot program uses 
voluntary sentencing guidelines developed by the D.C. 
Sentencing Commission, which PDS served on along with community 
representatives and criminal justice agency representatives. 
The preliminary compliance rate of this voluntary system is 
close to 90 percent.
    PDS's activities during fiscal year 2005 had significant 
implications for individual clients or improved the 
administration of justice. The Offender Rehabilitation Division 
(ORD) worked with a woman who was diagnosed with mental 
retardation, but who dropped out of the sixth grade after not 
receiving specialized services in school. ORD, the division, 
referred her to a residential treatment program run by a faith-
based organization. The client completed the program, and, 
through the program, received vocational training to become a 
home health aide. After she graduated from the program, the 
division referred her to a program run by a different faith-
based group. The program helps people with mental illness 
transition to permanent independent housing.
    The Appellate Division won a motion for a new trial based 
on the ineffective assistance of counsel provided by a private 
attorney who had been paid thousands of dollars by the 
defendant's family, but who conducted virtually no 
investigation of the very serious charges the client was 
facing. The successful motion followed painstaking 
reinvestigation of the case. The government elected not to 
retry the client.
    In fiscal year 2005, our Community Defender Division's 
Reentry Program identified resources available to PDS's 
reentering clients, and organized a panel to educate judges and 
practitioners about children with incarcerated parents. The 
Reentry Program also assisted the members of the East of the 
River Clergy-Police-Community Partnership in planning a reentry 
forum for community members, attorneys, social workers, 
counselors, and prison ministries.
    Our Special Litigation Division has been expanding PDS's 
work on various scientific issues in the courtroom. The 
exoneration of individuals through DNA evidence has revealed 
that flawed eyewitness testimony was involved in 80 percent of 
the cases. The Special Litigation Division, working closely 
with the Trial Division, has pulled together scientific 
research assessing witness identification and the various 
identification procedures used by law enforcement. This 
information has been used to educate lawyers so that they might 
better educate judges and jurors about what circumstances are 
more likely to produce mistaken identification.
    PDS conducts and participates in numerous training programs 
for its own staff and for others. A training highlight is PDS's 
2003 and 2004 Forensic Science Conferences. In 2004, various 
experts taught judges, lawyers, and others about crime scene 
investigation, sentencing, and bodily injuries. The third 
conference, scheduled for September 2005, will incorporate the 
Trial Division's growing expertise in challenging both DNA 
evidence and cases arising out of database searches, in 
anticipation of the President's initiative to reduce the 
backlog of DNA cases.

                     ADMINISTRATIVE ACCOMPLISHMENTS

    PDS's administrative accomplishments are further steps 
toward better serving clients and better modeling excellent 
financial and management practices. PDS's relatively new status 
as a federally funded entity and the guidance of the 
President's management agenda have allowed us to enhance our 
acquisition management and our competitive sourcing, to improve 
our ability to develop financial and performance management 
integration, and to implement relevant e-government 
initiatives.
    And in the area of human capital, PDS has a workforce with 
a strong affinity to the clients, mission, and management of 
PDS. In a recent employee survey, 99 percent of the respondents 
reported being proud to work for PDS--the highest score on this 
question of any organization, private or government, that our 
contractor has surveyed.

                               CONCLUSION

    In closing, I'd like to make two points. One, in a mid-
1970s report, the Department of Justice designated PDS as an 
exemplary project, praising PDS's defense model. It's an 
approach that PDS has remained committed to for 30 years. Two, 
PDS still achieves a level of quality representation that is to 
be sustained and emulated.

                           PREPARED STATEMENT

    I would like to thank the members of the subcommittee for 
your time and attention to these matters and for your support 
of our work to date. I would be happy to answer any questions 
the subcommittee members may have.
    Senator Brownback. Thank you, Ms. Buchanan, appreciate 
that.
    [The statement follows:]

              Prepared Statement of Avis E. Buchanan, Esq.

    Good afternoon, Mister Chairman and members of the Subcommittee. My 
name is Avis E. Buchanan, and I am the Director of the Public Defender 
Service for the District of Columbia (PDS). I come before you today to 
provide testimony in support of PDS's fiscal year 2006 budget request. 
We thank this Subcommittee for its support of our programs in previous 
years.
    In 2005, the Public Defender Service will mark its 35th year of 
providing quality defense representation to people in the District of 
Columbia. Since 1970, when PDS took on its intended role as a model 
public defender, PDS has developed and maintained a reputation as the 
best public defender office in the country--local or Federal. PDS has 
become the national standard bearer and the benchmark by which other 
public defense organizations often measure themselves in a number of 
practice and administrative areas.
    To maintain that reputation, PDS has designated fiscal year 2006 as 
a year of performance management assessment for PDS, a year in which we 
want to work to increase our internal efficiencies. Setting this goal 
has led us to propose a budget that remains at the level of the 
President's fiscal year 2005 budget request. All pay raises and other 
resource needs will be funded by internal spending reallocations and 
business efficiencies. PDS does not anticipate any increase to staffing 
levels. After several years of investment, PDS will use fiscal year 
2006 to continue to evaluate its strategic direction for human capital 
and the amount of support required by the legal divisions. Also, PDS 
will evaluate its fiscal year 2005 data collection for quantitative and 
qualitative performance measures. These measures will serve as a 
baseline as we transition to performance-based budgeting and management 
that assist in maintaining quality representation for indigent persons 
in the District of Columbia courts.

                               BACKGROUND

    In the District of Columbia, PDS and the local District of Columbia 
courts share the responsibility for providing constitutionally mandated 
defense representation to people who cannot pay for their own attorney. 
Under the District of Columbia's Criminal Justice Act (CJA) \1\, the 
District of Columbia courts appoint PDS generally to the more serious, 
more complex, resource-intensive, and time-consuming criminal cases. 
The courts assign the remaining, less serious cases and the majority of 
the misdemeanor and traffic cases to a panel of approximately 350 pre-
screened private attorneys (``CJA attorneys''). Approximately 110 PDS 
staff lawyers are appointed to represent: a majority of people facing 
the most serious felony charges; a substantial number of individuals 
litigating criminal appeals; a significant number of the children 
facing serious delinquency charges; nearly 100 percent of all people 
facing parole revocation; and the majority of people in the mental 
health system who are facing involuntary civil commitment.
---------------------------------------------------------------------------
    \1\ D.C. Code  11-2601 et seq. (2001 Ed).
---------------------------------------------------------------------------
    While much of our work is devoted to ensuring that no person is 
ever wrongfully convicted of a crime, we also provide legal 
representation to recovering substance abusers participating in the 
highly successful Drug Court treatment program, and to children in the 
delinquency system who have learning disabilities and require special 
educational accommodations under the Individuals with Disabilities in 
Education Act.\2\
---------------------------------------------------------------------------
    \2\ 20 U.S.C.  1400, et seq.
---------------------------------------------------------------------------
    The Public Defender Service, unique among local public defender 
offices in that it is federally funded,\3\ has always been committed to 
its mission of providing and promoting constitutionally mandated legal 
representation to adults and children facing a loss of liberty in the 
District of Columbia who cannot afford a lawyer, and we have had 
numerous significant accomplishments in pursuit of that mission. In 
addition, PDS has developed innovative approaches to representation, 
from instituting measures to address the problems of clients returning 
to the community who have been incarcerated to creating a one-of-a-kind 
electronic case tracking system. Other public defender offices across 
the country have sought counsel from PDS as they have patterned their 
approach to their work after ours.
---------------------------------------------------------------------------
    \3\ As a result of the National Capital Revitalization and Self-
Government Improvement Act of 1997 (the ``Revitalization Act''), PDS 
was established as a federally funded, independent District of Columbia 
organization. In accordance with the Revitalization Act, PDS transmits 
its budget and receives its appropriation as a transfer through the 
Court Services and Offender Supervision Agency (CSOSA) appropriation. 
Pub. L. No. 105-33, Title X (1997).
---------------------------------------------------------------------------
    As part of its statutory mission to promote quality criminal 
defense representation in the District of Columbia as a whole, PDS has 
also provided training for other District of Columbia defense attorneys 
and investigators who represent those who cannot afford an attorney, 
and PDS has provided support to the District of Columbia courts.

                    FISCAL YEAR 2005 ACCOMPLISHMENTS

    PDS has grown more sophisticated in its administrative and program 
functioning since 1970. PDS has drafted its first-ever strategic plan 
and annual performance plan, and has begun incorporating them more 
fully into the management of our client service.
    In an effort to develop performance baselines, and in conjunction 
with its strategic plan, PDS conducted an anonymous survey of the 
District's local trial and appellate judges before whom we regularly 
appear. Of the 60 trial judges who received the survey, 35 responded. 
All 35 agreed (27 of these ``strongly agreed''--the highest possible 
rating on the survey) that PDS staff provides and promotes quality 
legal representation to indigent adults and children facing a loss of 
liberty. All 35 agreed (23 ``strongly agreed'') that PDS staff are well 
prepared to defend their clients. Of the 16 of the appellate judges to 
whom the survey was sent, half responded, all of whom agreed that PDS 
staff provide and promote quality legal representation, are zealous 
advocates for their clients, and are well prepared to defend their 
clients. In fact, one appellate judge wrote:

    ``Of all the litigants' counsel who come before the Court of 
Appeals on a regular basis, PDS lawyers are uniformly better. They give 
this judge--and I believe all judges--a sense that their clients are 
soundly and zealously represented while giving the court considered 
legal arguments. If I were facing prosecution in D.C., I would want PDS 
to represent me.''

                    GENERAL PROGRAM ACCOMPLISHMENTS
                           COLLABORATIVE WORK

    Although widely known for zealously participating in the 
adversarial process of the criminal justice system, PDS also works 
closely with criminal justice agencies and the courts to improve the 
system and make it function more efficiently and fairly.
Sentencing Guidelines
    In June 2004, the Superior Court began a pilot sentencing program 
using voluntary sentencing guidelines developed by the D.C. Sentencing 
Commission. PDS is a member of the D.C. Sentencing Commission along 
with three D.C. Superior Court judges; representatives from the Office 
of the United States Attorney, the District of Columbia Office of the 
Attorney General, the Court Services and Offender Supervision Agency, 
the D.C. Metropolitan Police Department, the D.C. Department of 
Corrections, and the U.S. Bureau of Prisons; and citizens representing 
victims and families of inmates. Although the system is voluntary, the 
preliminary data gathered thus far shows an extremely high compliance 
rate of close to 90 percent.\4\
---------------------------------------------------------------------------
    \4\ Preliminary data shows that of the sentencings that occurred in 
felony cases since June 14th, 2004 and that were reported to the D.C. 
Sentencing Commission, over 90 percent were within the recommended 
guideline range. This statistic does not include allowable departures, 
either upward or downward. The statistic may actually be higher, as it 
appears that some sentences outside the recommended range were 
inadvertent and resulted from unfamiliarity with this very new system. 
By comparison, in the Federal guidelines system, since the Supreme 
Court's decision in United States v. Booker-Fanfan, 125 S.Ct. 738 
(2004), 62 percent of cases are within guidelines ranges. See U.S. 
Sentencing Commission Memorandum, from Office of Policy Analysis, to 
Judge Hinojosa, Chair (March 22, 2005). The two systems differ in many 
respects that would affect this compliance rate, including the fact 
that guideline ranges in the Federal system are narrower than those in 
the District's system.
---------------------------------------------------------------------------
    While the Sentencing Commission looked to Federal and State 
guidelines systems for ideas, it created a system most suited to the 
District. The PDS representatives, the U.S. Attorney's representatives, 
and the judges crafted the details of the system, to which the full 
Commission gave final approval. This almost unprecedented collaboration 
on a hotly debated topic may be part of the reason for the high 
compliance rate. The long, and often contentious, working sessions 
produced a fair and balanced system that may well achieve the goal of 
greater uniformity and predictability in sentencing.
    Once the guidelines were completed, PDS and the U.S. Attorney's 
Office continued this collaboration, drafting a lengthy, detailed 
practice manual. Together PDS and the U.S. Attorney's Office resolve 
the many problems that arise in the implementation of such a 
complicated system. PDS conducted internal trainings on the new 
guidelines as well as numerous trainings for the private criminal 
defense bar and, with the U.S. Attorney's Office, assisted with the 
training of the judges and of the CSOSA staffers responsible for 
preparing presentence reports and completing initial guidelines 
calculation recommendations for the court.

Competency to Stand Trial in Criminal Court
    The District of Columbia Code statute that governs proceedings to 
determine a defendant's competence to stand trial has undergone few 
changes in the almost five decades since its enactment. However, 
evolving Supreme Court and District of Columbia courts jurisprudence, 
as well as increased understanding of mental illness, have made the 
statute outdated. PDS drafted a complete overhaul of the competency 
statute, improving and updating it, and shared it with the Chair of the 
D.C. Council's Committee on the Judiciary, who introduced it as a bill. 
PDS, the U.S. Attorney's Office, D.C.'s Office of the Attorney General, 
and the D.C. Department of Mental Health then modified the bill in 
response to the concerns of all the parties to the system. The 
negotiated bill passed the D.C. Council unanimously at the end of 2004 
and is projected to become law in April 2005.

Practice Standards in Family Court
    PDS worked with judges in the D.C. Family Court to create practice 
standards for panel lawyers representing children charged with acts of 
delinquency. These practice standards establish minimum requirements 
for attorneys such as how often to visit the client and how many hours 
of continuing legal education each attorney must receive each year.
    These are just a few examples of how PDS works with the court and 
with other entities engaged in the criminal justice system to improve 
and enhance criminal justice in the District of Columbia.

                     OTHER PROGRAM ACCOMPLISHMENTS

    PDS engaged in a number of activities during fiscal year 2005 that 
had significant implications for individual clients or that improved 
the overall administration of justice.

Individual Clients
    The core work of PDS is the representation of individual clients 
facing a loss of liberty. As you know, the criminal justice system is 
premised on an adversarial system, and PDS has able adversaries in the 
District's Attorney General's Office and the United States Attorney's 
Office for the District of Columbia. A fair criminal justice system 
depends on having all components (judges, government, and defense) 
fulfill their respective roles. PDS plays a pivotal part in ensuring 
that all cases, whether they result in pleas or trials, involve 
comprehensive investigation and thorough consultation with the client, 
and that the trials constitute a full and fair airing of reliable 
evidence. As it has every year since its inception, in fiscal year 
2005, PDS won many trials, fought a forceful fight in others, and found 
resolution prior to trial for many clients. Whatever the outcome, PDS's 
goal for each client was competent, quality representation.
    All of these cases and their outcomes are far too varied and 
numerous to recount here, and the ethical rules that protect all 
clients' confidences, regardless of their economic circumstances, 
preclude me from providing detailed examples. Instead, the following 
cases, absent identifying information, are a small sample of how 
competent, quality representation can change lives.
    Mental Health.--The Mental Health Division won the release of a 
client who had been committed to St. Elizabeths since the mid-1970s on 
a finding of not guilty by reason of insanity on a charge of attempt 
shoplifting. After spending nearly 30 years at St. Elizabeths on a 
charge that carried a maximum jail sentence of no more than a year, the 
client is now, through the assistance of the D.C. Department of Mental 
Health, living in a sponsored, independent apartment and working in a 
supervised environment.
    Children.--The Trial Division represented a teenager who was 
charged with driving a stolen car after he crashed the car. PDS's 
investigation and an independent professional evaluation revealed that 
the teenager, who had not been to school for years and who had been 
essentially abandoned as a child by his mother because she was 
chronically ill, had been trying to commit suicide with the car crash. 
Helped by PDS to identify the problems and identify appropriate 
services, the teenager raised his reading level from kindergarten to 
3rd grade, responded positively to therapy, and entered a therapeutic 
foster home.
    Men.--PDS's Offender Rehabilitation Division helped a young man who 
was charged with unauthorized use of a vehicle. His mother's history of 
cocaine abuse led to her being in and out of prison. As a result, the 
client grew up in the foster care system and dropped out of the 9th 
grade. After a presentation from ORD staff and the trial attorney, the 
court put the young man on probation with the condition that he 
complete a rigorous, year-long residential rehabilitation program 
operated by a faith-based social service organization. The program 
required that he report to work every day to support the organization's 
mission. With much supervision and support from the ORD staff, the 
client overcame his lack of a good work history and of a familiarity 
with good work habits, and became a more reliable, more timely, and 
more responsible worker. The client also participated in various groups 
run by the program, such as a Bible-based enrichment group that helps 
participants become more responsible as individuals and as members of 
the community. Although he struggled, the young man completed the 
program successfully and, as a result of his progress, the judge 
released him from probation early. The client is now planning to 
complete his GED and obtain certification as an electrical technician.
    Women.--The Offender Rehabilitation Division works with many 
clients who are in the criminal justice system as a result of substance 
abuse. Often this abuse is symptomatic of an underlying problem that 
must be identified and addressed to ensure recovery. One such client 
was a woman who was diagnosed with mental retardation, but who dropped 
out of the 6th grade after not receiving specialized services in 
school. ORD referred her to a residential drug treatment program for 
women run by a faith-based organization. The client completed the 
program and, through the program, received vocational training to 
become a home health aide. After the client graduated from the program, 
ORD referred her to a transitional living program run by a different 
faith-based group. The program, which accepted the client, helps people 
with mental disabilities move over the course of a couple of years to 
permanent, independent housing.

Appellate Division
    The Appellate Division's appellate litigation has impact throughout 
the District's criminal justice system as decisions in their cases 
often establish or clarify the standards trial court judges and 
litigants must follow in criminal and juvenile cases. The complex and 
novel legal issues the Division is called upon to address therefore are 
best handled by experienced and talented attorneys--which the Division 
does not lack.
    Ensuring Fairness.--The Government's long-standing obligation to 
disclose exculpatory evidence to the defense in a timely fashion 
reflects the considered judgment of our justice system that the search 
for truth cannot succeed if the prosecutor conceals material 
information tending to prove the defendant innocent or tending to 
undermine the reliability of the government's witnesses. Unfortunately, 
however, prosecutors sometimes fail to honor their obligation to 
disclose this ``Brady \5\ information,'' and only thorough 
investigation by defense counsel brings these failures to light. In 
four cases during fiscal year 2004, the Appellate Division uncovered 
Brady information that had not been disclosed to trial counsel, calling 
into question the reliability of the clients' convictions. In all four 
separate cases, the litigation ended with the government deciding that 
dismissal of all charges for all four clients was appropriate.
---------------------------------------------------------------------------
    \5\ Brady v. Maryland, 373 U.S. 83 (1963).
---------------------------------------------------------------------------
    The Appellate Division persuaded the trial court to vacate a 
client's murder conviction after a long battle to demonstrate that the 
former Federal prosecutor assigned to the case had committed 
intentional misconduct. Appellate counsel first intervened in the U.S. 
District Court on behalf of the client to make public the results of a 
Justice Department Office of Professional Responsibility report that 
had found that the prosecutor had improperly paid tens of thousands of 
dollars in witness fees to the friends and family of government 
witnesses in a Federal drug and murder conspiracy prosecution. Over the 
government's objection, PDS won an order from the Federal judge 
unsealing the records of the prosecutor's misconduct. Armed with these 
records and with the results of years of investigation, the appellate 
attorney demonstrated that the prosecutor had also improperly paid tens 
of thousands of dollars in witness fees to the friends and relatives of 
government witnesses in the client's case. The United States agreed to 
join in a motion to vacate the client's murder conviction in the 
interests of justice. The client's appeal that the appellate attorney 
had argued before the District of Columbia Court of Appeals en banc was 
also dismissed as part of the agreement.
    Ensuring Quality Representation.--The Division won a motion for a 
new trial based on the ineffective assistance of counsel provided by 
the original, private attorney, who had been paid thousands of dollars 
by the defendant's family but who conducted virtually no investigation 
of the very serious charges against the defendant. The successful 
motion followed painstaking re-investigation of the facts of the case. 
In response, the government elected not to retry the client.

Special Litigation Division
    The Special Litigation Division litigates systemic issues in the 
District of Columbia criminal justice system before every court in the 
District of Columbia--the Superior Court and Court of Appeals in the 
local system, and the District Court, the Court of Appeals, and the 
Supreme Court in the Federal system. These are some of the highlights 
of our litigation:
    Incarcerated Children.--SLD has litigated the lawsuit challenging 
the juvenile detention system in the District, Jerry M., et al. v. 
District of Columbia, et al.\6\, for 19 years, and we are at last 
hopeful of a resolution. The lawsuit and the resulting consent decree 
focus on the conditions of the juvenile detention facilities and on the 
treatment and rehabilitation provided to youths at the facilities to 
reduce their chances of recidivating and increase their chance of 
becoming productive members of the community. Last year, the Division's 
Jerry M. lawyers asked the court to appoint a receiver to oversee the 
District's Youth Services Administration (now the Department of Youth 
Rehabilitation Services) until the consent decree's mandates could be 
met. While the request was pending, the court held the District in 
contempt for violating several consent decree provisions. The District 
then agreed to the appointment of a special arbiter to resolve disputes 
and formulate a new model for juvenile justice in D.C. SLD and the 
District are now well on their way toward the formulation of a 
comprehensive work plan to address the systemic issues that have 
plagued the District's juvenile justice system for years.
---------------------------------------------------------------------------
    \6\ Civil Action No. 1519-85 (IFP).
---------------------------------------------------------------------------
    Eyewitness Identifications.--Eighty percent of recent DNA 
exonerations nationally stemmed from faulty eyewitness evidence. SLD 
has focused on helping to make courtroom eyewitness evidence more 
reliable, and its flaws and limitations more understandable to jurors. 
To support this effort, SLD has collected all the recent scientific 
research and developed model pleadings. Using these resources, SLD has 
worked with the trial lawyers to introduce the testimony of eyewitness 
identification expert witnesses to help inform jurors about the science 
surrounding how various factors such as facts about the offense, the 
witness, or the identification procedure used can affect the 
reliability of a witness's identification.

Community Defender Division
    The Community Defender Division provides services through four 
programs: the Juvenile Services Program, which focuses on children 
confined to the Oak Hill Youth Detention Center in Laurel, Maryland and 
placed in residential facilities across the country; the Community Re-
entry Program, which responds to the legal and social needs of newly 
released D.C. parolees and assists them in making a successful 
transition back into the community; the Institutional Services Program, 
which serves as a liaison to the U.S. Bureau of Prisons to assist D.C. 
Code offenders in the Bureau's custody; and the Community Outreach and 
Education Program, which educates members of the community about their 
legal rights and responsibilities in the criminal justice system.
    Re-entry Programs.--In fiscal year 2005, the Community Re-entry 
Program worked to educate various communities about the issues facing 
PDS's re-entering clients and to identify resources available to them. 
The Community Re-entry Program organized a panel, as part of the Family 
Court Training Series to educate judges and practitioners about what it 
means for a child to have an incarcerated parent. The panel featured a 
formerly incarcerated parent and two youths whose parents have been 
incarcerated for a number of years. The Program also assisted the 
members of the East of the River Clergy-Police-Community Partnership to 
plan a forum for community members, attorneys, social workers, 
employment and drug treatment counselors, and prison ministries. The 
purpose of the forum was to educate these groups about the particular 
issues facing re-entering women.
    Mental Health.--Some of our most challenging clients are severely 
mentally ill persons who are arrested on less serious charges, but 
incarcerated pending trial, and who are without support systems. Their 
incarceration results in the cancellation of all their benefits (SSI, 
SSDI, Medicaid). Without these benefits, our clients lose access to 
affordable housing and some essential services. Because the Community 
Defender Program has been able to take advantage of relationships that 
the Offender Rehabilitation Division staff is developing with a number 
of agencies and with contract providers of mental health services, this 
situation is improving. More of our severely mentally ill clients are 
now able to obtain financial benefits, housing, and intensive 
outpatient mental health services, and in the last year, we have had 
tremendous success helping these clients re-enter the community without 
re-offending.
    Catholic University Group Home Project.--Two years ago, PDS 
approached Catholic University about providing services to girls 
committed to the care of the District of Columbia. PDS assisted in 
developing a proposal, modeled after a successful program in Missouri, 
for creating a girls' group home on the university's campus. The girls 
would receive social services, public health education and services, 
and education support, including special education assistance, from the 
school's graduate programs. The university obtained foundation funding 
to do a feasibility study of the proposed project, which should be 
completed in early May 2005. Officials from the District's Department 
of Youth Rehabilitation Services recently met with the university 
administration to offer technical assistance for the project. Catholic 
University has expressed a strong interest, not just in providing a 
site for and services to the group home, but in offering care such as 
day treatment, encouraging family involvement, partnering with a 
charter or independent school, and offering scholarships to 
``graduates'' of the program. PDS continues to be involved in moving 
this project forward.
    Truancy Initiative.--The Community Defender Program is working 
closely with the Family Court, the D.C. Public Schools, and the D.C. 
School Board to address the truancy problem by developing a program 
modeled after one in Louisville, Kentucky. The initiative is a family 
intervention program created to address the root causes of truancy. A 
community team of judicial officers, school personnel, social services 
providers, mental health providers, and substance abuse rehabilitation 
providers would work together to identify families for whom intensive 
services would help resolve barriers to school attendance. The program 
would be based in the schools, rather than in the courts, allowing the 
team to make weekly visits to the school, with regular contacts by the 
case manager with the family in between the school visits. Like the 
group home project with Catholic University, this is another example of 
PDS recognizing a need and identifying a model that could be modified 
to suit the District.

Parole Division
    The Parole Division, created pursuant to the Lorton Closure 
Initiative, provides required representation to parolees facing 
revocation before the United States Parole Commission.\7\ This Division 
represents nearly 100 percent of all D.C. Code offenders facing parole 
revocation.
---------------------------------------------------------------------------
    \7\ The Revitalization Act shifted responsibility for D.C. parole 
matters from the D.C. Board of Parole to the United States Parole 
Commission. 28 C.F.R. 2.214(b)(1) and 2.216(f).
---------------------------------------------------------------------------
    Law School Program.--The Parole Division expanded its law clinic 
program to include Howard University School of Law students and 
cooperative students from the Northeastern School of Law. Now law 
students in the criminal justice clinics at these two schools and at 
the Georgetown University Law Center receive training on advocating in 
the parole revocation process and become qualified to represent 
parolees facing revocation. PDS has collaborated with these law schools 
to leverage its expertise to ensure that this small division can 
effectively represent almost 100 percent of the parole cases of D.C. 
Code offenders that come before the U.S. Parole Commission.
    Working with the Parole Commission.--PDS's Parole Division 
continues to monitor closely the work of the U.S. Parole Commission and 
to seek out areas of collaboration, such as commenting on proposed 
parole regulations and assisting in the training of new Parole 
Commission hearing examiners in connection with their role in the 
parole revocation process.

Training
    PDS conducts and participates in numerous training programs 
throughout the year. The annual Criminal Practice Institute and the 
Summer Criminal Defender Training Program address the training needs of 
the court-appointed CJA attorneys and investigators. In fiscal year 
2005, PDS attorneys and investigators also taught sessions at almost 
all of the D.C. law schools, including the law schools at Georgetown 
University, Catholic University, American University, and Howard 
University. PDS attorneys were also invited to teach elsewhere locally, 
including at the D.C. Bar, the National Legal Aid and Defender 
Association, and the Defender Services Division of the Administrative 
Office of the U.S. Courts.
    Forensic Science Conference.--The first forensic science conference 
held by PDS in 2003 was such a success, allowing D.C. defense attorneys 
to learn forensic science issues from national experts, that the 
grantor awarded funding for a second conference. In 2004, PDS sponsored 
``An Interactive Crime Scene Investigation,'' a 2-day conference open 
to judges, lawyers, mental health professionals, and investigators. The 
second day was an interactive training session using a single case to 
study fingerprinting technology, blood spatter evidence, and the 
information scientists can glean from bodily injuries.
    The next forensic science conference is scheduled for September 
2005; it will serve as a ``DNA college'' for trial attorneys. Using the 
expertise PDS's Trial Division has developed in challenging nuclear DNA 
evidence, mitochondrial DNA evidence, and cases arising out of database 
searches, and in anticipation of the President's initiative to reduce 
the backlog of DNA cases and better educate lawyers and judges about 
DNA evidence, PDS is planning a conference to promote quality 
representation in cases that increasingly involve complex scientific 
concepts and technologies.

                     ADMINISTRATIVE ACCOMPLISHMENTS

    PDS's current increased focus on enhancing its administrative 
functions represents a further step toward better serving clients and 
toward better serving as a model defender organization. The right to a 
qualified attorney for people who cannot afford one can be read to 
include an expectation that representation will be provided to clients 
not only effectively, but also efficiently. As PDS has been in the 
forefront in meeting and exceeding the standards defining what it means 
to satisfy the requirements of the right to counsel, PDS can also be on 
the forefront in modeling excellent financial and management practices 
in support of that right.
    Before PDS became a federally funded entity, funding limitations 
compromised our ability to achieve as high a level of proficiency in 
our administrative functioning as we are known for in our legal 
representation. PDS's relatively new status as a federally funded 
entity has created the opportunity for us to enhance our administrative 
functions: in the past 8 years, PDS has established a human resources 
department, an information technology department, and a budget and 
finance department where none previously existed. PDS is working to 
continue this ``administrative maturation.'' We have already adopted 
Federal best practices in a number of support areas, and we are 
preparing to expand their use in other areas as well.
    PDS's strategic planning agenda for executive and administrative 
management follows the President's Management Agenda as the framework 
for managing performance. The fiscal year 2004 accomplishments are 
highlighted within the context of this framework.
    Human Capital.--During the winter of early 2004, PDS for the first 
time formally assessed the staff's view of PDS's working environment. 
Using an independent contractor, PDS surveyed employees' opinions on 
topics such as PDS's commitment to its clients, the demographic 
diversity of PDS's staff, PDS's administrative efficiency, PDS 
management's and line staff's trust in each other, PDS's responsiveness 
to the needs of its employees, and individual job satisfaction. The 
contractor noted that the overall survey results were the most positive 
the contractor had encountered in conducting such employee surveys in 
both private industry and government. All across the demographic 
spectrum, employees felt a strong affinity to the clients, mission, and 
management of PDS. As we reported to this Subcommittee during last 
year's fiscal year 2005 budget hearing, almost 70 percent of employees 
responded to the survey; 99 percent of responding employees reported 
being proud to work for PDS. The independent firm that conducted the 
anonymous survey reported that this was the highest score on this 
question of any organization it has surveyed.
    In fiscal year 2005, PDS continues to develop and review its 
baseline for recruitment, retention, and succession planning programs.
    Competitive Sourcing.--During fiscal year 2004, PDS improved its 
competitive sourcing practices by establishing a fully appointed 
contracting officer and enhancing its acquisition management strategy 
and policies. During fiscal year 2005, PDS has begun reducing the 
number of suppliers for any given product or service the organization 
requires and competing like products and services under larger contract 
proposals. PDS is also contracting for ancillary service needs where 
feasible, practical, and supportive of quality client representation.
    Financial Performance.--At the start of fiscal year 2004, PDS 
implemented a financial management improvement program. The program 
adopts financial best practices, including the use of audited financial 
statements as but one form of measurement. In fiscal year 2004, PDS 
selected a new audit firm and a new accounting service provider. Both 
actions improve PDS's ability to develop financial and performance 
measurement integration, and create efficiencies and effectiveness in 
providing financial services to PDS.
    E-Government.--In order to implement e-government initiatives, PDS 
leverages the capabilities of service providers. During fiscal year 
2004, PDS entered into an agreement with a Federal agency to provide e-
travel service. PDS began receiving that service, which will enhance 
management controls and efficiency, in fiscal year 2005. Also in fiscal 
year 2005, PDS implemented a more fully electronic procurement card 
system that supports the competitive sourcing initiatives. During 
fiscal year 2006, PDS will be better positioned to evaluate other e-
government initiatives that could directly support PDS's mission of 
indigent client representation.
    Budget and Performance Integration.--The success of PDS's financial 
management improvement program, which will assist PDS in executing its 
budget and performance integration, can be measured in part by PDS's 
ability to hold the line in its fiscal year 2006 budget request to the 
level of the President's fiscal year 2005 budget request. During fiscal 
year 2005, PDS is refining its performance measures for subsequent use 
in the development of the fiscal year 2007 budget.

                               CONCLUSION

    I would like to thank the members of the Subcommittee for your time 
and attention to these matters and for your support of our work to 
date. I would be happy to answer any questions the Subcommittee members 
may have.

    Senator Brownback. Judge Wagner, I think you mentioned this 
to me--do you retire this year? Is that right?
    Judge Wagner. I'm sorry?
    Senator Brownback. Are you retiring this year?
    Judge Wagner. Yes, I am. So this may----
    Senator Brownback. You gave me a surprised look, like I let 
a cat out of a bag here, did I?
    Judge Wagner. This is probably my last appearance before 
this body on behalf of the courts. Again, I just want to 
reiterate what a privilege it has been to be in a position to 
see the Congress of the United States in operation and to 
appear on behalf of the people of the District of Columbia and 
the hardworking judges and staff at the courts. Everyone has 
always been courteous and receptive, and I really appreciate 
it, and I want to thank you.
    Senator Brownback. Well, we want to thank you. I mean, 
that's just such a great record of service, it's deeply 
appreciated, and we'll try to make this last presentation not 
like going to the dentist and getting a root canal.
    So it will, hopefully, not be too bad.
    I do want to know, because of recent things that have 
happened in other places in the country about security in the 
courtroom and for judges--I'm sure that's something you've 
looked at a lot--are you comfortable with where we are now for 
your court?
    Judge Wagner. Yes. I think we're pretty comfortable. We 
have a combination security system involving the United States 
Marshals Service, as well as contract security officers who we 
hire. We have done a number of enhancements since 9/11, 
obviously, as everyone else has done. It gave us an 
opportunity, and prompted us, to do a complete security 
assessment, which was conducted by the U.S. Marshals Service. 
We've upgraded our control centers. We've upgraded the security 
in the various buildings. We've done a number of things to make 
sure that the people who enter the building do not have items 
of contraband or items that will be harmful to anyone. We've 
done things about our mail and our courier deliveries. We have 
a 100 percent security check. So we've done a lot of things, 
and they're ongoing.
    Senator Brownback. These latest events have been cases 
where a prisoner overpowered a guard; and another was a home 
attack. The judge in Chicago was actually a Kansan, a native 
Kansan, and her husband and mother were killed. What about 
those types of situations? Are you comfortable where the D.C. 
Courts are there?
    Judge Wagner. Typically, when you have a situation 
involving judges at home, it is some unique or special case 
that is involved. That has been the experience that I'm aware 
of. Arrangements are made when something occurs that makes it 
apparent that something is necessary, beyond the courthouse 
facility itself. It is something that I'm sure that the 
marshals are looking at. Everyone has become more sensitive to 
the various types of risk that exists that we had not, perhaps, 
accounted for before all of the recent events. But I think our 
Marshals Service has pretty good regulations about how they 
handle prisoners, and I can't really address them directly, 
but----
    Senator Brownback. I'm just asking you, you know, is it--
you've been in this system for some period of time. If you're 
comfortable----
    Judge Wagner. Yeah. I only----
    Senator Brownback [continuing]. With where----
    Judge Wagner [continuing]. I've only had a couple of 
incidents, personally, and they were taken care of. The 
marshals came, they found out what the situation was, who made 
what threat, and it was addressed very, very quickly. I think 
that the other situations, for example, a judge in a particular 
trial many, many years ago, I knew, had to have round-the-clock 
Marshals Service. They offer it when it is necessary, because 
of the exigencies of the circumstances.
    Senator Brownback. Okay.
    Where are people held in the District of Columbia pending 
trial or getting ready for trial in the District since we've--
--
    Judge Wagner. D.C. Jail.
    Senator Brownback. A number of people were--we closed 
Lorton down, when I was authorizer, and--where are people held 
now?
    Judge King. They're held in the D.C. Jail----
    Senator Brownback. Where is that----
    Judge King [continuing]. Which is near the----
    Senator Brownback [continuing]. Located now?
    Judge King. It's right south of the armory, near the----
    Senator Brownback. Okay.
    Judge King [continuing]. Baseball stadium and the armory 
and the hospital. My office works fairly closely with the 
warden of the jail and the director of the Department of 
Corrections in managing that flow of persons being brought to 
and from court, and where they're located, and how they're 
classified, once they're sentenced, to go out of the jail and 
into the Federal system.
    Senator Brownback. What's your rough capacity of that 
facility, do you know?
    Judge King. Twenty-two----
    Mr. Quander. Twenty-two-hundred.
    Judge King. Twenty-two-hundred.
    Senator Brownback. Twenty-two-hundred in that? That's a 
large facility.
    Judge King. And it's near capacity. It has not been going 
over, recently, although it's always nip and tuck. It's always 
a close call. It's a struggle to keep it within capacity.
    Senator Brownback. And I'm presuming you hold people in 
there awaiting trial, and then immediately after, until you can 
get them moved into another facility----
    Judge King. That's----
    Senator Brownback [continuing]. In the region.
    Judge King [continuing]. That's exactly correct. In working 
with the Department of Corrections and the Marshals Service and 
others, we've recently reorganized the way the classification 
process takes place so that it's drastically cut down the 
waiting time to get someone classified into the Federal system 
once they've been sentenced. So, we've tried to move that 
process along much more effectively.
    Senator Brownback. How are you doing on your recidivism 
rates of people entering D.C. courts--convictions, and return 
rates? Mr. Quander, I guess that would probably be best to 
throw that to you.
    Mr. Quander. In fiscal year 2003, the rearrest rate for 
offenders who were under our supervision, and who were 
rearrested by the Metropolitan Police Department, were 
approximately 16 percent of everyone that was arrested by the 
Metropolitan Police Department. In 2004, that rate went up to 
18 percent. But that's just the rearrests. When we look at the 
number of individuals who are rearrested, the largest 
percentage of individuals rearrested are rearrested because of 
warrants that we have requested for technical violations or 
other violations. The next-largest group of rearrests are for 
driving offenses--no permit, lack of registration. When you 
look at the actual recidivism number of individuals who were 
rearrested and convicted and incarcerated, it's approximately 6 
percent.
    Senator Brownback. Let me--now, let me challenge you a 
little bit on that. That would be one of the absolute best in 
the Nation, at 6 percent. This is over a 3-year, 5-year 
window----
    Mr. Quander. It's----
    Senator Brownback [continuing]. That you're measuring that?
    Mr. Quander [continuing]. It's moving. What we measured 
fiscal year 2003, the first cohort group. And from 2003 to 
present, those individuals who were rearrested, convicted, and 
incarcerated, it's about 6 percent.
    Senator Brownback. Okay, I may not be asking my question 
quite right, because the nationwide average on this is about 
two-thirds----
    Mr. Quander. Well----
    Senator Brownback [continuing]. Is the recidivism rate, and 
I mean, if you're at 6 percent--and that's fabulous if you're 
at 6 percent, but I maybe--not be asking--and that--I need to 
get you the exact window, whether it's a 3- or 5-year window, 
of rearrests for after a conviction.
    Mr. Quander. Right. And what commonly happens is, it 
depends on the definition of recidivism. That's why I started 
out with our rearrest figures being about 18 percent for this 
fiscal year, but rearrest really doesn't get to recidivism. 
Rearrests--as I indicated, most of the individuals rearrested 
were rearrested because of technical violations, where we 
requested of the Parole Commission to issue a warrant because 
someone has violated technical conditions, or we have requested 
the Superior Court to issue a show-cause order because a person 
is noncompliant. And so, once those warrants are issued, 
individuals are arrested.
    Senator Brownback. Yeah.
    Mr. Quander. But as far as being convicted of new 
offenses----
    Senator Brownback. Let me shape the question in a written 
statement to you so we can get a specific----
    Mr. Quander. Certainly.
    Senator Brownback. And if you could spend a little time 
going through that, I would appreciate you looking at what the 
recidivism rate is in the District--is there--there's a pretty 
set definition of these, and I want to--let me get it to you in 
writing, if you don't mind trying to----
    Mr. Quander. Certainly.
    Senator Brownback [continuing]. To take it that way.
    [The information follows:]

    The Bureau of Justice Statistics (BJS) reports that 67.5 percent of 
prisoners released in 1994 were rearrested, and 46.9 percent 
reconvicted, within 3 years. BJS states that these statistics ``come 
closest to providing a `national' recidivism rate for the United 
States.'' \1\ Can CSOSA provide comparable recidivism statistics?
---------------------------------------------------------------------------
    \1\ Bureau of Justice Statistics, ``Reentry Trends in the U.S.,'' 
cited from web site: http://www.ojp.usdoj.gov/bjs/reentry/
recidivism.htm.
---------------------------------------------------------------------------
    When asked about CSOSA's recidivism rate in a hearing before the 
Senate Committee on Appropriations, Director Paul A. Quander, Jr. 
responded by citing three statistics that, together, offer a current 
picture of recidivism among the supervised population:
  --About 14 percent of all individuals arrested by the Metropolitan 
        Police Department in fiscal year 2004 were under CSOSA 
        supervision;
  --Almost half of these arrests were for previous warrants; violations 
        of supervision conditions; or offenses related to public order 
        or motor vehicles;
  --About 6 percent of the total supervised population was convicted of 
        a new offense in fiscal year 2004.
    These statistics, while revealing, cannot be compared to the Bureau 
of Justice Statistics' ``national'' recidivism rate. The reason for 
this is simple: Until very recently, CSOSA did not have the raw data 
necessary to generate comparable statistics. CSOSA reports the 
percentage of the total supervised population that was arrested in a 
given year; BJS reports the cumulative percentage of a cohort that was 
arrested during a three year-period.

Past Data Issues
    Prior to January 2002, when the agency's automated case management 
system (SMART) came online, the agency lacked reliable historical case 
data. This undermined efforts to report long-term outcomes. Because of 
these problems, CSOSA developed an incremental methodology for 
reporting recidivism--to report only the data we could trust, and to 
expand our reporting as data quality improved. We started with manual 
collection of parole rearrest, expanding to probation and fully 
automated reporting after SMART came on-line.
    CSOSA's annual parole rearrest rate averaged 17 percent over the 
past three years (since SMART implementation). While this number is not 
comparable to BJS's data for the reasons discussed above, it is a 
reliable indicator of annual rearrest among a comparable population 
(offenders who have been released from prison). It should be noted that 
CSOSA's rearrest statistics will never be completely comparable to 
BJS's because BJS includes all released offenders, regardless of 
whether they had a post-release supervision obligation.
    BJS's measurement of reconviction also follows a three-year cohort. 
For the reasons discussed above, CSOSA is unable to duplicate that 
measurement. Reporting of conviction is further complicated by the fact 
that this data must be obtained from Superior Court. CSOSA and the 
court are currently working to improve automated data-sharing 
mechanisms. For fiscal year 2003, the last year for which data are 
available, the reconviction rate was approximately 6 percent of the 
total probation and parole population.

Planned Improvements
    Beginning in the spring of 2005, CSOSA's Office of Research and 
Evaluation will initiate a recidivism measurement study using three 
distinct indicators: arrest for a new charge, conviction of a new 
charge, and incarceration for a new charge. The initial study will 
focus on a two-year cohort because SMART data validation was not 
completed until the fall of 2002; therefore, only two complete years of 
data are available. However, the initial study will be used to 
establish a methodology that will apply to subsequent cohorts as well. 
Beginning with this study, CSOSA will establish a ``rolling'' 
recidivism measurement. That is, the initial two-year cohort will 
become the first three-year cohort, and a second three-year cohort will 
be established starting the day after the ``cutoff'' for the first 
cohort.
    This study will generate multi-year data that is comparable to the 
BJS reports. Preliminary results will be available in the summer of 
2005. We will supply them to the Committee as soon as possible.

    Senator Brownback. Are there particular things you're doing 
to reduce your recidivism rates that you've found to be 
particularly successful?
    Mr. Quander. Yes, we are. One of the biggest things that 
we're doing is, we're imposing graduated sanctions upon the 
offenders. And, essentially, what that allows us to do is to 
address a problem or a deficiency very quickly, so that there's 
a direct consequence for inappropriate behavior. That way, we 
don't have to run back to court or to the U.S. Parole 
Commission before we can address it. The court has given us 
certain authority to supervise offenders and to impose certain 
sanctions. For example, if a person misses an appointment, 
there's an--a sanction that is immediately placed on that 
person. It may be----
    Senator Brownback. What? What would be----
    Mr. Quander. It could be community service. It could be a 
meeting with not only his CSO, but the supervisor. If that 
individual is being supervised at a medium level, it could be 
increased to maximum. If he's reporting once a week, we could 
increase the reporting to twice a week. If he has other 
violations, we have a Day Reporting Center, whereby we can 
ask--make that individual come to our office and spend--there's 
a continuum of services for an 8-week period, where that person 
would have to report and be monitored and partake in services 
that deal with anger management, time management, adult basic 
education. It's a complete program that we have.
    We also have sanctions for community services. If an 
individual violates, then, on a weekend, he has to perform 6 to 
8 hours worth of cleanup in the city to help out various 
community groups that are doing cleanup projects around the 
city.
    We also have global positioning equipment that we use to 
sanction individuals, so that we can place curfews on 
individuals--curfews in the evenings or curfews on the 
weekend--so we can, essentially, place someone on house arrest 
for an evening or a weekend as a sanction.
    Senator Brownback. How many of the people do you have on 
that GPS-type system now, that you're supervising?
    Mr. Quander. Beginning of this month, we have 60 
individuals that are currently on the GPS system.
    Senator Brownback. And then you just have somebody that 
monitors--or the system just records, ``Here's where they're 
moving to and through and''----
    Mr. Quander. Each individual on the system is monitored by 
a CSO, his community supervision officer, or probation and 
parole officer. That parole officer, or CSO, gets a report 
every morning that will show where this person has moved, if 
there were any violations noted. We'll use it in our domestic 
violence cases to enforce stay-away orders, and there will be 
an alert that is issued, not only to the CSO, but to the 
offender, as well, that he's entering a stay-away or an 
exclusion zone. That way, there is no confusion as to where a 
person is supposed to be. It also makes it significantly easier 
when you have to report an individual for a violation, and it 
cuts down on disputes as to whether or not a person was there 
or not. There really is no dispute whatsoever.
    Senator Brownback. Yeah. What--if you've got a domestic 
violence situation, do you have some people being supervised 
with the GPS in that?
    Mr. Quander. Yes.
    Senator Brownback. Do you warn the person that has been the 
subject of the violence if that individual comes near, in your 
GPS system?
    Mr. Quander. Yes. We have regular contact----
    Senator Brownback. In realtime?
    Mr. Quander. Not in realtime. It's--we get the reports the 
next morning. However, the CSO has the ability to log on to the 
computer, his computer at his or her workstation, and will 
receive the information realtime if they log on to it. So----
    Senator Brownback. The reason I asked that is, I remember, 
with my own law practice, in having some of these cases come 
up, where they're just--the fear that the person that's the 
recipient of the violence lives under that this person's going 
to be around, and if there would be a way to warn them in 
realtime, I would just think there would be a reduction of that 
fear in----
    Mr. Quander. What we do is, we maintain contact with the 
victims. And the CSOs have a standard relationship with them. 
So we're sharing information. So we let them know what the 
parameters are, that an individual offender is on GPS, ``If you 
see the individual, call.''
    We also have notification that can be given to the 
individual CSO to receive a page or a notice alert to a cell 
phone. So if we set it up that way, the CSO will receive the 
notice that there is a violation, the CSO then can call the 
victim and let the victim know that the offender is in a 
prohibited area.
    Senator Brownback. Do they do that?
    Mr. Quander. It's being done.
    Senator Brownback. Okay. Good.
    And, Ms. Buchanan, thank you for your work in that field. I 
did some public defender work myself, years ago, in Manhattan--
Manhattan, Kansas--and it was rewarding work, and it's 
important work. I appreciated the report and the satisfaction 
that you've had within that system.
    Ms. Buchanan. Thank you.
    Senator Brownback. So I appreciate very much what you're 
doing.
    Ms. Buchanan. Thank you.
    Senator Brownback. Thank you all very much for the 
information that you're presenting. And the budgetary 
information, we'll review. And I appreciate, particularly, as 
well, the pictures of the courthouse where a lot of the funding 
increase is going toward in the capital structure. Those are 
beautiful facilities. I was down there yesterday, and just 
glanced at the facilities, but they were impressive looking 
structures. But as any, I mean, they have some show of wear and 
tear in different places, and it's--be good to get those 
upgraded.
    Anything further you'd care to add?
    Judge Wagner. If I did not ask to have my written statement 
made a part of the record, I would do so now.
    Senator Brownback. It will be, and all of your written 
statements will be placed in the record.
    So, thank you all very much for joining us. We'll be taking 
the budget on up and working together on it as a subcommittee.

                     ADDITIONAL COMMITTEE QUESTIONS

    The record will remain open the requisite number of days. 
And I will be submitting one question to you, if I could, Mr. 
Quander. If you could take some time to look at that 
recidivism-rate issue, I would appreciate that.
    Mr. Quander. Yes, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]

              Questions Submitted to Paul A. Quander, Jr.

              Questions Submitted by Senator Sam Brownback

                     COMMUNITY SUPERVISION PROGRAM

    Question. CSOSA's fiscal year 2002 Appropriation included 
$13,015,000 in no-year funds to renovate Karrick Hall or some other 
facility for use as CSOSA's Reentry and Sanctions Center. What is the 
status of the renovations?
    Answer. In fiscal year 2002 Congress appropriated $13,015,000 in 
no-year funds for the renovation of the entire eight-floor Karrick 
Hall. The renovations would expand the existing Assessment and 
Orientation Center into a Reentry and Sanctions Center. The expanded 
facility will provide a 30-day assessment and treatment readiness 
program for defendants and offenders with long-term substance abuse 
problems. The program will also be used as a residential sanction for 
offenders under CSOSA supervision.
    In September 2002, CSOSA signed a long-term lease (10 years) with 
the District of Columbia for the use of Karrick Hall as CSOSA's Reentry 
and Sanctions Center. Renovations at Karrick Hall are scheduled to be 
completed and the facility ready for full operations in early fiscal 
year 2006.
    The completed Reentry and Sanctions Center will consist of six 
program units: four for males, one for females, and one for offenders/
defendants with mental health diagnoses. The population will be drawn 
from the following sub-groups:
  --Offenders from BOP facilities released to CSOSA community 
        supervision;
  --Misdemeanants or pretrial detainees under the supervision of the 
        District of Columbia Department of Corrections (DCDC);
  --Split-sentence probationers released by DCDC to CSOSA supervision; 
        and
  --Offenders under CSOSA supervision with pending violations.
    During renovations at Karrick Hall, operation of the existing 
Assessment and Orientation Center (AOC) program has been temporarily 
relocated to 1301 Clifton Street, which has capacity for 27 beds. Once 
completed, Karrick Hall will have six units, approximately 100 beds and 
capacity to treat 1,200 offenders and defendants annually. Offenders/
defendants remain in the unit for approximately 30 days and undergo a 
structured pre-treatment program operating 7 days per week. During the 
program, participants cannot leave the facility or receive visitors. 
After completing the 30-day program, the majority of offenders/
defendants are referred to residential or intensive outpatient drug 
treatment as the next phase in their transition.
    Question. Describe the Reentry and Sanctions Center program and its 
potential public safety benefits.
    Answer. In describing the potential value of the RSC, it is useful 
to place the facility in the context of both the national debate 
surrounding offender reentry and the discussion of best practices in 
substance abuse treatment. The two are inextricably connected. The 
Bureau of Justice Statistics estimates that approximately 600,000 
individuals are released from State and Federal prisons each year. The 
majority (50 to 70 percent) report a history of substance abuse,\1\ but 
only one in ten State prisoners and one in nine Federal prisoners 
reports receiving treatment during incarceration.\2\
---------------------------------------------------------------------------
    \1\ Cited in Taxman, Faye, ``Effective Practices for Protecting 
Public Safety through Substance Abuse Treatment.'' Washington, D.C.: 
National Institute on Drug Abuse, 2004.
    \2\ Bureau of Justice Statistics, ``Substance Abuse and Treatment, 
State and Federal Prisoners, 1997.'' Washington, D.C.: U.S. Department 
of Justice, 1999.
---------------------------------------------------------------------------
    The connection between substance abuse and crime has been well 
established. Long-term success in reducing recidivism among drug-
abusing offenders, who constitute the majority of individuals under 
CSOSA's supervision, depends upon two key factors:
  --Identifying and treating drug use and other social problems among 
        the defendant and offender population; and
  --Establishing swift and certain consequences for violations of 
        release conditions.
    National research supports the conclusion that treatment 
significantly reduces drug use. A study conducted by the Department of 
Health and Human Services Substance Abuse and Mental Health Services' 
Administration (SAMHSA) found a 21 percent overall reduction in the use 
of drugs following treatment; a 14 percent decrease in alcohol use; 28 
percent in marijuana use; 45 percent in cocaine use; 17 percent in 
crack use; and a 14 percent reduction in heroin use.\3\ CSOSA's 
preliminary analysis of the effectiveness of its treatment programming 
echoes these findings. A study of CSOSA offenders referred to treatment 
in fiscal year 2001 revealed a 20 percent reduction in substance use. 
In the year prior to treatment, offenders were testing positive at a 
rate of 37 percent. The rate of positive tests among this population 
dropped to 17 percent in the year following treatment.
---------------------------------------------------------------------------
    \3\ Office of Applied Studies. Services Research Outcome Study 
(SROS). DHHS Publication No. (SMA) 98-3177. Rockville, MD: Department 
of Health and Human Services, Substance Abuse and Mental Health 
Services Administration, Office of Applied Studies, 1998.
---------------------------------------------------------------------------
    While reduction in drug use is encouraging, the benefits of drug 
treatment are proven to extend well beyond this basic measure. There is 
substantial research that demonstrates the impact of substance abuse 
treatment on criminal behavior. One national study showed a 45 percent 
reduction in predatory crime in the 2 years following treatment.\4\ 
Another study compared criminal activity during the 12 months prior to 
treatment with the activity 12 months following treatment and found a 
78 percent decrease in drug sales, 82 percent decrease in shoplifting, 
and 78 percent decrease in physical altercations. The same study showed 
a 51 percent decrease in arrests for drug possession and a 64 percent 
decrease in arrests overall.\5\
---------------------------------------------------------------------------
    \4\ Hubbard, R.L.; Marsden, M.E.; Rachal, J.V.; Harwood, H.J.; 
Cavanuagh, E.R.; and Ginzburg, H.M. Drug Abuse Treatment--A National 
Study of Effectiveness. Chapel Hill, NC: University of North Carolina 
Press, 1989.
    \5\ Gerstein, D.R.; Datta, A.R.; Ingels, J.S.; Johnson, R.A.; 
Rasinski, K.A.; Schildhaus, S.; Talley, K.; Jordan, K.; Phillips, D.B.; 
Anderson, D.W.; Condelli, W.G. ; and Collins, J.S. The National 
Treatment Evaluation Study. Final Report. Rockville, MD: Substance 
Abuse and Mental Health Services Administration, Center for Substance 
Abuse Treatment, 1997.
---------------------------------------------------------------------------
    The goal of treatment is to return the individual to productive 
functioning in the family, workplace, and community. Not only can 
treatment reduce drug use and criminal behavior, it can also improve 
the prospects for employment, with gains of up to 40 percent after a 
single treatment episode. Treatment therefore increases the offender's 
chances for successful reentry in all areas of his or her life.
    In order for the potential positive effects of treatment to be 
realized, the individual must be receptive and committed to it. The 
American Society of Addiction Medicine's Patient Placement Criteria for 
the Treatment of Substance Abuse Disorders classify ``Readiness to 
Change'' as a critical dimension of assessment. The ASAM standards 
state (page 6):

    ``. . . [A]n individual's emotional and cognitive awareness of the 
need to change and his or her level of commitment to and readiness for 
change indicate his or her degree of cooperation with treatment, as 
well as his or her awareness of the relationship of alcohol or other 
drug use to negative consequences . . .  [I]t is the degree of 
readiness to change that helps to determine the setting for and 
intensity of motivating strategies needed, rather than the patient's 
eligibility for treatment itself.\6\''
---------------------------------------------------------------------------
    \6\ American Society of Addiction Medicine, Inc. ASAM Patient 
Placement Criteria for the Treatment of Substance-Related Disorders 
(Second Edition-Revised). Chevy Chase, MD: American Society of 
Addiction Medicine, Inc., 2001.

    The value of pre-treatment assessment and treatment readiness 
programming for individuals under criminal justice supervision has also 
---------------------------------------------------------------------------
been noted. As Dr. Faye Taxman writes:

    ``Pretreatment activities are critical to improving the client's 
commitment to behavior change, motivation, and adjustment to the 
treatment process. Readiness usually deviates from traditional 
psychosocial education groups by working on motivational issues instead 
of educational issues. In many cases, this requires the development of 
verbal skills; the identification of feelings and emotions are part of 
the process of committing to change.\7\''
---------------------------------------------------------------------------
    \7\ Taxman, Faye, Ph.D. ``Unraveling 'What Works' for Offender in 
Substance Abuse Treatment,'' National Drug Court Institute Review, Vol. 
II, No. 2, 1999.

    The issue of ``desire to change'' becomes particularly critical for 
individuals with long-term histories of substance abuse and 
inconsistent or ineffective past treatment experiences. These 
individuals may be highly skeptical of the value of treatment and 
reluctant to participate actively. They will also usually present other 
physical or emotional issues that must be treated concurrently with the 
substance abusing behavior.
    The Reentry and Sanctions Center (RSC) at Karrick Hall will provide 
30 days of intensive assessment and reintegration programming for high-
risk offenders/defendants, as well as residential sanctions for 
offenders/defendants who violate the conditions of their release. Based 
on CSOSA's successful Assessment and Orientation Center (AOC), the RSC 
program is specifically tailored for offenders/defendants with long 
histories of crime and substance abuse who cannot be released directly 
to the community or to inpatient treatment. These individuals are 
particularly vulnerable to both criminal and drug relapse at the point 
of release. Since only about 50 percent of releases to supervision 
transition through halfway houses, this placement option is even more 
valuable.
    The RSC program will also allow CSOSA to impose prompt, meaningful, 
graduated sanctions for violations of release conditions, improving the 
likelihood of a successful supervision outcome. If sanctions can be 
imposed as soon as violating behaviors are detected--and if those 
sanctions predictably increase in force and duration as the behavior 
escalates--then supervision will be more meaningful.
    From its inception, CSOSA has worked with the D.C. Superior Court 
and the U.S. Parole Commission to define a range of sanctions that the 
Community Supervision Officer can impose without the delay of seeking 
judicial or paroling authority approval. CSOSA's authorizing 
legislation, the National Capital Revitalization and Self-Government 
Improvement Act of 1997, empowers the Director of CSOSA to ``develop 
and operate intermediate sanctions programs for sentenced offenders'' 
[Public Law 105-33, Title XI,  11233 (b)(2)(f)]. The idea that CSOSA 
would operate a system of graduated sanctions, including residential 
sanctions, also informed the recommendations of the District of 
Columbia Advisory Commission on Sentencing. In its report to the D.C. 
Council, the Commission stated:

    ``CSOSA is developing a series of graduated sanctions, so that 
penalties short of imprisonment can be imposed. Offenders should have 
ample opportunity to comply with conditions of supervised release 
before the U.S. Parole Commission imposes a term of imprisonment, which 
the Commission considers the punishment of last resort.\8\''
---------------------------------------------------------------------------
    \8\ ``Report of the District of Columbia Advisory Commission on 
Sentencing,'' April 5, 2000, p. 35.

    By increasing Community Supervision Officers' ability to reinforce 
accountability, the Agency will decrease the number of cases in which 
the individual must be reincarcerated to interrupt his or her violating 
behaviors. The RSC will greatly increase both the range of sanction 
options available to CSOSA and the programmatic value of brief 
residential placements.
    The Reentry Policy Council (RPC)'s recent report, summarizing the 
``state of the art'' in reentry programming, recommends that 
``community supervision officers have a range of options available to 
them . . . to address, swiftly and certainly, failures to comply with 
conditions of release'' and that offenders who have violated release 
conditions should be assessed to determine the most appropriate 
response.\9\ Although the use of graduated sanctions is currently under 
review in California and elsewhere, the practice has gained 
considerable credibility in recent years. The RPC report also notes 
that ``[r]esponses that are treatment-oriented . . . have . . . shown 
greater promise than the alternative of re-incarceration.'' \10\ The 
RSC program will provide the option of immediate placement, assessment, 
and stabilization of non-compliant offenders, typically for repeated 
substance abuse violations.
---------------------------------------------------------------------------
    \9\ Report of the Reentry Policy Council: Charting the Safe and 
Successful Return of Prisoners to the Community. Washington, D.C.: 
Reentry Policy Council, 2005. Policy Statement 29.
    \10\ Ibid.
---------------------------------------------------------------------------
    Studies by the Institute for Behavior and Health \11\ found that 
offenders who participated in the Washington/Baltimore HIDTA drug 
treatment program were less likely to commit crimes. The indicator used 
was arrest rate, which is defined as the number of arrests for non-
technical violations per participant in the year before treatment vs. 
the number of arrests for non-technical violations per subject in the 
year following treatment. The 2000 Cohort study reported that the 
overall arrest rate for program participants within the Washington/
Baltimore HIDTA in calendar year 2000 dropped 51.3 percent, from 0.8 to 
0.39. Participants in the Assessment and Orientation Center program 
experienced a 74.5 percent decrease in arrest rates, from 0.94 to 0.24. 
Such public safety benefits are expected to be replicated in the 
Reentry and Sanctions Center.
---------------------------------------------------------------------------
    \11\ ``The Effect of W/B HIDTA-Funded Substance Abuse Treatment on 
Arrest Rates of Criminals Entering Treatment in Calendar Year 2001.'' 
College Park, Md.: Institute for Behavior and Health, June 2004.
---------------------------------------------------------------------------
    Question. What is the funding history for operation of the Reentry 
and Sanctions Center?
    Answer. CSOSA's fiscal year 2004 Appropriation included funding for 
18 positions and limited operations of Karrick Hall. CSOSA's fiscal 
year 2005 Appropriation includes $250,000 in operations funding for 
Karrick Hall. CSOSA's fiscal year 2006 request includes $14,630,000 and 
77 new positions for full-year operation of all six units of the Re-
Entry and Sanctions Center at Karrick Hall.
    Question. What is the annual operating cost of the Reentry and 
Sanctions Center?
    Answer. The annual operating cost, beginning in fiscal year 2006, 
will be approximately $18 million.
    Question. This committee included funds in CSOSA's fiscal year 2004 
appropriation for 27 new positions to provide for increased supervision 
of high-risk sex offenders, mental health cases, and domestic violence 
cases, as well as to expand the use of global positioning system [GPS]-
based electronic monitoring. GPS electronic monitoring employs state of 
the art technology to offender supervision and hold great promise for 
solving crimes and detecting offender movements or patterns that would 
enable CSOSA to take action before he or she commits more crime. This 
technology would appear to be a valuable tool for supervising all high 
risk-risk offenders, and in particular, sex offenders and domestic 
violence offenders in which offenders are supposed to avoid certain 
locations, such as schools or specific residences.
    What is the status of implementing the special supervision 
initiative?
    Answer. Two new Special Supervision Teams (Sex Offender and Mental 
Health) started on March 22, 2004 and are currently supervising 
offenders. Additional Special Supervision CSOs, authorized from the 
fiscal year 2004 Special Supervision initiative, started on January 24, 
2005 and are being allocated to Special Supervision Teams.
    The table below shows the status of CSP Special Supervision as of 
January 31, 2004 (prior to the new fiscal year 2004 Special Supervision 
resources) and as of February 28, 2005. Because of additional Special 
Supervision resources, the overall caseload ratio decreased from 31:1 
to 30:1, despite a 15 percent increase in Special Supervision 
offenders.

----------------------------------------------------------------------------------------------------------------
                                                        January 31, 2004                February 28, 2005
                                               -----------------------------------------------------------------
           Total Special Supervision                                   Caseload                         Caseload
                                                Offenders     CSOs      Ratio    Offenders     CSOs      Ratio
----------------------------------------------------------------------------------------------------------------
Sex Offender..................................        509         17       27:1        567         24       24:1
Mental Health.................................        666         24       27:1        843         30       28:1
Domestic Violence.............................      1,122         31       31:1      1,014         32       32:1
                                               -----------------------------------------------------------------
      Subtotal................................      2,297         72       32:1      2,424         86       28:1
                                               =================================================================
TAP...........................................        296          9       33:1        638         10       63:1
STAR/SAINT HIDTA..............................        321         12       27:1        276         14       19:1
                                               -----------------------------------------------------------------
      TOTAL...................................      2,914         93       31:1      3,338        110       30:1
----------------------------------------------------------------------------------------------------------------

    Question. What is the status of implementing the GPS system? What 
criteria do CSOSA use to determine which offenders are placed under 
electronic or GPS monitoring? Using these criteria, how many offenders 
would be placed on GPS at any given time? How many offenders are 
currently under GPS monitoring?
    Answer. Since inception of the GPS Electronic Monitoring pilot in 
fiscal year 2004, 221 different offenders have been placed on the 
system and as of February 28, 2005, 45 offenders were on GPS Electronic 
Monitoring.
    Question. Is the GPS technology being used for defendants?
    Answer. No. However, if resources become available, the Pretrial 
Services Agency would pilot this type of monitoring for high-risk 
defendants with court orders to stay away from particular persons or 
places.
    Question. Supply the Committee with a description of CSOSA's faith-
based initiative, including the number of offenders who have 
participated in the initiative and any accomplishments to date. Are 
faith-based institutions also providing services to meet offenders' 
needs?
    Answer. CSOSA's faith-based initiative is a collaboration between 
the Agency and the District of Columbia's faith institutions. The 
initiative focuses on developing mechanisms through which offenders on 
supervision can establish permanent connections with the community's 
positive, pro-social institutions. Crime is inextricably linked to the 
individual's alienation from mainstream values. By overcoming that 
alienation, the faith community can help the offender replace negative 
associations and attitudes with positive contact and messages. 
Furthermore, the faith institution can address issues of personal 
accountability and change that are beyond the scope of community 
supervision. The church or temple cannot (and should not) replace law 
enforcement, but it can provide a permanent source of positive contact 
and moral guidance. The Community Supervision Officer represents 
external accountability by enforcing release conditions; the faith 
institution represents internal accountability by stressing spiritual 
growth. In addition, CSOSA recognized from the initiative's inception 
that the District's faith institutions provide many practical support 
services, such as tutoring, job training, food and clothing banks, 
personal and family counseling, and substance abuse aftercare. CSOSA 
wanted to ``tap into'' this important source of community-based 
programming in order to expand the range of support services available 
to offenders.
    The faith initiative's governing body is the CSOSA/Faith Community 
Partnership Advisory Council. Established in 2001, the Advisory Council 
membership represents a range of denominations; efforts are currently 
underway to broaden both the membership of the Council and its 
representational diversity.
    Late in 2001, CSOSA and the Advisory Council chose mentoring as the 
initial focus of the initiative to connect faith institution volunteers 
with offenders returning to the community from prison. A successful 
outreach event was held in January 2002, in which faith institutions 
across the city addressed the issue of reentry and issued a call for 
volunteers. Over 400 people attended our initial mentor information 
meeting in February 2002. Since then, the ``Reentry Worship'' event has 
become an annual citywide occurrence.
    CSOSA and the Advisory Council then established a structure through 
which the mentor program could be coordinated and faith institutions 
could provide services to offenders. The city was divided into three 
clusters, and CSOSA issued a Request for Proposals to establish a 
contractual relationship with a lead institution in each cluster. The 
lead institutions are:
  --Cluster A (Wards 7 and 8)--East of the River Clergy/Police/
        Community Partnership;
  --Cluster B (Wards 5 and 6)--Pilgrim Baptist Church; and
  --Cluster C (Wards 1, 2, 3, 4)--New Commandment Baptist Church.
    Each institution employs a Cluster Coordinator, who coordinates 
mentor and other service referrals and performs outreach to increase 
the involvement of faith institutions in the cluster.
    CSOSA also developed and implemented training programs for both 
mentors and the program coordinators at each faith institution. The 
training familiarizes prospective mentors with the structure and 
requirements of community supervision, the offender profile, and the 
program's administrative and reporting requirements, as well as 
providing role-playing exercise in which mentors encounter the 
challenges of mentoring. To date, approximately 200 mentors and 
coordinators from more than 40 institutions have been trained.
    The initial cohort of 24 returning offenders was ``matched'' with 
mentors in August 2002. Since then, the number of offenders in the 
program has grown to over 100. In 2003, CSOSA expanded the program to 
include inmates at the Bureau of Prisons' Rivers Correctional 
Institution in North Carolina. Rivers houses over 1,000 District of 
Columbia inmates. Thirty-three Rivers inmates were placed with mentors, 
who attended biweekly mentoring sessions conducted through video 
conference technology. All but four of the inmates have been released 
as of February 23, 2004.
    As of March 2005, 52 faith organizations were active in the Faith-
Based Reentry Initiative with diverse denominations, including 
Apostolic, Baptist, Catholic, Muslim, Moorish, Episcopal, Methodist, 
Protestant, and Scientology. More than 275 persons from faith 
organizations have volunteered to mentor offenders as they transition 
from incarceration to the community. While mentoring had been the 
initial focus of services, the Initiative has now evolved to providing 
more than 60 other types of services including addiction counseling, 
jobs and housing assistance, anger management and life skills, health 
and education and literacy. In total, the Initiative now offers 92 
programs throughout the city. (see table below for a listing of the 
types of services offered by the Initiative)

------------------------------------------------------------------------
            Types of Services              Total     A       B       C
------------------------------------------------------------------------
Addiction:
    Alcohol Abuse Counseling............       1  ......  ......       1
    Substance Abuse Counseling..........       9       3       3       3
Psychological and Social:
    Life Skills Training................       4       2       1       1
    Social and Leisure Activities.......       3       2  ......       1
Health:
    AIDS Counseling.....................       1  ......  ......       1
    Medical Services....................       1  ......  ......       1
Education and Literacy:
    GED Training........................       5       2       2       1
    Literacy Training...................       5       2       2       1
Vocational Development:
    Job Skills Training.................       4       1       2       1
    Job Placement.......................       3  ......       1       2
    Computer Training...................       5       4       1  ......
Community Support:
    Food Distribution...................       5       1       2       2
    Clothing Distribution...............       4       1       2       1
    Housing Assistance..................       4       1  ......       3
    Parenting Support...................       1  ......  ......       1
    Family Counseling...................       4       2       1       1
    Day Care............................       4       1       1       2
    Mentoring...........................      29      11       6      12
                                         -------------------------------
      Total No. of Programs.............      92      33      24      35
------------------------------------------------------------------------

    Through grant funding from the U.S. Department of Justice, 
Community Oriented Policing Service (COPS), one of CSOSA lead faith 
institutions, New Commandment Baptist Church, is now able to facilitate 
and expand its ability to intercede, with CSOSA and other faith 
institutions, to improve the likelihood that participating parolees 
will have lower rates of recidivism. CSOSA's network of 
interdenominational faith-based participants will contribute to the 
success of this effort. Collaborating with the District of Columbia 
Jobs Partnership, New Commandment Baptist and other faith institutions 
are able to enroll returning offenders in job readiness training 
programs, educational and vocational training, interviewing skills and 
job placement.
    Another participating faith institution, East of the River Clergy/
Police/Community Partnership, has recently received a grant award from 
the U.S. Department of Labor to facilitate and place returning 
offenders into jobs which offer career opportunities. It is projected 
that the availability of this resource will substantially build the 
capacity of the District of Columbia to better serve the returning 
offenders and their families.
    From the enthusiasm of a core group of concerned citizens, the 
CSOSA faith initiative has grown to a citywide effort involving 
hundreds of individuals in a wide range of activities to support 
returning offenders. We look forward to the initiative's continued 
growth as a sustainable long-term resource that offenders can access 
both during and after their term of supervision.

                        PRETRIAL SERVICES AGENCY

    Question. How many defendants did the Pretrial Services Agency 
supervise over the course of fiscal year 2004? What was the rate of 
rearrest for pretrial defendants while under the supervision of the 
agency? What is the rearrest rate for drug users in contrast to non-
drug users?
    Answer. In fiscal year 2004, the Pretrial Services Agency 
supervised a total of 22,101 defendants (a 6 percent increase over 
fiscal year 2003). The overall rearrest rate for defendants under PSA 
supervision was 14 percent. The rearrest rate for violent crimes was 3 
percent, while the rearrest rate for drug related crimes was 5 percent.
    As would be expected from the research documenting the links 
between drug use and crime, drug-using defendants (defined as those 
with at least one positive drug test) have higher rearrest rates than 
non-drug using defendants. In fiscal year 2004, 23 percent of drug-
using defendants were rearrested as compared to only 6 percent of non-
drug using defendants. Drug using defendants had a rearrest rate of 5 
percent for violent crimes while non-drug using defendants had a 
rearrest rate of only 1 percent for violent crimes.
    Question. What improvements has PSA made to its supervision of 
high-risk defendants?
    Answer. In fiscal year 2004, PSA made as an operating priority 
improving supervision of defendants designated as high-risk to fail to 
appear or commit new crimes while on release. This improvement aimed to 
achieve the following objectives:
  --Eliminate unnecessary restrictions to high-risk supervision 
        placement;
  --Create a more suitable supervision protocol for high-risk 
        defendants identified by the Agency's new risk assessment 
        scheme;
  --Provide more suitable community supervision for formerly halfway 
        house-bound defendants, following the D.C. Department of 
        Corrections' reduction of halfway house beds; and
  --Incorporate electronic monitoring into all facets of high-risk 
        supervision.
    To meet these objectives, in fiscal year 2005, PSA consolidated its 
three high-risk supervision units--Heightened Supervision, Intensive 
Supervision, and Restrictive Community Supervision--into a single High 
Intensity Supervision Program (HISP). Establishing a single high-risk 
supervision unit has allowed PSA to achieve each of the above 
objectives. PSA has reduced the eligibility restrictions for high-risk 
supervision to defendants with outstanding warrants or detainers or who 
have been in poor compliance with high-risk supervision within the past 
60 days. With the introduction of the Agency's new risk assessment 
scheme in June, HISP supervision will be tied to defendants assessing 
at a high level of pretrial misconduct risk. These include defendants 
who are non-compliant with current community-based supervision, who 
have failures to appear for court dates, and who have serious criminal 
histories. The scheme also diverts defendants formerly eligible for 
halfway house placements to the HISP, provided they have a verified 
curfew address. Finally, high-risk defendants in this program either 
receive curfew conditions enforced with electronic monitoring or 
Department of Corrections oversight in a halfway house. Twenty-four 
hour home confinement is administratively imposed for those HISP 
defendants in violation of curfew requirements.
    While it is too early to gauge the success of the consolidation, 
initial data is promising. Since the first quarter of fiscal year 2005, 
PSA's high-risk units have averaged nearly 480 defendants. HISP's 
manager-to-defendant ratio has averaged 1:20. The high-risk's unit's 
responses to defendant infractions also have improved during this time. 
For example, staff responded to 94 percent of electronic monitoring 
infractions in first quarter fiscal year 2005 compared to 81 percent in 
fiscal year 2004, 72 percent of contact infractions (58 percent in 
fiscal year 2004) and 79 percent of drug testing infractions (78 
percent in fiscal year 2004).
    Question. What administrative changes has PSA made to better manage 
its in-house and contracted substance abuse treatment resources?
    Answer. PSA's Strategic Plan commits the Agency to integrate 
substance abuse treatment into pretrial supervision. To meet this 
requirement, PSA's operating budgets since fiscal year 2001 have 
included funding for treatment placement with community-based substance 
abuse treatment programs. The Agency also created a walk-in unit to 
assess treatment needs of supervised defendants, maintained its 
Superior Court Drug Intervention Program (SCDIP) and created the New 
Directions Program. SCDIP and New Directions are in-house treatment 
units that provide outpatient treatment services. New Directions also 
handles outpatient services for defendants completing short-term 
residential placements.
    PSA data indicate that the supervised defendant population's 
treatment needs have stabilized over the past 2 fiscal years: Since 
fiscal year 2003, nearly 85 percent of the Agency's contracted 
treatment budget has gone to residential treatment placements. To 
accommodate this need, PSA has enhanced its in-house treatment capacity 
to over 500 slots, thus allowing more contracted treatment funds to be 
available for residential placements. SCDIP and New Directions 
supervised over 40 percent more defendants in fiscal year 2004 than in 
fiscal year 2003. Both programs together now supervise over 550 
defendants. More internal outpatient placements have allowed PSA to 
increase referrals to community-based treatment vendors. The Agency 
made 58 percent more contracted treatment referrals in fiscal year 2004 
than fiscal year 2003. In total, PSA placed 1,622 defendants in 
treatment during fiscal year 2004.

                          SUBCOMMITTEE RECESS

    Senator Brownback. The hearing's recessed.
    [Whereupon, at 11:30 a.m., Wednesday, April 20, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, JUNE 15, 2005

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:15 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Sam Brownback (chairman) 
presiding.
    Present: Senators Brownback, Allard, and Landrieu.

                          DISTRICT OF COLUMBIA

STATEMENT OF HON. ANTHONY A. WILLIAMS, MAYOR

               OPENING STATEMENT OF SENATOR SAM BROWNBACK

    Senator Brownback. I call the hearing to order. I thank you 
all for joining us this morning. We are scheduled for an early 
vote this morning, but what we will do is get the hearing 
started, get as far along as we can, and then we will have to 
take a recess for the vote and then we will come back.
    I want to welcome the Mayor and the members of the City 
Council, the Superintendent, the Chief Financial Officer for 
the District of Columbia, looking forward to the discussion 
that we will have here this morning.
    Today we will hear testimony regarding the District of 
Columbia's fiscal year 2006 local budget request. D.C. Mayor 
Anthony Williams, Council Chairman Linda Cropp, Chief Financial 
Officer Natwar Gandhi will present the city's budget and we 
will discuss the District's request for Federal resources.
    In addition, D.C. School Superintendent Clifford Janey will 
discuss the D.C. Public Schools' local budget request and his 
plans for using the $13 million in Federal funds that have been 
requested of this subcommittee.
    I would like to note that in the last Congress the Senate 
passed a bill by unanimous consent which would have given the 
District autonomy over its local budget, eliminating the need 
for the D.C. local budget to be passed on the annual 
appropriations bill. By decoupling the local budget from the 
Federal appropriations process, we would avoid delaying the 
city's local funds whenever the D.C. appropriations bill is not 
passed before the end of the fiscal year.
    Since the House did not pass a companion measure during the 
last Congress, Senator Collins, chairman of the Committee on 
Homeland Security and Government Affairs, has reintroduced a 
D.C. budget autonomy bill which her committee will soon be 
considering.
    As we review the local budget, I would like to congratulate 
city leaders for making dramatic improvements in the District's 
financial conditions. At a time when many local jurisdiction 
bonds have been downgraded, the District is enjoying an A 
rating from all three credit rating agencies. The city is also 
maintaining a cash reserve balance of about $250 million, which 
is among the largest in the country. The city is enjoying an 
impressive commercial real estate boom and has been creating 
jobs at a rate that is twice the national average. 
Congratulations on all of these financial scores. Those are 
excellent.
    There are areas of concern that temper some of these 
positive facts and I hope to be able to discuss some of those 
with you today. Only one-third of the jobs that the District is 
creating are going to city residents. In fact, even as the 
District has been creating new jobs unemployment in the 
District has been increasing.
    The adult illiteracy rate is something that we have 
discussed at a hearing previously we had on education, I have 
discussed privately with the Mayor and with the chairperson. 
The adult illiteracy rate in the District is 37 percent. The 
District--this is surely one of the prime reasons for the 
persistent unemployment problem.
    For years we have been failing generations of school 
students in the District and now we are reaping some of these 
sad consequences. As I stated in the hearing last month on the 
D.C. Public Schools, money I do not believe is the direct 
problem. Funding for the District school system has increased 
83 percent since fiscal year 1999 even as enrollment has 
dropped 5 percent in the same time period. Despite these large 
increases, only 32 percent of fourth graders are reading at a 
basic level compared to 62 percent nationwide, and only 36 
percent of these students are performing at the basic level in 
math, compared to 77 percent nationwide.
    I know that District officials and others have stated there 
are reasons for this as this is an urban area and in other 
States you are comparing urban and broader regions. Still, 
these numbers are just not acceptable. They are not acceptable 
for the children, and if we fail the children we will fail 
future generations, we will fail the District overall.
    I want to hear from city leaders about how they plan to 
rein in school spending and give the superintendent the tools 
and support to aggressively improve the schools and at the same 
time what we can do to get these grades and scores up. We 
simply must do better.
    Something I met directly with the Mayor about also is the 
need to work to support families in the District. This is a key 
to the future and to education. We have to have a strong family 
structure so that children at home are being read to and their 
math is being practiced. We have got five children in our 
family and it is a constant that you are doing all the time. 
But if you do not have somebody doing that, you cannot expect 
them to go to school and be in a prepared situation.
    We need to strengthen those families to be able to have the 
children raised in a better environment and be better prepared 
to go to school.
    Regarding the Federal portion of the D.C. budget, I know 
that the District has a number of programs and capital projects 
that may merit funding through this subcommittee. Today I would 
like to hear more about these project requests from our panel. 
Although our resources are always limited, as chairman of the 
subcommittee I look forward to partnering with the city leaders 
to find ways to make life better for those who live, work, and 
visit this great capital city.
    As usual, witnesses will be limited to 5 minutes for their 
oral remarks. Copies of all written statements will be placed 
in the record in their entirety and the hearing record will 
remain open for the requisite number of days to make that 
presentation.
    I would like to turn over to my colleague Senator Landrieu 
for opening comments. Senator Landrieu.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman, and I look 
forward to working with you and the other members of the 
subcommittee on this important topic and I want to join with 
you. I am going to submit my full statement, Mr. Chairman, to 
the record, but because of the time and because I am very 
interested and anxious to hear from our panelists today I just 
want to commend the city for the really extraordinary 
turnaround, Mr. Mayor, that has taken place on the financial 
side: the historic surplus, the opportunity that the city has 
to take some of that surplus and really make some strategic 
investments for the development of the city. The chair of the 
Council, thank you, Ms. Cropp, for the work that the Council 
has done in that regard. Dr. Gandhi, you have given 
extraordinary leadership.
    So because the financial situation of the city has improved 
quite dramatically with the help of this subcommittee and with 
Congress, but in large measure due to some of the management 
decisions that have been made at the city level, we are hoping 
now that some really good strategic investments can be made as 
this city looks forward. One of those investments of course 
could be the school system, which, as the chairman has pointed 
out, while progress has been made, while we are pleased, Dr. 
Janey, that you are here and you are providing some excellent 
ideas for that improvement, that this is a real opportunity for 
the city and the Council to step up and even partner in a 
stronger way with the school system.
    Great cities cannot be built without great school systems, 
and this school system, just like many school systems in 
America, are struggling. Not uniquely, not singularly, but many 
cities have this same struggle. The difference is that I see, 
which is a positive difference, is that this city has a 
surplus. This city has a reserve fund. This city has made 
significant progress. There are cities, even if they wanted to 
help their school system, could not do it because their budget 
situation is so dire.
    Now, I understand that there are other needs. Housing is a 
need, streets and transportation, crime and investments in 
keeping crime rates down and supporting the police department. 
I am not unaware of that. We struggle to help our cities in our 
own States with that.
    But truly there is an opportunity here, and I look forward, 
Mr. Chairman, to continuing to work to identify excellence in 
our public school system here, to identify failure and 
eliminate it, identify success and reward it, provide more 
choice and opportunity for parents, and focus on real results, 
not process.
    The final thing I will say about it is solving this problem 
with the schools is not just about money. It is about 
management. When you have on the front page of the newspaper 
today--and I know this is about the city budget, but the city 
should be about schools and I know this Mayor is. When you have 
the front page of the newspaper today stating that schools had 
to be let out because it is 100 degrees in classrooms, we have 
to ask ourselves, what more could we do. That is what I hope we 
can get to later today.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    Welcome Mayor Williams, Chairman Cropp, CFO Dr. Gandhi, and 
Superintendent Janey. We are so pleased that you could be here this 
morning to inform us about your fiscal year 2006 DC Local budget. Thank 
you, Mr. Chairman, for calling this hearing today. I know it will be 
helpful to us as we prepare to mark up the fiscal year 2006 D.C. 
Appropriations bill. As you know, the D.C. Appropriations Subcommittee 
is unique in that it has the responsibility to approve, without change 
the local funds budget as proposed by the Mayor and passed by the 
Council. This year's local budget totals $7.35 billion, of which $4.95 
billion is derived from locally-generated taxes and has been fully 
debated in the Council of the District of Columbia. I hope that we can 
continue our focus on the Federal funding provided through this bill to 
the District government. In the past we have used these funds to both 
enhance particular local programs or projects and fulfill our sole 
responsibility to provide oversight to the District's criminal justice 
functions, the Courts and Court Services and Offender Supervision 
Agency.
    Over the last four years, this Committee has tried to be a partner, 
not a dictator. As such, we have tried to refrain from altering the 
local funds budget as passed by the locally-elected leadership of the 
District--you are best equipped to determine the priorities of city 
agencies. This is not to say that we cannot be active partners in 
reform, or provide funding for discreet projects to catalyze 
improvement, or help to make recommendations in policy in line with 
Federal law. We have tried to play this role in the areas of education, 
nudging the leadership to funding excellence, replicate success and 
eliminate failure.
    Great cities, Mr. Chairman, need great schools. I am a city person, 
having grown up in New Orleans, a city much like D.C. In education is 
particular, both cities are faced with the ongoing challenge of 
providing a quality education to all children. The purpose of the 
public education system in America mirrors much of the mission of the 
United States as it was formed--to provide an open opportunity for 
citizens to create, build, and contribute to our great nation. Our 
primary mission in providing access to a quality was to encourage the 
development of a creative workforce which would, and has, driven the 
innovation America is known for.
    But the public education system that served us for so long is 
becoming increasingly outdated and faces many challenges. To survive, I 
must change and adjust. To remain competitive in competitive times, it 
must be more consumer focused and less bureaucratic, more dynamic. D.C. 
itself has suffered a decline in enrollment of 2,000 students every 
year for the last 10 years. People have grown tired of a slow moving 
bureaucracy who cannot meet the needs of its students or the workforce 
demands of our society and they have gone elsewhere I believe that can 
change and I am encouraged by Dr. Janey's commitment to develop 
targeted areas of improvement.
    One such area we have worked closely on is the $40 million annual 
investment in school improvement. In 2004, the Congress initiated a 
five year demonstration program to invest $13 million annually in three 
sectors of education: scholarships to private school, expansion of 
public charter schools, and strengthening of public schools. I have 
worked hard not only to invest in leading edge innovation in public 
charter schools, but also to challenge the oversight of charter schools 
to be more strenuous. From Dr. Janey's first weeks we have worked to 
target the funding to public schools to increasing student achievement 
and teacher readiness. I look forward to hearing about implementation 
of these funds and plans for fiscal year 2006.
    Education is just once piece of the unprecedented increase in 
Federal dollars that have gone to the city ($157 million in fiscal year 
2003-2005). The last several years have marked an increase in 
Congressional confidence in local leadership, resulting in increased 
autonomy for D.C., and increased investment in strategic projects. A 
more broad challenge was confirmed by the General Accounting Office 
(GAO) in a landmark study of the District's ``Structural Imbalance'', 
finding the city faces an annual deficit of $400 million to $1 billion 
between their revenue capacity and cost of providing average services. 
The report, requested by D.C. Congresswoman Norton and myself, found 
the underlying reason for the structural imbalance in the city's budget 
is the high cost of providing services in D.C. The study also 
identified management inefficiencies, particularly in schools and 
Medicaid billing that with attention could realize savings.
    Finally, the GAO estimated that the imbalance has caused the 
District to defer maintenance or invest in critical infrastructure to 
the tune of $2.5 billion over the years. In the past the Committee has 
included a marker on the Federal share of building and maintaining 
infrastructure in the city, particularly in the area of transportation 
and the Anacostia River. I hope to build on this investment this year 
by partnering with the city on major infrastructure investments.
    At the same time as working on the structural imbalance, we must 
focus on other tools for bringing greater prosperity and long term 
stability to the District. Cities that have good public schools, safe 
communities and strong families are cities that have strong economies. 
If we focus on providing these elements in the District, we will go a 
long way toward the economic independence the city needs and deserves. 
One such tool Mayor Williams and I have developed--City Build Program 
for Charter Schools--is a grant program for public charter schools to 
locate in neighborhoods which have the near-term potential of 
attracting or retaining residents to meet the goal of increasing the 
population by 100,000 residents. This can be done by keeping the people 
you have with services targeted to their needs that would otherwise 
have moved to the suburbs for the child's public education, 
transportation issues, or to find affordable housing.
    In addition to the investment in these building blocks of 
neighborhoods, the Committee has focused on ways to support the 
development of infrastructure which the GAO identified as the primary 
victim of an imbalance in the city's finances. While the President's 
budget request has increased the level of projects recommended for 
Federal funding each year, this year the President made a grave 
oversight in not funding the Combined Sewer Overflow program. This 30-
year, billion dollar renovation of the underground sewer system, built 
by the Congress in the 1800's, is a key to revitalization of the 
Anacostia and Potomac waterfronts.
    If the city is to have a beautiful baseball stadium at the 
confluence of these two rivers, and a river walk all the way from 
Maryland, and wonderful housing and shops at the South East Federal 
Center, and a grand boulevard on M Street at the Navy Yard, and the 
revitalization of Reservation 13 extending Massachusetts Avenue down to 
the water, and recreation for youth and families at Kenilworth Park and 
Poplar Point, and creating a sanctuary on Kingman Island, and all of 
the other important improvements for the life of the city, its 
residents and visitors--how are we to do this alongside a river which 
suffers from over 80 overflows from the sewer system every year? How 
are we to make the Anacostia River accessible when contamination is off 
the charts?
    I am pleased to see the Mayor has included funding for the plan to 
renovate the Combined Sewer system on his list of Federal funding 
priorities, however if the list is to be read in order of priority it 
is last. I hope the Mayor and Chairman Cropp can provide some insight 
into their lobbying efforts to ensure this critical project is funded.
    Finally, a major area of annual concern on the D.C. bill is the 
addition of social riders which require the city to limit their own 
policies, a limitation which is not placed on other cities. I am 
committed to treating the District like any other city when it comes to 
spending locally raised taxes. To that end, I will not support efforts 
to limit the elected officials in the practice of their duties.
    I appreciate the witnesses' time and commitment to the District of 
Columbia. I have greatly valued our partnership over the last four 
years and I look forward to working together this year.

    Senator Brownback. Thank you, Senator Landrieu.
    We do have a vote on now, but I want to go to my colleague 
Senator Allard for a brief statement, and then we will recess 
until after the vote. Senator Allard.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Mr. Chairman.
    I would just like to welcome the Mayor and Dr. Gandhi and 
Chairman Cropp and Dr. Janey for appearing before the panel 
here and associate myself with the comments of my colleagues.
    Just one other concern that I would like to bring up. As 
chairman of the Subcommittee on the Legislative Branch 
appropriations, I have oversight on the new expansion here at 
the Capitol. It is the visitor center there, and I just would 
hope that as we move toward the concluding part of the 
construction on this particular facility that we can make sure 
that all our ducks are in order as far as meeting the 
requirements for occupancy. There could be some issues that 
could come up there and if you see any utility issues or 
anything that could come up here on the last minute, please 
work with the contractors and work with the Architect and 
ourselves and see if we cannot begin to identify these problems 
early on so that they will not end up in unnecessary delays as 
we move toward closing down the project and getting the 
certificate of occupancy.
    I want to thank all of you for being here. I have another 
subcommittee running, so I will not be able to be here for all 
your testimony. But I will be reviewing it closely and I look 
forward to working with the chairman on those issues that are 
important to you.
    Thank you very much.
    Mayor Williams. Thank you.
    Senator Brownback. Thank you, Senator Allard.
    We have 5 minutes left in the vote. We are going to recess 
the hearing. I would ask my colleagues, if we could, to go over 
and vote and get back as soon as possible. As soon as I am 
back, we will start with the presentation. My apologies to 
this. It is just one of the hazards of the job that when they 
call a vote you have got to go run and vote.
    So the subcommittee will be in recess, hopefully for no 
more than 15 minutes, and then we will reconvene.
    I call the hearing back to order. Again my apologies for 
the interruption on the energy bill we are voting on.
    Mayor Williams, delighted to see you. I want to say 
publicly, too, when I first came into the Senate, elected in 
1996, the District of Columbia was in a very difficult 
financial condition and many things were not moving in the 
right direction. We had the emergency board. I am not putting 
the right title on that. I was the chair of the authorizing 
committee at that point in time. I worked with you some then.
    This has been a dramatic turnaround. It has been a most 
impressive turnaround. I want to compliment you in particular 
about that because you have been at the center of much of that 
change, that turnaround that has taken place, and it is very 
good to see. I am looking forward to addressing the rest of the 
issues that remain, but I do not want to take anything away 
from the efforts that have been made and what has been 
accomplished in really a relatively short period of time. So my 
congratulations to you.
    The floor is yours.

                    STATEMENT OF ANTHONY A. WILLIAMS

    Mayor Williams. Thank you, Mr. Chairman. My full statement 
has been submitted for the record of the subcommittee and I am 
going to try to paraphrase wherever I can, not only to keep my 
remarks within 5 minutes, but to allow you to hear from our 
other presenters and to have the dialogue that you desire.
    I want to thank you and ranking member Landrieu and the 
other members of the subcommittee for the opportunity to 
testify before you today. You have already mentioned, Mr. 
Chairman, as has Senator Landrieu, the fiscal responsibility 
that we have stressed in our city and the fiscal prowess that 
we are now enjoying. But I do want to mention one thing in that 
regard and that is the District's strong financial performance 
occurs in spite of what I believe is a long-term structural 
imbalance. Now, that may seem paradoxical. One would ask, how 
can such an imbalance be real when the economy of the city is 
so strong?
    I believe that the explanation is twofold. First, our 
residents are among the most heavily taxed people on Earth. 
Second, the District is deferring massive investments in 
critical services and infrastructure. Approximately $2.5 
billion of infrastructure has been deferred over the years. Not 
only outdated sewer system, fixing accumulated needs of our 
streets, bridges, and mass transit, which have a homeland 
security component because of our role as the National Capital 
Region, but also in light of your remarks and Senator 
Landrieu's remarks and in light of my colleague Dr. Janey I 
would mention the massive deferral of investment in our schools 
infrastructure. Whatever we may think about the operating 
budget of the schools, there clearly is a need for investment 
in our school buildings. I would agree with you, it really is 
tragic if the schools have to be closed because our kids are in 
100 degree or over classrooms.
    Now, last year the subcommittee held a landmark hearing on 
the District's fiscal challenges and your continued commitment 
to resolution of this structural deficit will be critical to 
putting us on a permanent and equitable financial footing. I 
hope that we can continue in that effort. I would refer to the 
subcommittee one promising vehicle, the District of Columbia 
Fair Federal Compensation Act of 2005, which would provide the 
District with annual Federal payment of $800 million a year 
dedicated to transportation projects, debt service payments, 
public school facilities, information technology investments. 
It would be on a formula basis, not just for regular operations 
of government but for strategic things that go to the long-term 
undergirding of our city.
    Now, very briefly, Mr. Chairman, in terms of our priorities 
in our local budget, I just very briefly mention that one is 
new communities, a major investment in housing and physical 
infrastructure in our city's most challenged neighborhoods. We 
have been very successful in working with two Presidents, both 
Democrat and Republican, to bring HOPE VI projects to our city. 
We believe very strongly in the role of mixed income 
communities, not to displace our low income residents, but to 
allow our low income residents to live in a healthy community 
of a mix of incomes, both rental property and home ownership, 
with all the amenities, the good schools, the libraries, the 
recreation centers, all the amenities of a good neighborhood.
    Great streets are another major investment in our city, 
recognizing that in our urban areas of our country our great 
streets are our major commercial corridors. To accomplish this, 
we propose $88 million in investment in revitalization of major 
corridors in our city, unleashing I believe economic potential 
on major streets such as Georgia Avenue, H Street, Nannie Helen 
Burroughs, Benning Road, and other neighborhood arteries.
    Roads and bridges are a major priority and our budget 
reflects this in a major new investment in our city's physical 
infrastructure, starting with $230 million of local investment 
in streets and bridges along the Anacostia Waterfront. This 
project, which we funded $35 million in fiscal year 2006, will 
make critical infrastructure improvements.
    Education is a major part of our budget. I will allow Dr. 
Janey in his time to stress the importance of education, but I 
want to use this opportunity, Mr. Chairman, to state my full 
and emphatic and unequivocal support for our superintendent. 
Now, everybody knows that over the last year I spent a lot of 
time trying to assume responsibility for the schools and the 
people have spoken. The people are right in our democracy. So, 
given where we are, I believe that the locus of authority and 
responsibility has to be in one place. It cannot be in three 
places, five places, eight places. It has to be in one place. I 
believe that the locus of that authority and responsibility, 
with the support of the Mayor, the support of the Council, our 
nonprofits, our faith community, our business community, should 
be in this superintendent. Dr. Janey knows that he has my 
strong support as he meets a very, very heavy challenge.
    Health and welfare and youth are a major investment in our 
city, and our budget includes new investments in primary health 
care services through community health centers, which would 
improve our support for patients from underserved communities. 
We also provide multiyear funding of $76 million for our 10-
year plan to end chronic homelessness, including investment in 
wrap-around services.
    We make a major investment in tax relief in our city of 
some $88 million. I am particularly pleased that this tax 
relief is spread across all income levels in our city.
    Now, very briefly, Mr. Chairman, our request for Federal 
funding includes, one, as you have come to know, members of 
this subcommittee know, our strong support for what we call our 
marquee Federal initiative, and that is the tuition assistance 
grant program. This has been an absolute tremendous success and 
we would ask for full funding. This program is funded at $33 
million in the President's budget and we ask for your continued 
support for this very successful initiative.
    The consolidated laboratory, crime lab, we have enjoyed the 
support of the subcommittee on that and we are requesting that 
you match the President's mark of $7 million for this project.
    A new mental health hospital in the city is also a major 
initiative of ours. Last but not least--well, let me, before I 
get to the last point, we continue our appeal to the 
subcommittee for funding to provide for long-term control of 
discharge into the Anacostia River. The D.C. Water and Sewer 
Authority (WASA) is embarking on a 30-year plan to fix the 
system in order to drastically reduce pollution in our 
waterways, and we ask that the committee support this program 
in the amount of $30 million.
    This is--the Federal Government plays a major role in the 
pollution status of the Anacostia River because most of the old 
city is occupied by the Federal Government. The lack of storm 
and sewage drainage separation is a result of decisions made 
way back by the Federal Government. The Federal Government is 
our major corporate partner of all of our corporate partners. 
For that reason, we would ask that the subcommittee continue 
its investment in the Anacostia River, as it has in so many 
different ways, working with our local leadership and certainly 
with Congresswoman Norton, who in general I want to applaud for 
all her leadership on these things.
    Then, Mr. Chairman, I reserve for my last appeal something 
that I know you are interested in. This is the result of bad 
decisions and management over years and years and years, as you 
know, a high number of ex-felons in our city, who come back to 
our city every year. I know this is something that you care 
about. We have identified access to housing as one of a number 
of important risks to recidivism for individuals making the 
transition from prison back to society.
    To address this need and to reduce the chance that today's 
returning prisoners will become tomorrow's homeless and go 
through that revolving door and end up back in prison, we 
propose a $5 million level of funding to do, within a mixed 
income setting--we are not talking about segregating our ex-
felons, but within a mixed income vibrant community--$5 million 
to house our ex-felons as we provide them one-stop service to 
get them back on their feet, get them their training, and get 
them into jobs.

                           PREPARED STATEMENT

    So, Mr. Chairman and Senator Landrieu, that is my 
testimony. Again, thank you for your partnership. As I close my 
remarks, I would again make my continued yearly annual appeal 
for full representation for our beautiful Nation's capital.
    Senator Brownback. Thank you, Mayor, and thank you for the 
discussion and the specifics that you lay out in front of us. I 
look forward to the question and answer session.
    Thank you very much.
    [The statement follows:]

               Prepared Statement of Anthony A. Williams

    Chairman Brownback, Ranking Minority Member Landrieu, and other 
distinguished members of this subcommittee, thank you for the 
opportunity to testify before you today in support of the District of 
Columbia's fiscal year 2006 budget and financial plan. I continue to 
appreciate the support and commitment that this committee has provided 
to our efforts to improve the District of Columbia as a place to live, 
work, and visit.
    With our fiscal house in order, city services improved, and a 
robust environment for economic and housing development, we now face 
the challenge and opportunity to ensure that the rising tide we have 
created lifts all communities.
    My remarks this morning will focus on three main goals we have for 
working with this subcommittee:
  --Maintaining fiscal responsibility;
  --Responding to citizens' priorities with local budget decisions; and
  --Pursuing federal investments that address our special status as the 
        nation's capital and invite partnership with the federal 
        government on local priorities.

                   MAINTAINING FISCAL RESPONSIBILITY

    The District has achieved a tremendous amount of financial progress 
over the past decade under the leadership of my administration and the 
City Council and diligence of the Chief Financial Officer. Fiscal year 
2004 marked the District's eighth consecutive balanced budget; the 
District has an A rating from all three credit rating agencies which is 
the highest level we have achieved since the inception of Home Rule; we 
are maintaining a cash reserve balance of about $250 million, which is 
among the strongest in the country; and our fund balance exceeds $600 
million. The turnaround and success of the District, impressive on its 
own merits, is truly laudable when you consider how much we have 
achieved over such a short period of time.
    In fiscal year 2006, the District's baseline general fund revenue 
is projected to grow by 5.6 percent. This strong revenue growth, along 
with our robust reserves from prior years, have allowed us to submit an 
fiscal year 2006 budget of $7.35 billion in total funding that supports 
34,635 full-time equivalent (FTE) staff. In local funds, this budget 
proposes $4.95 billion in funding and supports 26,787 FTEs.
    Despite the temptation to allocate all available resources to 
programs during strong fiscal years, this budget reflects a high 
standard of fiscal responsibility by providing for $88 million in new 
tax relief. This budget also responsibly ensures that we do not rely on 
one-time funding for long-term programs and more than half of the 
growth in this budget comprises one-time expenditures that are not 
built into the District's baseline budget.
    Even more impressively, we have accumulated this record despite a 
long-term structural imbalance, which is estimated by the Government 
Accountability Office to be between $470 million and $1.1 billion per 
year. The GAO cites multiple factors causing this imbalance: the high 
cost of providing services in the D.C. metropolitan area, the relative 
poverty of our population, and federal restrictions on our revenue 
collection authority.
    The District's strong financial performance in spite of a long-term 
structural imbalance may appear paradoxical. How can such an imbalance 
be real when the economy is so strong? The explanation is twofold. 
First, our residents are among the most heavily taxed in the nation, 
and, second, the District is deferring massive investments in critical 
services and infrastructure. Approximately $2.5 billion of 
infrastructure has been deferred, including renovating crumbling 
schools, repairing our outdated sewer system, and fixing accumulated 
needs in our streets, bridges and mass transit system.
    As we seek solutions to address the structural imbalance and 
address our long-standing problems, it is clear that taxing our 
residents more or providing fewer services are not viable alternatives. 
Nor can we solve our long-term challenges through additional borrowing. 
This year, our budget includes a capital outlay of almost $500 million 
in new spending, much of which is supported by a one-time windfall of 
recent, hard-earned surpluses. Though this allows us to begin to 
address our most pressing capital needs, we remain unable to meet our 
accumulated needs on our own. An option proposed by the GAO is a change 
in federal policy to expand the District's tax base or to provide 
additional financial support.
    One very promising vehicle for resolving this imbalance is the 
``District of Columbia Fair Federal Compensation Act of 2005''. This 
bill would provide the District with an annual federal payment of $800 
million a year dedicated to transportation projects, debt service 
payments, public school facilities, or information technology 
investments. This approach to addressing the District's structural 
imbalance would allow the federal government to invest in 
infrastructure that benefits the federal government itself, the 
Washington metropolitan area, as well as the District of Columbia. Last 
year, this committee held a landmark hearing on the District's fiscal 
challenges and your continued commitment to a resolution to our 
structural deficit will be critical to putting the District on 
permanent and equitable financial footing.
    In addition to addressing the federal contribution to our budget, 
we also need to repair the federal process for reviewing our budget. 
This year, the President again endorsed budget autonomy for the 
District of Columbia and legislation has been introduced in the 
Congress to provide this authority. This legislation, besides being a 
well-deserved advancement of Home Rule, would significantly streamline 
and rationalize our budget process by allowing the city to better align 
local funds with oftentimes unpredictable and shifting needs. This 
year, we are hopeful that the Congress will pass legislation this 
session to provide for budget autonomy. In the meantime, we hope you 
consider intermediate measures to streamline our budget modification 
process throughout the fiscal year to allow us to better respond to 
future unanticipated needs. For example, our budget includes language 
that would allow the District to spend up to an additional 6 percent of 
our total revenues without coming back to Congress for supplemental 
budget authority, provided that additional revenues are certified as 
available by the Chief Financial Officer. This would provide us with 
the flexibility to respond to changing revenue realities at the local 
level in a more timely matter than the supplemental appropriation 
process provides.

                       FUNDING CITIZEN PRIORITIES

    This budget funds groundbreaking initiatives that will reshape the 
physical landscape of the District of Columbia and strengthen our 
social fabric in a fiscally responsible and balanced manner. This 
budget has been developed around the core principles of fiscal 
responsibility, fairness, strategic investments in critical social 
needs, and improving our infrastructure. With input from residents, the 
priorities addressed in this budget are housing, employment, better 
transportation infrastructure, targeted services for youth, and 
continued commitment and support to education and public safety.
    The fiscal year 2006 Budget and Financial Plan will lift all 
communities by making major new investments in the following 
initiatives:

New Communities
    New Communities is a major investment in the housing and physical 
infrastructures of the city's most challenged neighborhoods. Although 
many District neighborhoods are undergoing rapid change and 
transformation, there are still places in the city where crime, 
unemployment, and truancy converge to create intractable physical and 
social conditions. The New Communities initiative is more than the 
bricks and mortar transformation of neighborhoods. It is a 
comprehensive community development program aimed at lifting people and 
neighborhoods by addressing a community's social and economic ills, 
along with its physical problems. The long-term goals of New 
Communities are to meet the needs of lower-income District families and 
residents by providing critical social support services; decreasing the 
concentration of poverty and crime; and enhancing access to education, 
training and employment opportunities, but this effort will begin 
immediately with a large-scale investment in our housing infrastructure 
with a special focus on public housing.

Great Streets
    It is important to extend the District's downtown economic success 
to the neighborhoods throughout the city by leading private investment 
with public investment. To accomplish this, we propose to securitize 
new bus shelter revenue to raise approximately $88 million to invest in 
the revitalization of the District's corridors, unleashing the 
commercial potential of Georgia Avenue, H Street, NE, Nannie Helen 
Borroughs, NE, Benning Road NE and other neighborhood arteries. In 
order to complement this investment in physical infrastructure with the 
revitalization of the commerce along these streets, we are dedicating 
an additional $16.6 million to attract new businesses and to help 
existing businesses flourish.

Bridges and Roads
    Our budget reflects a major new investment in our city's physical 
infrastructure, starting with a $230 million local investment in the 
District's streets and bridges along the Anacostia River. This project, 
which is funded at $35 million in fiscal year 2006, will make critical 
infrastructure improvements needed to alleviate congestion and overflow 
traffic in surrounding neighborhoods. In addition, this budget 
dedicates approximately $23.2 million in additional resources for 
street, sidewalk and alley paving.

Education
    Our fiscal year 2006 budget includes a total of $1.1 billion in 
local funds to educate approximately 80,000 students within the 
District of Columbia Public Schools (DCPS) and public charter schools. 
This funding level represents an increase of $101 million, or 10.5 
percent, over the fiscal year 2005 budget. The fiscal year 2006 budget 
is aligned with the Superintendent's core budget request of $775 
million, provides an additional $25 million to support strategic 
educational investments at both DCPS and charter schools, funds eleven 
new charter schools, and allocates $20 million for additional salary 
step increases.
    To support DCPS capital needs, this budget provides $147 million in 
capital funding to support rehabilitation and modernization of D.C. 
Public School buildings. In addition, this budget includes funding for 
a new public school modernization fund, which will provide an 
additional $150 million for capital investments. These resources will 
be made available to the school system provided that DCPS meets 
criteria regarding co-location, special education space needs, and 
coordination with other public facilities.

Health and Welfare
    In the area of health care, the fiscal year 2006 budget 
demonstrates the District's continued commitment to providing health 
services to residents, particularly those who are underserved. This 
budget augments primary health care services and increases support for 
community health centers, which will result in the ability to support 
additional patients from underserved communities. This budget also 
includes multi-year funding of $76 million to support the District's 
ten-year plan to end chronic homelessness. This funding will go towards 
providing enhanced wraparound services for homeless families and 
individuals, building new housing assistance centers, providing 
eviction prevention services, and creating subsidized housing.

Children and Youth
    Children and youth are among the most vulnerable of our residents. 
This budget supports additional funding to provide education, health, 
enrichment and other opportunities for our children and youth, which is 
critical in preventing juvenile violence and providing meaningful 
supports so that young residents grow into productive, engaged members 
of the District's community.

Tax Relief
    Starting in fiscal year 2006, District residents will benefit from 
$88 million in new tax relief. This tax package provides for a balance 
between income tax relief and property tax relief that is especially 
targeted to low-income families. All property owners living in their 
homes and coping with rapidly rising home value assessments will 
benefit from $211 in tax relief from an increase in the homestead 
deduction from $38,000 to $60,000. Low-income homeowners will be 
further protected from rising tax bills by a new provision that will 
allow households earning less than $50,000 per year to defer any 
property tax increases until they sell their house. This will provide 
for neighborhood stability, especially for seniors who have difficulty 
meeting rising property tax costs in rapidly changing neighborhoods.
    This budget also includes income tax reductions. First, the local 
Earned Income Tax Credit (EITC) program is being improved to make it 
one of the most generous programs in the nation by increasing our 
refundable credit from 25 percent of the federal benefits level to 35 
percent of the federal level. Also, for the first time, program 
benefits will be expanded to cover non-custodial parents who are paying 
their child support. This provides a work incentive and ensures the 
equal treatment of parents. In addition to targeted income tax relief, 
this budget includes a $500 increase in the standard deduction and a 
$130 increase in the personal exemption, which will benefit all 
taxpayers in the city. These income tax proposals will provide a more 
progressive complement to the broad tax changes that will be triggered 
by tax parity in fiscal year 2006. Tax parity reduces the rates of all 
three of the District's income tax brackets, including a reduction in 
the top rate from 9.0 percent to 8.7 percent.

             PRIORITY FEDERAL FUNDING FOR CRITICAL PROJECTS

    These local investments will leverage the strength of our economy 
to lift all communities by investing new resources in our 
neighborhoods, our infrastructure, and our more challenged communities. 
Connecting these communities to the economic vitality we are 
experiencing in many parts of the District is paramount to the 
continuation of the District's renaissance.
    The President's fiscal year 2006 budget has recognized the 
importance of partnering and contributing toward several of the 
District's top priorities, including full funding for the Tuition 
Assistance Grant Program, inflation-adjusted funding for the Three-
Sector Education Initiative, funding for the Consolidated Laboratory 
Facility, funding for the Anacostia Riverwalk and Trail, which is part 
of my Anacostia Riverfront Initiative, funding for the Criminal Justice 
Coordinating Council, and funding for the Emergency Planning and 
Security Cost Fund.
    The Tuition Assistance Grant Program is a marquee federal 
initiative that has been a tremendous success. This program compensates 
the District for our lack of a state-like university system by allowing 
our high school graduates to attend out-of-state public universities at 
in-state tuition rates and providing grants for attending selected 
private universities. Program costs have continued to grow rapidly due 
to rising tuition costs nationwide and rising program participation. 
This program is funded at $33.2 million in the President's budget and I 
ask you to continue your support for this successful initiative by 
fully funding the President's mark.
    Another critical program which was first funded by this 
subcommittee, and funded for the first time this year by the President 
at $7 million, is the Consolidated Laboratory Facility. This laboratory 
will combine forensics capacities, our medical examiner functions, and 
our various public health laboratories into a single combined facility, 
leveraging our capital investment and providing the District with 
state-of-the-art forensics analysis capacities for the first time at 
the local level. This will free up resource at the federal facilities 
which we are currently using for testing while providing additional 
surge capacity for lab needs throughout the Washington area.
    In addition to these important funded projects, our budget request 
to the Congress includes requests for the following projects that are 
worthy of congressional attention:
  --Mental Health Hospital.--The city is constructing a new hospital on 
        the St. Elizabeths campus which will allow us to continue to 
        implement court-mandated improvements in services to our 
        patients. Our current facilities do not meet the standards of 
        care required of the District and the costs of operating our 
        existing buildings are increasingly cost prohibitive. 
        Currently, approximately 17 percent of inpatients that we serve 
        are referred to the city by federal agencies and courts. 
        Therefore, we are seeking a contribution for our capital 
        investment in this new facility at a pro-rated commensurate 
        level of $32 over the next three years and $17 million in 
        fiscal year 2006.
  --Ex-Felon Housing.--We have identified access to housing as one of 
        the most important risk of recidivism for individuals making 
        the transition from prisons back into society. To address this 
        need, and reduce the chance that today's returning prisoners 
        will become tomorrow's homeless, we propose a $5 million ex-
        felon housing program to provide organizations and developers 
        with an incentive to construct housing specifically for the ex-
        felon community. Once this housing is in place, we will devote 
        our existing resources to providing the job training, mental 
        health, and other public services necessary to provide these 
        returning prisoners with a true opportunity to return to 
        society as productive citizens.
  --WASA's Long-Term Control Plan.--As you know, I believe that the 
        Anacostia River is one our most precious and under-appreciated 
        assets as a city. Improving public access and for the 
        tremendous natural amenities along the Anacostia River is a 
        driving priority of my administration, but my vision for the 
        revitalization of the Anacostia River will not be possible 
        unless we clean up the river by fixing our combined sewer 
        system that currently deposits waste into the river throughout 
        the year. The D.C. Water and Sewer Authority is embarking on a 
        30-year plan to fix this system in order to drastically reduce 
        pollution in our waterways and I ask that you support this 
        critical program in an amount of $30 million.
  --Fire/EMS Command Center.--The District's emergency response 
        functions are outdated and in need of repair. As the fire 
        department for the nation's capital, including the U.S. 
        Capitol, the headquarters for the Fire and Emergency Medical 
        Services is inadequate and does not meet the specifications for 
        a modern emergency response in high-threat environment. The 
        District currently has plans in place to leverage private 
        investment to improve our fire command capacity and in addition 
        provide for new and necessary storage facilities for homeland 
        security emergency response equipment and is requesting a $10 
        million contribution as part of our budget to support this 
        investment.
  --Downtown Circulator.--The city will soon launch a new bus service 
        designed to link the Central Business District and key federal 
        destinations. The Downtown Circulator project will provide the 
        22 million visitors to Washington, DC with an inexpensive and 
        easy way to move around the Monumental Core while helping to 
        mitigate the impact of street closures for security purposes. 
        The service will connect several of the District's most popular 
        destinations for residents, tourists and even federal 
        employees. In the future, the system could also be adopted by 
        federal agencies as cost-saving replacement for private vehicle 
        fleets and shuttle services. The federal government has 
        contributed to this project in fiscal year 2004 and fiscal year 
        2005 and the District is requesting an additional $1 million in 
        fiscal year 2005, which the District will match with local 
        funds on a one-to-one basis on top of considerable support from 
        the city's tourism and business sectors.

                   DEMOCRACY FOR THE NATION'S CAPITAL

    Having outlined our budget objectives, it is important to keep in 
mind a District priority whose value is beyond fiscal measure, and that 
is our democratic rights. The District is the capital of the world's 
greatest democracy and it is the ultimate hypocrisy that its citizens 
suffer from the exact disenfranchisement this nation was founded to 
end.
    The United States is continuing to sacrifice hundreds of lives and 
billions of dollars to spread democracy worldwide, yet denies full 
democracy to more than a half a million people at its very heart. I 
urge you to end this injustice and provide the city with full voting 
representation in the Congress. Anything short of full democracy for 
our residents should be at the level of personal outrage for all 
Americans.
    In recent years, this subcommittee has successfully resisted 
efforts to add undemocratic social riders to our appropriations bill. 
No matter what any Senator's opinion may be on the topic at hand, we 
hope this body will respect the right of District residents to decide 
local matters, just as the residents do in our 50 states. We also hope 
this body will repeal riders that restrict our ability to make 
decisions about spending local funds on needle exchange programs and 
lobbying.
    This concludes my remarks today. Thank you for the opportunity to 
testify before you today and I look forward to answering any questions 
you may have.

    Senator Brownback. Chairperson Cropp.

STATEMENT OF HON. LINDA CROPP, CHAIRMAN, CITY COUNCIL
    Ms. Cropp. Thank you very much. Good morning, Chairman 
Brownback, Senator Landrieu. I am pleased to be here with my 
colleagues to testify today on the District's budget for fiscal 
year 2006. This budget represents the ninth year in a row for a 
fiscally sound and balanced budget. The budget is also a 
reflection of our resolve to stand as one government that will 
remain fiscally prudent and responsible.
    The budget represents the District's reinvesting in itself 
and in our future. We have committed resources and services for 
our citizens through revitalization of our neighborhoods, 
investment in our youth, and protection of our most vulnerable 
citizens, promotion of continued economic stability and growth, 
health programs, child care, and education.
    We will invest in our employees with pay raises and 
prudently set aside $138 million for future employee health and 
retirement benefits. These funds will become mandatory in 
fiscal year 2008 and it is good that we made the decision to 
allocate them at this time when we have the money.
    Fiscal discipline has always been and will be a top 
priority of our legislative agenda. We will not only demand it 
of the executive branch, but we also practice it ourselves. The 
various forms of fiscal discipline from rainy day savings 
funds, financial safeguards, insurance and investment policies, 
economic triggers for pay-as-you-go capital financing, that we 
have demanded and imposed upon ourselves in the past several 
years have yielded significant returns to the District of 
Columbia. This is reflected in the District government 
receiving for the seventh consecutive year an unqualified audit 
opinion and a positive future outlook of increased ratings from 
bond rating agencies.

                           THE BUDGET PROCESS

    During the Council's 56 day review period, we held 66 
hearings totaling 322 man-hours where we provided an 
opportunity for the public to come in and have their input on 
our budget. The Council worked diligently with the Mayor in 
aligning our priorities and put together a fiscally sound and 
responsible spending plan.
    The operating budget funds basic city services and 
programs. The capital budget, as a result of stringent 
oversight by the Council, has been realigned. We will devote 
funds to our infrastructure through investment of over $300 
million in pay-as-you-go funding. For example, funds were 
redirected and targeted for projects with higher priority and 
more critical needs, such as schools for children and housing 
for low and moderate income individuals.

               HIGHLIGHTS OF THE FISCAL YEAR 2006 BUDGET

    On May 10 the Council approved a $4.9 billion spending plan 
that provides for adequate funding for basic city services and 
programs. The budget earmarks $1.2 billion for public schools 
and public charter schools. The schools funding increased by 
$65 million, human services programs by another $65 million, 
and there was an increase in child care specifically by $11.5 
million in the hopes that we could get more of our families out 
to work.
    We have selectively adjusted tax rates to make 
homeownership more affordable and to reward the hard work of 
our citizens and businesses. In total, taxes were reduced by 
$94 million.

                         FEDERAL BUDGET REQUEST

    I would also like to ask for your help in obtaining an 
approval of an extension of the District's tax incentives that 
are to expire at the end of the year. The first time home buyer 
credit, the enterprize zone credit, and the revenue bond 
program are important to economic development in the District 
of Columbia. The first time home buyer credit attracts 
residents to our city and assists persons in purchasing homes 
that might not otherwise have had an opportunity to do so. The 
enterprise zone credit and the revenue bond program are real 
incentives for attracting businesses to operate within the 
District, and it is important to our economic growth that these 
tax incentives be reauthorized.
    While speaking about items of importance to the District, I 
would like to mention one other item that is not directly 
related to the budget. You have heard it before: voting 
representation. But it is something that is so extremely 
important to the citizens of the District of Columbia, who pay 
almost $3 billion in Federal taxes. It is important for the 
image of this country, the leader of the free world, to provide 
to all of its citizens the same rights we fight for abroad, the 
right for all citizens to be represented by the persons they 
elect.
    A number of different types of legislation have been 
introduced in the House and in the Senate. Congresswoman 
Eleanor Holmes Norton's bill, H.R. 398, is an example of one 
bill. Hopefully, you will be able to embrace one of those bills 
so that the District's citizens can no longer--will no longer 
be disenfranchised.

                            BUDGET AUTONOMY

    Just like the other 50 States, the District should be 
solely responsible for approving its own local spending. 
Achieving such budget autonomy will allow the District to 
implement its budget in a timely manner and will assist in 
improving the city's fiscal management.
    I want to thank the subcommittee and the Senate for 
supporting this initiative in the past and would ask for you to 
do it again in support of S. 800 the District of Columbia 
Budget Autonomy Act of 2005.

                          FEDERAL CONTRIBUTION

    The District is always challenged in developing its budget 
due to ongoing structural imbalance that exists between its 
spending needs and its revenue generation capacity. As noted in 
the General Accounting Office May 2003 report, the imbalance 
ranges between $400 million to $1.1 billion annually. The 
report also noted that the cost of providing public services is 
much higher in the District than it is in the average State due 
to the relatively large poverty population, poor health 
indicators, high crime, and high cost of living. The report 
stated that the District has a very high revenue capacity and 
the city is already taxing toward the upper limit of our 
revenue capacity, thereby creating a punitive tax structure.
    The congressional limitation on the District's ability to 
tax certain institutions and persons severely restricts the 
District's ability to raise revenue needed to cover both the 
operational and infrastructure costs.
    Recently, many of you have heard of the budget surplus that 
the District has. The budget surplus is only on one end, the 
management end, due to good management of the day to day 
operations of the city's budget. But while we have a surplus on 
that end, it cannot be thought of as a total surplus because we 
have a deficit in our infrastructure when you look at what our 
capital needs are, when you look at our school system.
    When the issue was brought up of closing the schools, the 
average age of the District's schools is 80 years of age. So 
you will see that our capital side is where we cannot continue 
to borrow money because we are at our capacity, our limit. So 
we do not even have the dollars necessary or the capacity to go 
out on Wall Street and borrow the dollars to fix up our 
schools, which probably need $1 to $2 billion. If we did then 
our bond rating would go down. So we are caught between a dog 
and a tree and that is not a good position.
    So the infrastructure situation with the District is one 
that we really need to have changed, and it is not because of 
mismanagement in the District government, but it is because of 
the unique situations as to how the budget is set. I would ask 
that at some point that the Congress look at some type of 
special funding plan for the school system and for Metro.
    Metro functions as a way to bring in Federal workers into 
the District of Columbia. When you look at our capital budget, 
the herculean share of the city's capital budget is spent in 
two areas: the D.C. Public School system, where we see there 
are even greater needs, and Metro. So I hope that that is 
something that we can look at in the future.

                               CONCLUSION

    Finally, as you consider our appropriations we request, we 
ask that you support and pass the budget in time for the start 
of the new fiscal year and before the adjournment of the 109th 
Congress. We urge you to pass the budget as is, without any 
riders. This much anticipated fiscal year 2006 budget is 
important because it shows how the Mayor and the Council can 
work together and underscores our commitment to make 
Washington, DC, one of the best-governed cities in the Nation.
    The District's financial problems of the 1990s combined 
with the national recession earlier this decade, as well as the 
September 11 attacks, created an environment where we had to 
disinvest in our budget. Over the past 2 fiscal years, however, 
we began the process of reinvestment in our city. This fiscal 
year 2006 budget represents a great leap forward.
    We will be responsive to our constituents who call the 
District of Columbia their home. We will work with the Mayor, 
the Congress, and the surrounding governments to achieve our 
mutually shared goals. Together with the Mayor, we will produce 
good, responsible budgets that invest dollars in making the 
District of Columbia a much better place for all.
    Thank you very much.
    Senator Brownback. Thank you very much, Chairperson Cropp. 
I appreciate that.
    [The statement follows:]

                  Prepared Statement of Linda W. Cropp

    Good morning, Chairman Brownback, Senator Landrieu and members of 
the Senate Appropriations Subcommittee on the District of Columbia. I 
am pleased to be here with my colleagues to testify on the District's 
budget for fiscal year 2006.

                              INTRODUCTION

    The fiscal year 2006 budget represents for the ninth year in a row, 
a fiscally sound and balanced budget. This budget is also a reflection 
of our resolve to stand as one good government that will remain 
fiscally prudent and responsible. The efforts of the Council and the 
Mayor, working together, has created a spending plan that continues to 
provide the services needed to make the District a better place in 
which to live, to work, to raise a family, and to visit. The budget 
represents the hard work of all thirteen Council members and the 
efforts of our ten standing committees. The Council and the Mayor will 
continue this collaborative effort throughout the year in order to 
manage government spending.
    This budget represents the District reinvesting in itself and our 
future. We committed resources in services for our citizens through 
revitalization of our neighborhoods, investment in our youth, 
protection of our vulnerable residents, promotion of continued economic 
stability and growth, health programs, childcare and education.
    We will invest in our employees with pay raises and prudently set 
aside $138 million for future employee health and retirement benefits. 
These funds will become mandatory in fiscal year 2008 and it is good 
that we made the decision to allocate them now.
    Fiscal discipline has always been and will always be a top priority 
on our legislative agenda. We not only demand it of the executive 
branch, we practice it. The various forms of fiscal discipline--from 
rainy day savings, financial safeguards, insurance and investment 
policies, economic triggers to Pay-As-You-Go Capital Financing--that we 
have demanded of, and imposed on ourselves in the past several years, 
have yielded significant returns to the District of Columbia. This is 
reflected in the District Government receiving for the seventh 
consecutive year an unqualified audit opinion and a fiscal year 2004 
Comprehensive Annual Financial Report (CAFR) showing a balanced budget. 
The District continues to maintain an ``A'' rating from all of the Wall 
Street financial rating agencies.
    In 2005 the Council passed the fiscal year 2006 Budget Submission 
Requirements Resolution of 2005. It established the date for submission 
of the Mayor's proposed budget. It required performance plans and 
reports, and that certain information and documentation be submitted to 
the Council along with the proposed budget.

                           THE BUDGET PROCESS

    During the Council's fifty-six days review period 66 hearings 
totaling 322 man-hours were conducted. These public hearings are an 
important part of the budget process. The public hearings provide the 
citizens and our workforce with an opportunity to comment on and 
critique programmatic and funding needs, and the performance of 
government agencies. This feedback is essential in reaching the 
decisions and determining the recommendations of each committee in the 
mark-up of the agency budgets.
    The Council worked diligently with the Mayor in aligning priorities 
and, put together a fiscally sound and responsible spending plan. The 
operating budget funds basic city services and programs. The capital 
budget, as a result of stringent oversight by the Council, was 
realigned. We will devote funds to our infrastructure through direct 
investment of over $300 million in ``Pay-As-You-Go'' funding. For 
example, funds were redirected and targeted for projects with higher 
priority and critical needs, such as schools for the children and 
housing for low and moderate-income residents.
    The Mayor submitted the budget to the Council on March 21, 2005. 
The proposed local budget was $4.903 billion, an increase of $712 
million or 17.1 percent above the revised fiscal year 2005 budget. The 
Council carefully reviewed the proposed expenditures to ensure that 
priority programs were properly funded. Adjustments were made through 
hard decisions between competing program preferences and by rooting out 
unnecessary budget cushions within the request.

               HIGHLIGHTS OF THE FISCAL YEAR 2006 BUDGET

    On May 10 the Council approved the $4.949 billion spending plan 
that provides adequate funding for basic city services and programs. 
This funding level for fiscal year 2005 represents a growth of 18 
percent over the revised fiscal year 2005 local budget. The budget 
provides $116.6 million for the production of low and moderate-income 
housing and increases the funding for childcare, substance and drug 
abuse treatment, and health care for uninsured residents. In keeping 
with the seven goals on the Council's legislative agenda, schools 
continue to receive significant funding. The budget earmarks $1.2 
billion for public schools and public chartered schools. The schools 
funding increased by $65 million, human services programs by another 
$65 million and the Council is increasing child-care by $11.5 million.
    We selectively adjusted our tax rates to make homeownership more 
affordable and to reward the hard work of our citizens and businesses. 
In total, taxes were reduced by $94 million.
    In order to address the Council's concerns about the growth of 
spending in certain agencies while still wanting to finance programs 
important to the District's most vulnerable residents, a Pay-Go 
contingency fund was established. The fund would provide additional 
financial support to certain agencies once they demonstrate the need 
for these additional funds. Requests to expend money from the Pay-Go 
contingency fund require approval by the CFO, the Mayor and the 
Council.

                         FEDERAL BUDGET REQUEST

    The Council supports the Congressional budget request items 
included in the Mayor's proposal. However, I would like to highlight 
the Tuition Assistance Grant Program (TAG). The TAG program has been 
extremely successful in the District. A total of 4,645 students are 
receiving funds this year from the program. TAG has had a significant 
impact on furthering the education of these students. Therefore, it is 
important that the additional $33.2 million be provided to continue to 
fully fund this program.
    I would also like to ask for your help in obtaining approval of an 
extension of the District's tax incentives that are to expire at the 
end of this year. The First Time Homebuyer credit, the Enterprise Zone 
credit and the revenue bond program are important to economic 
development in the District. The First Time Homebuyer credit attracts 
residents to the District and assists persons in purchasing homes that 
might not otherwise have an opportunity to do so. The Enterprise Zone 
credit and the revenue bond program are real incentives for attracting 
businesses to operate within the District. It is important to our 
economic growth that these tax incentives be re-authorized.
    While speaking about items important to the District, I would like 
to mention one other item that is not directly related to the budget, 
i.e., voting representation. It is important for the image of this 
country, the leader of the free world, to provide to all of its 
citizens the same rights we fight for abroad, the right for all 
citizens to be represented by persons they elect.
    A number of pieces of legislation have been introduced, 
Congresswoman Eleanor Holmes Norton's bill, H.R. 398 ``No Taxation 
Without Representation Act of 2005'' and its companion piece introduced 
by Senator Joseph Lieberman, S. 195, would treat the District as a 
State with full voting representation in the House and the Senate. 
Representative Thomas Davis' bill, H.R. 2043, ``District of Columbia 
Fairness in Representation Act'' would add two seats to the House, one 
to the District of Columbia and one to State of Utah, which narrowly 
failed to secure a fourth Congressional seat after the 2000 census. In 
Representative Davis' bill the District would be treated as a 
Congressional district for the purpose of representation in the House. 
Representative Dana Rohrabacher's bill, H.R. 190, ``District of 
Columbia Voting Rights Restoration Act of 2005'' would treat the 
citizens of the District as residents of the State of Maryland for the 
purpose of participating in elections for the House and Senate. While 
each piece approaches the issue in a different way, the key point is 
that they all call for voting rights to be granted to the citizens of 
the nation's capital. I ask that you support voting rights for the 
District of Columbia.

                          FEDERAL CONTRIBUTION

    Historically, the relationship between the District and the Federal 
Government has been a unique political and financial arrangement. 
Between 1879 and 1920, the Federal Government would provide assistance 
by paying half of all District expenditures. Subsequently, given the 
various federal prohibitions on taxing nonresident incomes, federal 
properties, federal purchase of goods and services, the District would 
receive a direct payment. This payment was stopped in 1997 when the 
Federal Government assumed responsibility for the cost of the 
contributions to the police, firefighters, and teachers retirement 
plans, various Court services and portions of other state functions.
    It is worth recalling that when the 1997 Revitalization Act was 
passed, one recommendation was that Congress would not need to review 
or approve the District's budget because the city would no longer 
receive any federal payments. At a minimum, Congress should no longer 
approve the local portion of the District's budget. Under such a 
proposal the Mayor would notify the Committees on Appropriations of the 
House of Representatives and Senate in writing 30 days in advance of 
any obligation or expenditure. Just like the other 50 states, the 
District should be solely responsible for approving its own local 
spending. Achieving such budget autonomy will allow the District to 
implement its budget in a timely manner and will assist in improving 
the city's fiscal management. I want to thank the Subcommittee and the 
Senate for supporting this initiative in the past and would ask for 
your support of S.800 the ``District of Columbia Budget Autonomy Act of 
2005''.
    The District Government is always challenged in developing its 
budget due to the ongoing structural imbalance that exists between its 
spending needs and its revenue generation capacity. As noted in the 
General Accounting Office's May 2003 report the imbalance ranges 
between $400 million to $1.143 billion per year. The report also noted 
that the cost of providing public services is much higher in the 
District than it is in the average state due to a relatively large 
poverty population, poor health indicators, high crime, and the high 
cost of living. The report stated that the District has a very high 
revenue capacity, and the city is already taxing toward the upper limit 
of our revenue capacity, thereby creating a punitive tax structure.
    The Congressional limitations on the District's ability to tax 
certain institutions and persons severely restrict the city's ability 
to raise the revenue needed to cover both operational and 
infrastructure costs. These limitations are reflected in the streets 
and schools in need of repair. While the city currently has a 
management surplus of day-to-day operations, these dollars are 
insufficient to cover the total cost of infrastructure improvements.
    The inability to fund infrastructure costs are not due to 
mismanagement by the District Government. As noted earlier, the 
District Government has maintained an ``A'' rating by the financial 
rating agencies over the last few years. It is due to the inability to 
tax revenue at its source and other infrastructure issues addressed in 
the 2003 GAO report.
    Congresswoman Eleanor Holmes Norton has introduced Bill H.R. 1586, 
the ``District of Columbia Fair Federal Compensation Act of 2005''. The 
bill outlines the unique situation of the District of Columbia as a 
federal city. It proposes an annual federal payment of $800 million 
with provisions to adjust the number in the future. The $800 million 
would be made available to address important structural needs of the 
city, which the District Government cannot fully fund from its current 
budget. Transportation and street maintenance, information technology 
and DCPS capital improvements are essential to the running of the city. 
I ask for this Subcommittee to support this legislation and encourage 
adoption by the Senate.

                               CONCLUSION

    Finally, as you consider our appropriations request, we ask that 
you support and pass the budget in time for the start of the new fiscal 
year and before the adjournment of the 109th Congress. Furthermore, we 
urge you to pass the budget as is, without any extraneous riders. This 
much anticipated fiscal year 2006 budget is important because it shows 
how the Mayor and the Council can work together and underscores our 
commitment to make Washington D.C. one of the best governed cities in 
the nation.
    The District's financial problems of the nineties combined with the 
national recession earlier this decade, as well as, the September 11th 
attacks created an environment, where we had to disinvest to balance 
our budget. Over the past two fiscal years, we began the process of 
reinvestment and this fiscal year 2006 budget represents a great leap 
forward.
    We will be responsive to our constituents who call the District 
their home. We will work with the Mayor, Congress, and the surrounding 
governments to achieve mutually shared goals. Together with the Mayor, 
we will produce good responsible budgets that invest dollars for the 
District and leave a legacy for future generations.
    I thank you for this opportunity to present the fiscal year 2006 
budget and these issues of major importance to the District of 
Columbia.

    Senator Brownback. Dr. Gandhi, and if you could stay within 
the timeframes. We are going to be running tight on this 
hearing and we both would like to have some exchanges back and 
forth. So I will probably put the hook on the last two 
witnesses a lot tighter than I have on the front two.
    Dr. Gandhi.

STATEMENT OF NATWAR M. GANDHI, Ph.D., CHIEF FINANCIAL 
            OFFICER
    Dr. Gandhi. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman, Senator Landrieu, and members of the subcommittee. I 
am Natwar M. Gandhi, Chief Financial Officer of the District of 
Columbia, and I am here to testify on the District's 2006 
budget request and the overall health of the District's 
finances.
    The Congress created the Office of the Chief Financial 
Officer to preserve, protect, and enhance the District's 
financial viability and credibility at all times. I am pleased 
to report to this subcommittee, Mr. Chairman and Ms. Landrieu, 
that the District has again made substantial progress in the 
past year, marking the eighth consecutive year of fiscal 
recovery.
    We again achieved a balanced budget and received a clean 
audit opinion from our external auditors and improved the 
District's financial infrastructure. The graph on the chart 
before you, sir, illustrates the turnaround in our general fund 
balance from a negative $518 million in 1996 to a positive $1.2 
billion at the end of 2004. Many cities that have gone through 
control period experience, such as New York, Philadelphia, 
Cleveland, none has been able to come back as well and as fast 
as the District has.
    Roughly half of that fund balance is reserved as a result 
of congressional mandate or is legally reserved for bond 
escrows or other purposes. The fund balance is likely to climb 
in the current fiscal year to reach an unprecedented level of 
approximately $1.3 billion.
    Our emergency and contingency reserves totaled $285 
million, among the highest such reserves as a percentage of the 
budget of all major cities or States in the Nation. Last year, 
recognizing that our reserves were strong, Congress lowered 
reserve requirements to 6 percent from 7 percent. This fiscal 
year we estimate these reserves will be about $250 million, an 
amount that is still expected to be among the highest in the 
country.
    We have again received favorable reviews from the bond 
rating agencies. Standard & Poor raised the rating on the 
District's general obligation bonds to A from A minus, and 
Fitch placed the District's A minus rating on a positive 
outlook for a possible upgrade.
    Again, this year I must stress that it is time to grant the 
District of Columbia local budget autonomy--can I illustrate a 
point, sir? Do you have a question on this?
    Senator Brownback. My eyes are not quite as good as they 
used to be, so I am trying to make sure----
    Dr. Gandhi. Well, I can withhold my testimony to explain 
this.
    Senator Brownback. Please go on. Please proceed.
    Dr. Gandhi. All right. Because what really matters here is 
that in the mid-90s we were very near bankrupt and today we are 
really a welcome presence on Wall Street. We have accomplished 
this financial stability by institutionalizing changes that 
have been commended by rating agencies and investors. We are 
monitoring the budget on a constant basis and have enabled 
decisionmakers to receive timely and accurate information on 
which to make informed judgments.
    Without budget autonomy, we must prepare specific spending 
plans and revenue estimates at least 9 months in advance of the 
beginning of the actual budget year, a constraint under which 
no other State or municipal government operates. This issue of 
timing has added far greater uncertainty in budget planning and 
has posed more difficulty in executing the budget as well.
    In fiscal year 2006, the District's certified general fund 
revenue is forecasted to be $4.8 billion, an increase of about 
14 percent over 2005. Underlying the District's robust revenue 
growth is continued strength in the District's real estate 
market and strong growth in personal income.
    As Chief Financial Officer, sir, I believe that it is not 
the role of the government to amass a large amount of cash when 
needs for infrastructure and other prudent investments must be 
met. The magnitude of resources available for budgeting both 
from the improved level of current revenues and the sizable 
accumulated surplus in the fund balance provides an opportunity 
to address critical needs of the District. Accordingly, the 
proposed budget before you, sir, would result in a reduction in 
the general fund balance of about $610 million. This amount is 
composed almost entirely of one-time spending and reduction of 
large pension liabilities that our Council Chair, Mrs. Cropp 
talked about and programs to address critical social needs that 
the Mayor talked about.
    I believe this spending level and the uses of fund balance 
are fiscally prudent and will not endanger the District's sound 
financial position or our strong credit standing. This is 
demonstrated in the 5-year proposed budget and financial plan 
attached to my testimony. Unlike any other jurisdiction, the 
District prepares a 5-year plan so as to assure the Congress 
that the District will remain financially viable for 5 years.
    Since Mrs. Cropp and the Mayor talked about structural 
imbalance, I will not go into that. I would simply note that 
the GAO's structural imbalance report identifies about $470 
million to about $1 billion of structural imbalance, this 
structural imbalance somehow has to be helped by the Federal 
Government. There are not enough local resources to address the 
imbalance, and I request and strongly urge, that Congress take 
positive action on Congresswoman Norton's bill, the District of 
Columbia Fair Federal Compensation Act of 2005, (H.R. 1586).

                           PREPARED STATEMENT

    That concludes my oral remarks, Mr. Chairman, and I request 
that my written testimony be made part of the record. I will be 
pleased to answer any questions you or Mrs. Landrieu may have. 
Thank you.
    Senator Brownback. Your formal testimony will be made part 
of the record. We look forward to the discussion.
    [The statement follows:]

                 Prepared Statement of Natwar M. Gandhi

    Good morning, Mr. Chairman, Senator Landrieu, and members of the 
subcommittee. I am Natwar M. Gandhi, Chief Financial Officer for the 
District of Columbia, and I am here today to testify on the District's 
fiscal year 2006 budget request to the Congress. My remarks will 
briefly touch on the fiscal year 2005 financial outlook, the fiscal 
year 2006 request, and the overall health of the District's finances.

                     CONTINUING FINANCIAL STRENGTH

    The Congress created the Office of the Chief Financial Officer to 
preserve, protect and enhance the District's financial viability and 
credibility at all times. I am pleased to report that the District has 
again made substantial progress in the past year, marking the eighth 
consecutive year of fiscal recovery. We again achieved a balanced 
budget and received a clean audit opinion from our external auditors 
and improved the District's financial infrastructure. The graph on 
Attachment 1 illustrates the turnaround in our general fund balance 
from a negative $518 million in fiscal year 1996 to a positive $1.2 
billion fund balance at the end of fiscal year 2004. Roughly half of 
that fund balance is reserved as a result of Congressional mandate, or 
is legally reserved for bond escrows or other purposes. The fund 
balance is likely to climb in the current fiscal year to reach an 
unprecedented level of approximately $1.3 billion.
    Our emergency and contingency reserves totaled $285.4 million, 
among the highest such reserves as a percentage of budget of all major 
cities or states in the nation. Last year, recognizing that the 
District's reserves were strong, Congress enacted legislation lowering 
the total reserves required to 6 percent from 7 percent. This fiscal 
year, we estimate that the emergency and contingency reserves will be 
about $249 million, an amount which we expect will still remain among 
the highest in the country.
    We have again received favorable reviews from the bond rating 
agencies. Standard & Poor's raised the rating on the District's general 
obligation bonds to A from A- last November and at the same time, Fitch 
Ratings placed the District's A- rating on positive outlook for 
possible upgrade. The graph in Attachment 1 also shows the history of 
the District's ratings by all three major bond rating agencies.
    We continue to strive to improve on this record of accomplishment. 
Our standardized spending plans for all agencies allow us to monitor 
results against those plans, and we continue to control agency spending 
using our online financial management tools. Spending plans are one 
component of the District's own Anti-Deficiency Act designed to hold 
financial and program managers accountable for achieving program 
results within approved budgets. We have built performance budgets 
across all agencies that set specific targets which are benchmarked 
against best practices in local government.
    Again this year, I must stress that it is time to grant the 
District of Columbia local budget autonomy. We have accomplished 
financial stability by institutionalizing changes that have been 
recognized by rating agencies and investors in the District's bonds and 
notes. We have established systems to monitor our budget on a constant 
basis and have enabled decision makers to receive timely and accurate 
information on which to make informed judgments. Without autonomy we 
must prepare specific spending plans and revenue estimates at least 
nine months in advance of the beginning of the actual budget year, a 
constraint under which no other state or municipal government must 
function. This issue of timing has added far greater uncertainty in 
budget planning and formulation and has posed more difficulty in 
executing the budget as well. We have been fortunate in recent years in 
finding that our revenues have far exceeded our forecasts, but such 
time constraints have forced us to be overly conservative in our 
estimates, and have prevented us from providing tax relief or larger 
service benefits to our taxpayers as a result of those excess revenue 
collections. Congresswoman Eleanor Holmes Norton has introduced the 
District of Columbia Budget Autonomy Act of 2005, H.R. 1629, and 
Senator Collins introduced an equivalent bill, S.800, which would allow 
the Mayor and City Council to enact the locally funded portion of the 
District's annual budget. We appreciate the interest of this 
Subcommittee on the matter of budget autonomy and urge the Congress to 
consider the bills favorably.

                  BEGINNING FUND BALANCE, GENERAL FUND

    As noted in the fiscal year 2004 Comprehensive Annual Financial 
Report (CAFR), the District concluded fiscal year 2004 operations with 
a $1.215 billion general fund balance (i.e., net accumulated surplus).
    Based on current revenue and expenditure estimates, the General 
Fund is expected to end fiscal year 2005 with an operating surplus of 
$320.6 million. The general fund balance is likely to reach $1.35 
billion at the end of fiscal year 2005.

                       FISCAL YEAR 2006 REVENUES

    In fiscal year 2006, District's certified general fund revenue is 
forecasted to be $4.81 billion, an increase of 13.8 percent over fiscal 
year 2005 approved budget after tax policy changes. Underlying the 
District's robust revenue growth is continued strength in the 
District's real estate market and strong growth in personal income. 
Substantial increases in prices and the number of transactions in both 
residential and commercial real estate markets were major sources of 
revenue gains in fiscal year 2003 and fiscal year 2004, and are 
expected to contribute significantly to fiscal year 2005 and fiscal 
year 2006 revenues. Going forward, our revenue projections assume 
District personal income will grow between 5 and 6 percent annually, 
and the financial markets will continue their recovery.
    The fiscal year 2006 Proposed Budget includes tax policy reductions 
of $35.0 million and revenue shifts to capital of $30.0 million. The 
tax policy reductions include an increase in the homestead deduction, 
an increase in the local Earned Income Tax Credit, increases in both 
the standard deduction and the personal exemption, and a property tax 
deferral for low-income homeowners. The revenue shift to capital is to 
provide a dedicated stream of revenues to finance major investments in 
bridges and roads.

                 FISCAL YEAR 2006 PROPOSED EXPENDITURES

    As Chief Financial Officer, I believe that it is not the role of 
government to amass large amounts of cash when needs for infrastructure 
improvements and other prudent investments in the future must be met. 
The magnitude of resources available for budgeting, both from the 
improved level of current revenues and the sizable accumulated surplus 
in the fund balance, provides an opportunity to address critical needs 
of the District.
    Accordingly, this proposed budget would result in a reduction in 
the general fund balance of $610 million, to a balance of $740.2 
million, from the projected year-end fiscal year 2005 fund balance. 
This amount is composed almost entirely of one-time spending or 
transfers for future and retroactive pay-as-you-go capital funding, a 
reduction of a large pension benefit liability, policy shifts to 
special purpose and capital funds and operating budget programs to 
address critical social needs. I believe the spending levels and the 
uses of fund balance contained in this budget proposal are fiscally 
prudent and will not endanger the District's sound financial position 
or our strong credit standing. As shown in the table below, the Mayor 
and Council have weighed these financial opportunities in formulating 
policy goals for fiscal year 2006, as incorporated into this proposed 
budget.

     TABLE 2.--GENERAL FUND PROPOSED FISCAL YEAR 2006 BUDGET SUMMARY
                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Total Revenues............................................      4,871.2
Less Recurring Budget Expenses............................     (4,804.9)
                                                           -------------
Excess Revenues...........................................         66.3
Less Tax Policy Reductions and Revenues Shift to O type           (65.0)
 and Capital..............................................
Add Appropriated Fund Balance.............................        591.6
                                                           -------------
Sources for Program and Fiscal Policy Initiatives.........        592.9
Less Non-recurring Budget Expenses........................       (399.8)
Less Fiscal Policy Initiatives............................       (191.8)
                                                           -------------
Projected fiscal year 2006 Operating Margin...............          1.3
------------------------------------------------------------------------

    The fiscal year 2006 general fund budget spending proposal of $5.40 
billion is 19.8 percent higher than fiscal year 2005 approved spending 
of $4.5 billion. This represents increases in both recurring expenses 
and the one-time uses of fund balance which I discussed previously. 
Recurring budget expenses of $4.80 billion are a net increase of $467 
million, or 10.8 percent, over the fiscal year 2005 approved budget.

                            TABLE 3.--GENERAL FUND FISCAL YEAR 2006 BUDGET SUBMISSION
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal year  Fiscal year                 Percent
                                                                  2005         2006        Change       change
----------------------------------------------------------------------------------------------------------------
Recurring Budget Expenses...................................     $4,337.8     $4,804.9       $467.1         10.8
Program Policy Initiatives:
    Nonrecurring Budget Expenses............................        165.0        192.8         27.8         16.8
    PayGo Capital (Nonrecurring)............................  ...........        207.1        207.1          n/a
                                                                                       -------------
Net Change: Recurring Expenses and Program Policy Initia-     ...........  ...........        702.0  ...........
 tives......................................................
                                                                                       -------------
Non-recurring Fiscal Policy Initiatives:
    Post Employment Health Benefits.........................  ...........        138.0        138.0          n/a
    Contribution to Capital Fund Balance....................  ...........         53.8         53.8          n/a
                                                             ---------------------------------------------------
      Total General Fund Request............................      4,502.8      5,396.6        893.8         19.8
----------------------------------------------------------------------------------------------------------------

                      FINANCING THE BUDGET REQUEST

    To finance both the program and fiscal policy initiatives, the 
District utilizes $591.6 million from the accumulated fund balance. The 
planned drawdown of fund balance will reduce the accumulated general 
fund balance to a projected $740.2 million by the end of fiscal year 
2006.

        TABLE 4.--FISCAL YEAR 2006 GENERAL FUND BALANCE ANALYSIS
                        [In millions of dollars]
------------------------------------------------------------------------

------------------------------------------------------------------------
Projected Beginning Fund Balance (October 1, 2005)........      1,350.6
Appropriated for Fiscal Year 2006.........................       (591.6)
Projected Fiscal Year 2006 Operating Margin...............          1.3
Projected GAAP Adjustments................................        (20.0)
                                                           -------------
Projected Ending Fund Balance (September 30, 2006)........        740.2
------------------------------------------------------------------------

              PROPOSED FISCAL YEAR 2006 GROSS FUNDS BUDGET

    The proposed fiscal year 2006 gross funds operating budget is $7.35 
billion, an increase of $1.07 billion, or 17.0 percent, over the 
approved fiscal year 2005 gross funds budget of $6.29 billion. The 
$1.07 billion expenditure increase is comprised largely of a $893.7 
million increase in the General Fund budget, which reflects the program 
policy initiatives and fiscal policy initiatives discussed above. The 
other $171.9 million increase in non-local funds reflects projected 
expenditures in federally funded programs ($169.0 million), including 
Medicaid; and private grants ($2.9 million).

                           TABLE 5.--FISCAL YEAR 2006 GROSS FUNDS BUDGET BY FUND TYPE
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal year  Fiscal year                 Percent
                          Fund Type                               2005         2006        Change       Change
----------------------------------------------------------------------------------------------------------------
Local.......................................................     $4,170.1     $4,949.5       $779.4         18.7
Special Purpose (O Type)....................................        332.8        447.1        114.4         34.4
                                                             ---------------------------------------------------
      Subtotal, General Fund................................      4,502.8      5,396.6        893.7         19.8
                                                             ===================================================
Federal.....................................................        806.3        931.4        125.1         15.5
Federal Medicaid Payment....................................        963.8      1,007.6         43.9          4.6
Private Grants..............................................         13.3         16.2          2.9         21.8
                                                             ---------------------------------------------------
      Total Gross Funds.....................................      6,286.2      7,351.8      1,065.6         17.0
----------------------------------------------------------------------------------------------------------------

                       CAPITAL IMPROVEMENTS PLAN

    The District faces a wide variety of infrastructure needs, placing 
great demands on its Capital Improvements Plan (CIP). The total 
proposed appropriation request for the fiscal year 2006-fiscal year 
2011 CIP is $2.176 billion for all sources (including the Highway Trust 
Fund). This six-year plan includes a net increase in local budget 
authority of $778 million ($1.073 billion of new budget authority 
offset by $295 million of rescissions). The increased budget authority 
will be financed by General Obligation (G.O.) bonds, the Master 
Equipment Lease Program, asset sales and PayGo financing. The fiscal 
year 2006 capital program consists of $737 million in planned local 
non-streets capital expenditures (financed by up to $495 million in new 
G.O. bond issuance, $199 million of PayGo transfers from the General 
Fund balance, and $43 million from other sources), as well as $60 
million of expenditures from the Local Streets Maintenance fund.

                         PERFORMANCE BUDGETING

    This budget also reflects our continued progress implementing 
performance-based budgeting (PBB). In fiscal year 2005, we transitioned 
11 new agencies to PBB for a grand total of 67 agencies now fully 
enrolled in PBB for fiscal year 2006. These 67 agencies account for 
nearly 63 percent of the District's annual gross operating budget. 
Transition to PBB is a key accomplishment because it establishes a 
clear relationship between the funding that agencies receive, the 
programs they operate, and the results that they must achieve. A 
critical component of PBB is development of programmatic benchmarks to 
assist policy makers, District executives and the public in assessing 
the value of the District's programs and determining opportunities for 
improvement. The current set of benchmarks for District programs has 
grown from 39 benchmarks for 18 agencies in fiscal year 2005 to 71 
benchmarks for 26 agencies in the fiscal year 2006 proposed budget.

             STRUCTURAL IMBALANCE IN THE DISTRICT'S BUDGET

    Mr. Chairman, despite this record of balanced budgets, there 
remains an ongoing, long-term financial problem, and that is the issue 
of the structural imbalance. This serious situation has been documented 
a number of times by sources outside the District including most 
notably by the General Accounting Office in report GAO-03-666 back in 
May 2003. This report defines a financial structural imbalance as the 
inability to provide a representative array of public services by 
taxing at representative rates. The District is the only city in the 
nation that has no state to share costs or underwrite expenditures in 
whole or part. The District bears about $500 million annually in costs 
of mental health, human services, child and family services, a 
university, motor vehicles licensing, taxation, insurance regulation, 
public service commission, and other services performed at the state 
level.
    The District's primary employer--the federal government--has 
exempted itself from taxation on its property and its income. Further, 
the preponderance of workers in the District of Columbia are exempt 
from D.C. income tax because they reside in the neighboring states of 
Maryland and Virginia. Finally, the District is the only municipality 
in the nation that must exercise the responsibilities of a city, a 
county, a state and a school district. Although the District has the 
authority for all types of taxes typically levied by states and 
municipal governments, it does not have the corresponding tax base 
sufficient to pay for the services it must provide.
    Again this year, I must ask the Subcommittee to consider the 
necessity of providing some additional federal consideration of the 
District's infrastructure needs. The District has pressing 
infrastructure needs--mostly in our schools, streets and 
transportation--that we cannot possibly fund locally. D.C. already has 
the highest per capita general obligation debt in the nation and, 
according to the GAO report, a tax burden that is 18 to 33 percent 
higher than average for the states. Our only options for addressing 
these infrastructure needs locally are:
  --Adding even more debt per capita;
  --Increasing the tax burden per capita--an action that is likely to 
        discourage potential residents and employers and possibly drive 
        current residents out of the city; or
  --Reduce delivery of other services--a very difficult choice in a 
        city with a large population of people in need.
    The GAO report stressed the unique financial challenges the 
District faces in generating the funds to finance usual and necessary 
services, and identified an annual structural imbalance of $470 million 
to $1.14 billion between the costs of delivering typical services and 
the revenue available from typical tax burdens, based on fiscal year 
2000 budget and data. Over the years, the District dealt with this gap 
by neglecting infrastructure needs and assessing very high taxes.
    For example, our capital program is constrained by limited 
operating revenues to support debt service as well as by the impact of 
prudent debt ratios and debt affordability determinations. The 
District's capital needs are now estimated to be about $7 billion, but 
our capital spending plan in fiscal year 2006-fiscal year 2011 for 
which we have identified funding sources is only about $2 billion, 
leaving a gap of about $5 billion. If borrowing occurs as planned, our 
tax-supported debt per capita will rise to over $11,000 by fiscal year 
2009.
    Again this year, Congresswoman Norton has introduced a bill, the 
Fair Federal Compensation Act of 2005, H.R. 1586 to address the 
structural imbalance, to relieve some of the unsustainable burden on 
the D.C. government and residents and businesses and to prevent another 
fiscal crisis for the capital city. We urge Congress to take action to 
enact this important legislation.

                               CONCLUSION

    Mr. Chairman, this concludes my remarks. I request that my written 
testimony be made part of the record. I will be pleased to answer any 
questions you or the other members may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                              RESERVE REQUIREMENTS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                Fiscal year--
                         Fund Type                         -----------------------------------------------------
                                                              2004     2005     2006     2007     2008     2009
----------------------------------------------------------------------------------------------------------------
Emergency & Contingency Cash..............................      285      249      254      258      302      307
Budgeted..................................................       50       50       50       50       50       50
                                                           -----------------------------------------------------
      Total...............................................      335      299      304      308      352      357
----------------------------------------------------------------------------------------------------------------
Cash Reserve Requirements Reduced from 7 percent to 6 percent: Emergency Reserve changed from 4 percent to 2
  percent; and Contingency Reserve changed from 3 percent to 4 percent.


                               DISTRICT OF COLUMBIA FISCAL YEAR 2006-2009 PROPOSED BUDGET AND FINANCIAL PLAN--GENERAL FUND
                                                                [In thousands of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                     Fiscal Year--
                                                              ------------------------------------------------------------------------------------------
                                                                                2005         2005         2006         2007         2008         2009
                                                               2004 Actual    Approved     Revised      Proposed    Projected    Projected    Projected
--------------------------------------------------------------------------------------------------------------------------------------------------------
Revenues:
    Taxes....................................................   3,665,195    3,628,730    3,875,218    4,101,533    4,330,091    4,610,561    4,890,072
    General Purpose Non-Tax Revenues.........................     324,493      292,447      330,973      340,522      342,896      338,513      346,573
    Special Purpose (O-type) Revenues........................     240,253      208,624      236,026      264,254      273,603      280,326      287,789
    Transfer from Lottery....................................      73,500       71,100       70,000       73,100       73,100       73,100       73,100
                                                              ------------------------------------------------------------------------------------------
      General Fund Revenues..................................   4,303,441    4,200,901    4,512,217    4,779,409    5,019,690    5,302,500    5,597,534
                                                              ==========================================================================================
    Bond Issuance Costs......................................  ...........  ...........      15,400       40,000       16,000       16,000       15,615
    Payment-in-Lieu-of-Taxes from WASA.......................  ...........  ...........       1,500        1,576        1,622        1,669        1,717
    Transfer from Federal and Private Resources..............  ...........       6,361        6,361        6,502        6,646        6,807        6,979
    Fund Balance Use.........................................     129,128      165,015      165,015      591,642   ...........  ...........  ...........
    Transfer to Special Purpose Revenues.....................  ...........  ...........  ...........  ...........  ...........  ...........  ...........
    Transfer to Capital......................................  ...........  ...........  ...........     (30,000)     (30,300)     (30,603)     (30,909)
    Revenue Proposals/One-time Revenue.......................  ...........     128,107       76,600        8,729        7,607        9,367       11,137
                                                              ------------------------------------------------------------------------------------------
      Total General Fund Resources...........................   4,432,569    4,500,384    4,777,093    5,397,858    5,021,265    5,305,740    5,602,073
                                                              ==========================================================================================
Expenditures (by Appropriation Title):
    Governmental Direction and Support.......................     231,364      315,813      327,899      340,859      326,649      336,654      346,999
    Economic Development and Regulation......................     148,949      241,570      216,715      328,156      246,557      252,885      259,394
    Public Safety and Justice................................     746,066      790,815      799,194      827,037      864,258      884,495      917,173
    Public Education System..................................   1,029,193    1,067,666    1,055,821    1,189,302    1,194,175    1,228,423    1,263,822
    Human Support Services...................................   1,117,035    1,192,755    1,244,598    1,307,530    1,345,993    1,401,101    1,458,860
    Public Works.............................................     314,620      327,936      328,334      366,101      373,427      388,605      404,451
    Financing and Other......................................     400,963      511,692      468,917      588,717      607,655      642,994      678,362
    Cash Reserve (Budgeted Contingency)......................  ...........      50,000       15,000       50,000       50,000       50,000       50,000
    Lease Purchase Costs.....................................  ...........  ...........  ...........  ...........  ...........      20,000       25,000
                                                              ------------------------------------------------------------------------------------------
      Subtotal, Operating Expenditures.......................   3,988,190    4,498,247    4,456,478    4,997,702    5,008,714    5,205,156    5,404,062
                                                              ==========================================================================================
    Paygo Capital............................................  ...........  ...........  ...........     207,083       10,000   ...........  ...........
    Transfer to Trust Fund for Post-Employment Benefits......  ...........  ...........  ...........     138,000   ...........      81,000       86,200
    General Fund Contribution to Capital Fund Balance........  ...........  ...........  ...........      53,800   ...........  ...........  ...........
                                                              ------------------------------------------------------------------------------------------
      Total General Fund Expenditures........................   3,988,190    4,498,247    4,456,478    5,396,585    5,018,714    5,286,156    5,490,262
                                                              ==========================================================================================
      Operating Margin, Budget Basis.........................     444,379        2,137      320,615        1,273        2,551       19,583      111,810
                                                              ==========================================================================================
Beginning General Fund Balance...............................     897,357    1,215,015    1,215,015    1,350,615      740,246      722,798      722,380
Operating Margin, Budget Basis...............................     444,379        2,137      320,615        1,273        2,551       19,583      111,810
Projected GAAP Adjustments (Net).............................       2,407      (20,000)     (20,000)     (20,000)     (20,000)     (20,000)     (20,000)
Deposits into Reserve Funds (From Fund Balance)..............     (31,609)     (19,041)      36,032       (4,489)      (4,570)     (43,113)      (5,428)
Deposits into Reserve Funds (To Cash Reserves)...............      31,609       19,041      (36,032)       4,489        4,570       43,113        5,428
Tax Increment Financing (TIF) Reserve (From Fund Balance)....  ...........      (9,710)      (9,710)      (9,710)      (9,710)      (9,710)      (9,710)
Unspent TIF Reserve..........................................  ...........       9,710        9,710        9,710        9,710        9,710        9,710
Fund Balance Use.............................................    (129,128)    (165,015)    (165,015)    (591,642)  ...........  ...........  ...........
                                                              ------------------------------------------------------------------------------------------
      Ending General Fund Balance............................   1,215,015    1,032,137    1,350,615      740,246      722,798      722,380      814,190
                                                              ==========================================================================================
Composition of Fund Balance:
    Emergency Cash Reserve Balance (2 percent, formerly 4         163,091      179,930       83,126       84,622       86,145      100,516      102,325
     percent)................................................
    Contingency Cash Reserve Balance (4 percent, formerly 3       122,318      124,520      166,251      169,244      172,290      201,032      204,651
     percent)................................................
    Fund Balance not in Emergency & Contingency Reserves.....     929,606      727,687    1.101,238      486,381      464,363      420,832      507,214
                                                              ------------------------------------------------------------------------------------------
      Ending General Fund Balance............................   1,215,015    1,032,137    1,350,615      740,246      722,798      722,380      814,190
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Senator Brownback. Dr. Janey, it is good to see you again 
in this hearing and I look forward to your testimony.

STATEMENT OF CLIFFORD JANEY, Ph.D., SUPERINTENDENT OF 
            SCHOOLS, DISTRICT OF COLUMBIA PUBLIC 
            SCHOOLS
    Dr. Janey. Thank you very much.
    I am going to make some adjustments in my testimony to 
observe the need for us to have some dialogue, but my brevity 
in no way should diminish I think some of the important issues 
that face us, not only as a school district but as the District 
of Columbia.
    Thank you for providing me the opportunity, Chairman 
Brownback and Senator Landrieu. I believe the fiscal year 2006 
budget request reflects the collaborative spirit necessary for 
an educational agenda to be realized. I believe we must move 
aggressively to meet the needs of our students and our goal 
must be to regain our public credibility, improve student 
performance, raise our expectations, and establish a real 
system of accountability.
    With this in mind, the fiscal year 2006 budget was designed 
to begin to address some of the malaise in our system by 
proposing new initiatives that address three key goals. They 
are: boosting and sustaining academic performance; improving 
our facilities; updating and upgrading our instructional 
technology.
    To a certain extent, we will be able to accomplish this by 
investing our allocated money for fiscal year 2006 of $775 
million in quality academic programs and operational reforms. 
If we continue to stay focused on our common goal of improving 
the quality of education for D.C. students, we can accomplish 
even more. The support and leadership of the Board of Education 
and the fact that Mayor Williams, Chairperson Cropp, and Dr. 
Gandhi have been accessible and responsive to the children, 
families and communities as we have developed this budget 
process has been critical to the success of the process thus 
far.
    Our base budget for fiscal year 2006 was $775 million, but 
in the development of the budget we realized that there were 
some educational investments that would be unfulfilled but were 
critical to our ambitious academic agenda. However, the board 
and I agreed that we would live within the amount we were 
allocated for 2006, different from previous years.
    However, the Council helped us secure an additional $15 
million to prevent a loss of 269 teaching positions. I thank 
Chairperson Cropp, her colleagues and others who were very 
helpful in that regard.
    In addition, we received an interdistrict transfer of $3.7 
million for private special education out of State tuition 
payments. So our revised budget amount is $794 million, with an 
additional $21 million to support unmet needs in our budget. 
Thus our total appropriated amount for fiscal year 2006 is $815 
million in local funds.
    The projected Federal grant revenues for fiscal year 2006 
total $145 million and we have other funding streams that 
brings our budget up to approximately $1.1 billion.
    Another area where we have received additional needed 
support from the Mayor and the Council on the operating side of 
the budget is in the area of facilities. We have received an 
additional $6 million to open up schools this year. We have 
targeted a number of schools for landscaping, painting, 
sprucing up, looking at our gymnasia and our cafeterias.
    To give you a sense of the condition of our buildings, 
however, 86 of our 147 schools are more than 50 years old and 
another 41 are 75 years of age or older. Between 1982 and 2000, 
just a scant number of schools have been fully modernized. I 
cannot overstate the simple premise that every student needs 
and deserves a decent learning environment.
    To meet our most urgent facility needs in the context of 
fiscal realities, we developed the transition capital 
improvement plan adopted by the Board of Education in March of 
this year. This plan allows for more effective and strategic 
use of funds. It allows us to expand opportunities to partner 
with charter schools through co-location.
    I am going to start to wind up this presentation and this 
testimony, but I would like to highlight a couple of 
initiatives that have continued to be of importance to us in 
the school district, the first of which is the Tuition 
Assistance Grant program. This program has opened up college 
opportunities to many families for the first time and provided 
an additional incentive for middle class families to stay in 
the city. To build upon this, we have entered into a 
partnership with the College Board to promote development of 
the skills students need to succeed in college, and our high 
school guidance counselors have all been trained in the 
benefits of promoting the tuition assistance program.
    Based on its value to the development of our students and 
the desirability of the city, we ask the committee to continue 
funding this important initiative.
    Further, with respect to school improvement and the $13 
million appropriation coming from this subcommittee, I seek the 
continued funding for school improvement. These funds have 
enabled us to implement the Massachusetts learning standards 
for this coming school year. I would ask the subcommittee not 
to first insert special legislative language that might hamper 
the continued implementation of these standards. The continued 
funding is vital to the current academic reforms we have 
instituted.
    Our use of school improvement funds will enable us to do--
will enable us to continue to invest in the following key 
areas, ranging from the implementation of the learning 
standards, going fundamentally then with curriculum 
instruction, having a clear and rigorous assessment system, 
having the accountability that goes along with that, providing 
professional development of our staff, and looking at 
prevention through early intervention, that is establishing new 
opportunities for 3- and 4-year-olds to come to the District.
    I believe, in conclusion, this operating budget will 
considerably advance our work at improving student achievement 
and assisting us in changing the institutional culture of the 
school system and make the necessary reforms so long needed.

                           PREPARED STATEMENT

    This concludes my testimony and I, like my colleagues, will 
be here to remain part of the dialogue.
    Senator Brownback. Thank you, Dr. Janey.
    [The statement follows:]

              Prepared Statement of Dr. Clifford B. Janey

    Good morning, Chairman Brownback, Senator Landrieu and Members of 
the Senate Appropriations Subcommittee on the District of Columbia. I 
am pleased to be here with Mayor Williams, Chair Cropp and Dr. Ghandi.

                              INTRODUCTION

    I believe the fiscal year 2006 budget request act reflects the 
collaborative spirit necessary for our educational agenda to be 
realized. I believe we must move aggressively to meet the needs of our 
students. Our goal must be to regain our educational focus, improve 
student performance, raise student expectations and establish a system 
of accountability. With this in mind, our fiscal year 2006 budget was 
designed to begin to address the malaise in our system by proposing new 
initiatives that address three key goals. The goals inherent in the 
budget are to boost academic standards, improve facilities and update 
and upgrade our instructional technology.

                        FISCAL YEAR 2006 BUDGET

    Under the leadership of the board of education, along with the 
support of those assembled here today, we began the budget process and 
had to accept the widespread feeling that our schools operate in an 
isolated and detached manner. We felt that addressing the public's 
concerns would go a long way to improve the overall environment of 
learning and boost student achievement. With this in mind, we began the 
process of building a budget to encompass the feelings of stakeholders 
and the desires of parents for more academic rigor.
    To a certain extent, we were able to accomplish this by investing 
our allocated amount for fiscal year 2006 of $775 million in quality 
academic programs and operational reforms.
    If we continue to stay focused on our common goal of improving the 
quality of education for D.C. students, we can accomplish even more. 
The support and leadership of the board of education and the fact that 
Mayor Williams, Chair Cropp and Dr. Ghandi have been accessible and 
responsive to our children, families and communities as we developed 
our fiscal year 2006 budget has been critical to the success of this 
process thus far.
    Our base budget for fiscal year 2006 was $775 million, but in the 
development of the budget, we realized there were educational 
investments that would be unfulfilled but were critical to our 
ambitious academic agenda. However, the board and I agreed that we 
would live within the amount we were allocated for fiscal year 2006.
    However, the council helped us secure an additional $15 million to 
prevent the loss of 386 teaching positions. In addition, we received an 
intra-district transfer of $3.7 million for private special education 
out of state tuition payments. So, our revised budget amount is $794 
million, with an additional $21 million to support the ``unmet'' needs 
of our budget. Thus, our total appropriated amount for fiscal year 2006 
is $815 million in local funds. The projected federal grant revenues 
for fiscal year 2006 totals $145 million and we have other funding 
streams that brings our budget up to $1 billion.
    Another area where we have received additional needed support from 
the mayor and council is in the area of facilities. We have received an 
additional $6 million to open the schools this fall.
    To give you a sense for the condition of our schools, eighty-six 
(86) of our 147 schools are more than 50 years old. Another 41 are 75 
years or older. And, between 1982 and 2000, only four schools were 
added to or rebuilt.
    I cannot overstate the simple premise that every student needs and 
deserves a decent learning environment. To meet our most urgent 
facilities needs in the context of fiscal realities, we developed the 
transition capital improvement plan adopted by the board of education 
in March 2005.
    This plan allows for a more effective and strategic use of funds. 
This also will allow us to expand opportunities for co-locating to 
support charter schools. Most recently, we have identified ten schools 
as possible co-location sites for charter schools to co-locate for this 
fall one year. I envision there possibly will be greater opportunities 
to co-locate or for charters to occupy additional buildings upon 
completion of the master education plan. The rationale for the one-year 
lease is to allow time for the development of this master plan, which 
will guide both our academic and facilities plans for the coming years.

Tuition Assistance Grant Program
    This program has opened up college opportunities to many families 
for the first time and provided an additional incentive for middle 
class families to stay in the city. To build on this, we have entered 
into a partnership with the College Board to promote development of the 
skills students need to succeed in college and our high school guidance 
counselors have all been trained in the benefits of promoting the 
tuition assistance program. Based on its value to the development of 
our students and the desirability of our city, we ask the committee to 
continue funding this important initiative.

School Improvement
    Further, I seek the continued funding for school improvement. These 
funds have enabled us to implement the Massachusetts standards for this 
coming school year. I would ask the committee not to insert any 
legislative language that would hamper the continued implementation of 
these standards. The continued funding is vital to the current academic 
reforms I have instituted. Our use of school improvement funds will 
enable us to continue to invest in the following key areas:
  --Curriculum and instruction.--Develop grade-by-grade standards in 
        science, social studies, and four electives. This process will 
        incorporate the best standards from around the country. At the 
        same time, English/language arts and mathematics curricula will 
        be developed and linked to textbook adoption.
  --Assessments.--Implement periodic benchmark testing to monitor 
        progress of students throughout the school year, identify 
        students who need support so that help can be provided, and 
        help tailor training for teachers and principals to meet 
        students' needs.
  --Accountability.--Adopt an effective schools initiative that is more 
        closely aligned with NCLB standards and will reach more schools 
        with additional support and resources. The research-based 
        approach, which is based on the successful performance 
        improvement mapping (pim) model being used in Massachusetts, 
        aligns more closely with federal standards in NCLB.
  --Professional development.--Work with our standards content 
        consultants in an ongoing process to help teachers develop the 
        knowledge, skills and tools they need to take ownership of the 
        standards and curriculum.
  --Prevention and early intervention.--Renewing the emphasis and 
        system wide mandate for early intervention in the context of 
        general education, including academic and behavioral supports 
        and other services for struggling students, will enable DCPS to 
        meet the needs of more learners, improve student achievement, 
        and reduce the number of inappropriate special education 
        referrals.
    I believe this operating budget will considerably advance our work 
at improving student achievement, assist us in changing the 
institutional culture of this school system, and make the necessary 
program and operational changes that will benefit the children in our 
classrooms and, ultimately, the citizens of the District of Columbia.
    This concludes my testimony. I will now answer any questions you 
may have.

    Senator Brownback. We will run the time clock 5 minutes 
back and forth, so we will just try to ask some pretty good 
questions and very quick questions and then do a couple of 
rounds here if we can.
    Dr. Janey, we held a hearing on education and both Senator 
Landrieu and I are very concerned about what is taking place in 
the D.C. system and the results or lack of results that have 
taken place for school children in the District of Columbia. I 
want to focus in on your physical plant issue if I could to 
start off with, because you have noted, Chairperson Cropp has 
noted, the dilapidated condition of your physical plant.
    You have about 147 school facilities . What do you believe 
that total number should be? Where do you think that number 
should actually be, given what your enrollment is today and 
where your students are located?
    Dr. Janey. I cannot give you a precise number of schools 
because we are currently in the process of building this plan. 
By December of this year we will have a master education plan 
that will really frame how many facilities that we should have 
pre-K through 12, the types of uses for those facilities, so 
that we would be able to have finally right-sized the District. 
So we are in that process right now, Senator.
    Senator Brownback. Could you give me any comparables in the 
country of student population, of what the D.C. area is, and 
what the number of school facilities would be in a comparable 
district? You do not have it determined here yet, but what 
would be a comparable in the United States?
    Dr. Janey. Boston might be comparable in enrollment, give 
or take 2,000 or 3,000, 4,000 students, and I believe their 
number of facilities is probably 15 or 20 less, I think. But I 
would not want to say factually for the record. But Boston is 
somewhat comparable to the District of Columbia in enrollment.
    Senator Brownback. I do not think you have closed any 
schools since 1999. This was an issue when I was chairing the 
authorizing committee before, that we need to get more 
resources into fewer physical plants. We need to upgrade these 
physical plants.
    It is a similar thing that we are going through on military 
bases across the country, across the world, is we are trying to 
get into fewer buildings and get them upgraded so that they are 
better. I have been in a couple of your physical plants. They 
clearly need upgrading. There is just no question about it.
    But there has a will to say, okay, we are going to take the 
dollars that we have and we are going to put them in the 
physical plants that we need, and the other ones, we are just 
going to have to close.
    I know this was a tough issue back then. It is a tough 
issue now. I do not know if we need to provide assistance to be 
able to strengthen your hand to be able to move forward on 
that, but it strikes me this is going to be one of the 
fundamental issues we are going to have to face, is get more 
resources put into fewer physical plants for students.
    Dr. Janey. I think the technical aspect of the issue, 
meaning looking at the enrollment against the number of 
schools, that is not the big lift. Looking at the types of 
educational programs and services and then projecting over time 
what the enrollment will be, that is a second consideration.
    But when you talk about consolidation, when you talk about 
closing schools, you talk about shared use of schools, often it 
comes down to political will and where will people stand once 
you make that decision.
    Senator Brownback. I understand all of that. I understand 
the difficulty.
    Dr. Janey. So that it rests more in that area than it does 
in the other two.
    Senator Brownback. When the statement was made by the 
former speaker about all politics is local, talk about schools 
and it is real local, and it is a very tough issue to deal 
with.
    Dr. Janey. I have heard Mr. O'Neil say that many times.
    Senator Brownback. Mayor Williams, thank you for your 
presentation here. I want to go at one area and then I want to 
come back to you, if I can, a little bit later. You talk about 
the level of taxation within the District, some of the highest 
taxation within the country. I think even Chairperson Cropp was 
talking about a punitive tax structure, I believe is the terms 
that I heard you use.
    Do you have plans or should you or are you considering 
plans for reduction of that tax structure within the District 
of Columbia as a further effort and opportunity for growth for 
the District of Columbia, if your tax structure is so punitive 
and so high?
    Mayor Williams. Well, I can ask Chairman Cropp to speak to 
the Tax Parity Act that the Council passed, what was it, in 
1999 I believe, which provided for a series of reductions of 
income tax in the city. We have worked together where we could, 
certainly on a strategic basis, reducing taxes for business. I 
have worked with the Council in providing cap relief for 
property taxpayers, who are suffering from escalating housing 
prices and hence assessments and hence levies, on the basis of 
that.
    In this year's budget there is $88 million in tax relief. I 
think it is about $40 million of that is the latest tranche of 
this Tax Parity Act, which I strongly support, because this 
latest stage of the Tax Parity Act actually is providing 
increasing tax relief to moderate and low income citizens. Then 
we have also added to that, with the strong support of the 
Council, additional tax relief that would total about $88 
million.
    One of the things I am particularly proud of is we say to 
homeowners--there are two things, actually. Chairman Cropp can 
speak to the latter. One is, if you are a homeowner, a 
household making less than $50,000 a year, you do not pay 
property taxes on your home until you sell it. I think that is 
going to provide great relief for the strain faced by middle 
income households, who are seeing their property values go up, 
but those assessments and those property levies can be onerous.
    Then number two--and I give her full credit for this--
Chairman Cropp, at her urging we have included in the budget 
relief for custodial grandparents who are taking care of these 
kids in many instances and should be supported. You talk about 
supporting families. This is something I really salute her for, 
providing hope for--providing help for these custodial 
grandparents in terms of tax relief to allow them to shoulder 
the burden of raising these children.
    I do not know if you want to speak to any of those issues, 
Chairman Cropp.
    Ms. Cropp. Thank you, Mr. Mayor.
    The Mayor and Council have worked very hard to look at ways 
to reduce the burden for our citizens. We are challenged also 
by our own success with regard to real estate property. What we 
are finding in the District is that the housing costs have gone 
up, they have tripled or quadrupled, but the salaries have not 
matched it. The average cost of a house in the District is 
roughly around $350,000, $375,000, where the average salary is 
about $70,000, $75,000.
    What we have now is we have some people, particularly 
seniors, who may be in a house that they bought 50, 60 years 
ago for $40,000, whose house may be worth about $500,000, 
$600,000, $700,000, $800,000 now, but their annual income may 
only be $25,000 to $40,000 a year. So the taxes are getting at 
a level where either we force them to sell their house and 
leave the District, because if they sold their house it is 
nothing else they could buy in the District with that money.
    So in the Mayor's budget, working with the Council, we have 
devised a way to work with these seniors that they do not have 
to pay the property taxes until after they sell their house.
    However, there is another group who is impacted by this and 
why the city needs to look at it. Let us look at new college 
graduates, young professionals just starting out. The average 
median income in the District of Columbia has just risen to 
$89,000 for a family of four. That is not enough money to be 
able to buy a house and deal with affordable living, housing.
    So this budget is also dealing with that issue. We are 
looking and wrestling with tax packages that will actually 
reduce the rate that people pay on taxes and also we are 
looking at the cap again. The cap appears skewed in the sense 
that you say people who have a higher value house will get more 
money and that is true, but it does not mean in the District of 
Columbia that people who have a higher value house are rich 
people.
    Senator Brownback. In farm country we would say of a 
farmer, he lives poor and dies rich. Just the income off the 
farm is not that much, but he sits there for a number of years, 
works hard with his family, and at the end of life he has some 
value. But the income is not there. And so I really do applaud 
your efforts to try to deal with that situation.
    We should not have a punitive tax structure within the 
District of Columbia. I am glad you are working to assess that.
    Mayor Williams. Mr. Chairman, if I could just say one 
thing. I think one reason why the taxes are high, I would get 
back to our original testimony, is again because of this 
structural imbalance. The Federal Government basically tells me 
I only have access to half of my tax base. So you are trying to 
run an operation with only half of your tax base, and if you 
believe the GAO, which says that really there are costs beyond 
our control, you are going to end up overtaxing that limited 
base you have.
    So while the relief that we have embarked on I think is 
important, we cannot miss the underlying really critical 
importance, I think, of addressing the structural deficit. I 
would personally think that the Fair Federal Compensation Act 
is one good way to do that.
    Ms. Cropp. I was going to say the same thing, Senator. What 
the Mayor is saying is absolutely factual. The District, not 
unlike any other city, has a population that is older, sicker, 
and poorer. Most cities get the help from their surrounding 
areas to help offset that problem.
    Ironically, the absolute reverse happens in the District of 
Columbia. We help subsidize our more affluent suburban areas. 
More than 56 percent of the people who work for the District of 
Columbia government--not the Federal Government, not the 
private sector, but the District of Columbia government--live 
outside of the District of Columbia. That is not through our 
control. That is through a Federal mandate that that occurs. So 
we cannot even tax that revenue at its source.
    For every dollar earned in the District of Columbia, we can 
only keep 33 cents of it. The difference between other major 
cities and the suburban areas surrounding it, the State helps 
to offset that cost, that loss, and we have no offset for it.
    Senator Brownback. I have gone 10 minutes instead of 5 and 
I will give that to my colleague.
    I do want to recognize Congresswoman Eleanor Holmes Norton, 
a dear friend of mine. Over the years I have worked with her. 
You were hiding behind the Mayor so I did not see or I would 
have recognized you at the very outset.
    Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman. I also want to 
acknowledge Congresswoman Norton who is here. I thank you for 
your work and your support. Your input has been invaluable to 
this subcommittee as we have worked through some of these 
issues and I really appreciate your help and support.
    I wanted to, Mr. Mayor, go on the record as supporting your 
comments regarding the structural imbalance. As you know, the 
record-setting report by GAO actually requested by the 
Congresswoman and me was issued I believe 2 years ago now. We 
did have a quite lengthy hearing on the subject. That report 
basically in my mind put to rest the question as to whether a 
structural imbalance exists.
    It is clear that it exists. It is clear that it is between 
$400 million, I think, Dr. Gandhi, $400 million and $1 billion. 
It is clear from the exchange that we just had that as we move 
to address that one of the real results could be a lowering of 
very high tax rates in the District, which would be good for 
everyone and a real benefit for future development.
    So I know that there are several proposals. The 
Congresswoman has a proposal. Several proposals have been put 
forward. But Mayor, would you take a minute, and perhaps Dr. 
Gandhi take a moment, to talk about some aspects of these that 
you think are particularly encouraging or a way that you would 
like us to try to think about approaching this? Would it be a 
rebate of taxes that the District residents pay from the 
Federal Government? Could the Federal Government look at some 
other ways that we could fill that structural imbalance? 
Because it is really a question as to what the Federal 
Government can do.
    Do you want to put anything into the record, comments on 
that this morning?
    Mayor Williams. Well, my own view, Senator Landrieu, is--
and I have stated this publicly a number of times; I would just 
use this occasion again--is I really do believe that a 
promising vehicle for addressing this is the District of 
Columbia Fair Federal Compensation Act of 2005, which was 
introduced by Congresswoman Norton. I think there are two key 
provisions of this that I think are becoming in my mind in 
running the city day to day.
    One is it is an annual Federal outlay on a formula basis, 
so you can resolve this matter once and for all and we do not 
have to revisit this over and over again. I think there is a 
lot to be said for settled expectations and everything else.
    Number two, it would be dedicated to exactly the things 
that this subcommittee has addressed, the GAO report addressed, 
and we have heard today in testimony: the transportation 
projects, the extraordinary debt service that the city has to 
suffer because we do not have state support, public school 
facilities, information technology.
    I believe that a real offset of all this--number one. 
Number two, a real offset of all this would be we would see 
then with these investments increasing relief, not only for 
individuals but also for businesses, because actually the GAO 
will tell you, our Federal City Council will tell you--I am 
getting now the councils mixed up--the Federal City Council 
will tell you that the real extraordinary burden in terms of 
taxation now is on our businesses.
    So the Council has made progress and I salute them for 
reducing the burden on our individuals. But if you are a small 
business in the city or a business in the city, what you are 
paying versus Maryland and Virginia is clearly extraordinary. 
This would allow us to address that.
    Senator Landrieu.
    Senator Brownback. Dr. Gandhi.
    Dr. Gandhi. I think the Mayor has spoken quite well on this 
issue. I think what this chart shows, Mr. Chairman and Mrs. 
Landrieu, is that the District can manage itself very well 
financially. It is like we can manage a household very well. 
The question is what happens when the roof falls down, what 
happens if I have a flood in the basement? The larger 
infrastructure issue is the only puzzle that needs to be 
resolved, and that cannot be resolved locally.
    I think Ms. Norton's proposed legislation is an excellent 
idea. That would provide us the kind of recurring annual, 
predictable budget relief that we need. But more important, 
what we have there is basically a capital fund, that money 
would be spent only on infrastructure, the buildings, 
transportation, technology, debt service.
    So it is not that Congress gives that money to the city and 
we start five new programs and hire 1,000 new bureaucrats. No. 
The funds would basically be taking care of an infrastructure 
that needs to be repaired and should be worthy of the Nation's 
Capital.
    Senator Landrieu. Thank you. I would like to agree that I 
think one of the strongest aspects of that proposal is that it 
creates a capital fund which would be able to be accountable 
and transparent. How the money was spent--it could be used at 
discretion, of course, of the city, but could be a real signal 
of strategic investments for the growth of the city and also 
provide some tax relief across the board.
    On that, I want to mention that I am particularly pleased 
with the tax relief and the recognition of the rising value of 
homes in the District--the blessing of that, but the burden to 
people on fixed incomes, particularly seniors. I really want to 
commend you, Chairman Cropp, for looking at that area, and the 
Mayor, and trying to provide some relief in an innovative way, 
so the city is not giving up revenue. It may be postponing it, 
but it really allows those families to have some relief that is 
so necessary today.
    Ms. Cropp. Senator, if I may, on the capital fund issue 
that you were talking with the Mayor and Dr. Gandhi about, to 
say how important it is. Legally, the city has a 17 percent 
ceiling on our budget that we cannot spend more in capital 
projects. But the reality is that Wall Street, the bond rating 
agencies, will not let us go over--Dr. Gandhi--probably about 8 
or 9 percent?
    Dr. Gandhi. Nine percent.
    Ms. Cropp. Nine percent. We are fairly close to that level. 
So that even if we decided as a city that we wanted, or even if 
we had the money for the infusion for our schools, we could not 
do it because our bond rating would then drop down and we are 
just in a terrible position.
    So this capital fund is just so very important for our 
schools, as we look at Metro. Metro, which has been the pride 
of the Nation, is now at an age where it needs to have a 
reinvestment. So for our capital budget it really is 
problematic. That capital fund will be very helpful.
    Senator Landrieu. Well, I appreciate that. I would only say 
that this is not the only city that has limits to its capital 
expenditures. There are cities all over America that struggle 
with these limits, put on either by themselves or by agencies 
or by State governments or by necessity because of the 
finances, and it is a complicated issue.
    You can also use cash when it becomes available and not 
increase your bonding capacity, and it is always good to use 
cash when you have got it and not increase borrowing, and your 
surpluses allow you to take that cash and use it wisely, which 
you have done in your proposal.
    But I want to get to, in one moment--the chairman has been 
very gracious here. But I would like to get to you, Dr. Janey 
and the Mayor, about the facilities issue for our schools. 
There are a couple of solutions. I know these are difficult. 
But one, the overall budget for the school system is $1.1 
billion, which we are still trying to get a handle on exactly 
how that breaks down per student compared to other cities, 
which is the way I would like to compare it, not States, 
because I think comparing it to States is apples to oranges, 
but I think comparing it to cities accurately reflects the real 
costs.
    This is the document that I have for the record. I am 
sorry, it is fiscal year 2003. I am sure it can be updated. I 
do not have it this morning. But based on this document that we 
had in fiscal year 2003, Orleans Parish, which is my home town, 
was spending $6,500 per student, Baltimore was spending $10,000 
per student, Milwaukee was spending about $11,000 per student, 
and the District of Columbia was spending $13,000 per student.
    Now, these numbers may have changed and if we can just get 
this updated then we will know and put that into the record.
    [The information follows:]

------------------------------------------------------------------------
                                                 Per Pupil
                     City                         Spending    Enrollment
------------------------------------------------------------------------
Orleans Parish, LA............................       $6,560       70,246
Alameda Co. (Oakland), CA.....................       $7,122       10,615
Houston, TX...................................       $7,236      212,099
Kansas City, KS...............................       $7,827       20,810
Baltimore, MD.................................       $9,639       96,230
Cincinnati, OH................................       $9,677       42,715
Milwaukee, WI.................................      $10,352       97,293
Montgomery Co., MD............................      $10,580      138,983
Alexandria, VA................................      $12,736       10,971
Washington, DC................................      $13,328       67,522
Arlington, VA.................................      $13,334       19,135
------------------------------------------------------------------------
Source: U.S. Census F-33 Annual Survey of Local Government Finances for
  2002-2003.

    Senator Landrieu. But the point is that $1 billion plus 
budget for the District schools is more than most cities of 
this size and demographics have. One way to capture funding for 
facilities is to have some savings or efficiencies, whether it 
comes through some savings through facilities or operations. If 
you had a 5 percent savings, which is $50 million, you could 
take that money and bond it and create a bond issue to invest 
in schools.
    Another way is to use the assets of the school system 
itself, which, Mr. Mayor, I understand that there are 39 
schools on this list of surplus property. Fourteen have been 
either leased or sold as according to the city law for charter 
schools. But there are an additional 17 schools that could 
either be leased according to now the local law and the Federal 
law, to give a preference, a strong preference to charter 
schools.
    The money generated from these transactions could go to the 
benefit of the school system. It could go to the benefit of the 
school system. It does not have to go to the benefit of the 
general fund of the city.
    So there is a real win-win, Mr. Chairman, as we take steps 
to co-locate, to make these vacant in some cases and surplus 
facilities available to schools, to use the profits of that, if 
you will, for the school system itself.
    In addition, some of these buildings have been available 
for housing under the control of the city through the control 
board. They have been very successful housing developments. I 
am aware of some of them. But again, the moneys that were 
generated by the sale of those buildings could have gone back 
to the school system. I do not think that happened. I think 
that went back to the city general fund.
    So I would just ask that we look at the assets of the 
school system, how they can be better used to help the problem 
that we have, and to recognize that there are right now, 
without any additional Federal help, some real opportunities 
for enhancements of these facilities.
    Senator Brownback. As you can see, my colleague has dug 
into this pretty deep and is quite committed to it, and I look 
forward to working with her on some of these topics.
    If I could turn quickly to a couple of things on another 
set of topics. When I was the authorizing chair we did a number 
of structural changes in the District of Columbia. This was in 
1997. I think Connie Mack was one of the key individuals 
involved in the negotiations. A lot of structural changes were 
made at that time. That is when the homestead or the first time 
home buyers accounts were put in place, which I think have been 
very successful in the District of Columbia. We are trying to 
replicate them in other places across the country.
    One of the things that we had looked at and considered is 
putting in place in the District of Columbia a flat tax making 
the Federal income tax a flat tax in the District of Columbia. 
It had pretty good support. I put in a bill along with 
Congressman Paul Ryan on the House side. Jack Kemp supported 
it.
    One other item, though, I want to throw out for you. We did 
several years ago individual development accounts, trying to 
get people of low income to save. We had a Federal match of but 
$2. For every $1 that the individual would save, we would match 
it with $2, as an attempt to increase personal savings--and we 
called it an individual development account. Let us start 
building up this.
    I was wondering, Mayor, in looking at the need to support 
families, if we should try to expand that concept on marriage 
development accounts, where a couple raising children but at a 
low income level, not necessarily at a poverty level but at a 
low income level, that we would try to use that same concept.
    I put it out as something that we are looking at. I want to 
see if the concept has worked for the individual development 
accounts or not, if you look at it and say, well, it has worked 
some, not that great, or if it has really worked well. Is that 
something we could expand in this category to try to encourage 
and support that institution where generally children thrive 
the best? So I put that out for you.
    We will look forward to working with you on this budget, 
and on other items. Again, I congratulate you on the many areas 
of improvement. We have got some possibilities and some things 
to work on. I look forward to working with my colleague, who is 
very knowledgeable and has been on this subcommittee for some 
period of time.

                     ADDITIONAL SUBMITTED STATEMENT

    The subcommittee has received a statement from Paul 
Strauss, the shadow Senator for the District of Columbia which 
will be placed in the record at this point.
    [The statement follows:]

                   Prepared Statement of Paul Strauss

    Chairman Brownback, Ranking Member Landrieu and others on the 
subcommittee, as the elected United States Senator for the District of 
Columbia I would like to thank you for the opportunity to present this 
statement on behalf of the people of the District of Columbia.
    I fully support the fiscal year 2006 Budget Request for the 
District of Columbia. It is vital for my constituents that the Budget 
Request is met in full. As the elected U.S. Senator for the District of 
Columbia, I myself cannot vote on this appropriation. I am limited to 
merely asking you to support their requests. Unlike citizens of any 
other jurisdiction, we lack the legal rights to make these funding 
decisions on our own. This is not just an issue of simply allocating 
appropriations but, for the residents of our Nation's Capital, an issue 
of fundamental justice.
    The District of Columbia should not have to look to Congress for 
financial determinations. Congress appropriates the money of local tax-
payers, which rightly should be appropriated by local government. The 
money at issue is raised by taxing the local citizenry, and Congress 
should have no authority to interfere. This is again a case where the 
many restrictions on the District of Columbia's ability to self-govern 
adversely impact the taxpayers of your own states. Today's hearing, an 
exercise in bureaucracy, would be unnecessary if the District was free 
to conduct its own budget. I have made this argument many times before 
many committees of this body, and I will continue making it until the 
District of Columbia becomes a state. Most importantly, as long as 
Congress continues to control the District's budget, which should be 
operated by the District, Congress has an obligation to fully fund the 
budget request without hesitation.
    Due to our lack of self-determination, we are unable to provide 
certain government services on a local level. As long as Congress 
continues to utilize city services, it has an obligation to fully fund 
city services. It is essential to the District that Congress pass this 
budget in time for the new fiscal year and avoid being held up in 
continuing resolutions. If the District's Budget is held up, vital 
spending adjustments are not allowed to be implemented and the cost of 
debt services increases. Each day the budget is delayed is a further 
impediment in our efforts to provide vital local services to the loyal 
tax paying residents of the District of Columbia.
    The predicament and unneeded bureaucracy of our budget being held 
up every year can be resolved through Budget Autonomy. Our local budget 
has no relevance to Congress or any of your constituents, and is an 
unnecessary obligation on the national taxpayer and the national 
legislature. Since fiscal year 1996, the District of Columbia has 
unfailingly provided Congress with a balanced budget, consistently 
demonstrating that it is a competent governing body. It therefore seems 
extraordinary that such a proficient and capable body should not be 
given the rights to pass its own budget without policy interference and 
social riders regulating the government within the District. It should 
be within the legislative remit of the District of Columbia to make its 
own economic decisions, and not Congress.
    The District of Columbia has submitted a budget that has called for 
significant, increased investment in public services and education. 
Mayor Williams, Chairman Cropp, and Chief Financial Officer Gandhi have 
explained the specifics and I support their efforts. The budget request 
is balanced, thorough, and accounts for the needs of the residents of 
the District of Columbia. It will provide more money to be spent 
adequately on education and family services on a per capita basis than 
ever before. The money to be invested in education is crucial if we are 
to be able to meet our aims of improving education for all who live in 
the District.
    I am the only elected official whose children attend D.C. public 
schools. Our public schools have been making good progress, but we 
still face huge barriers in our ability to provide a holistic 
educational experience. For example, in 2005, 49 of the District's 167 
public schools had no music teachers and 44 had no art teachers. My own 
child's school, Stoddet Elementary, lacked a second grade teacher, and 
the first and second grades had to be combined. Without the proper 
funding, the District will never be able to break such barriers, and 
the children who live in the District will always be at a disadvantage.
    The District should be able to provide the type of education every 
child in this country deserves. The budget request includes $1 billion 
to fund our public schools. Of this, $779.3 million will be dedicated 
to the District of Columbia's Public Schools; $234.4 million for the 
District of Columbia's Public Charter Schools; and $25.2 million for 
the Educational Investment Fund. The request also includes $147 million 
in capital funding to support improvements to public school buildings 
in the District. The request represents an increase of $81.6 million on 
the fiscal year 2005. The additional request will be spent on improving 
11 new charter schools and will create an Educational Investment Fund 
to help improve student and school attainment. These investments will 
help provide essential facilities that will help provide an appropriate 
educational environment.
    The public school administration has worked hard to build a budget 
that will sustain the public school system. To avoid losing 386 
teaching positions, $15 million was secured for the school budget. An 
additional $6 million was secured to help open schools this fall. The 
administration accepted this budget, and was confident that it could 
operate within the amount allocated. In other words, there should be no 
need to close any facilities. It is outrageous that D.C. schools should 
be shut down to compensate, not for a deficit within the District's 
budget, but rather for a deficit in the national budget. Students of 
the District of Columbia should not be penalized for Congress's 
inability to balance the budget.
    In addition to allocation to public schools, the budget request 
also includes monies dedicated to improving Higher Education and 
lifelong learning in the District of Columbia. Higher Education is a 
crucial part of our aim of improving education in the District. It is 
essential that those who want to learn be given the opportunity to do 
so regardless of their age or economic situation. The main focus of our 
efforts will be improving the availability of programs and facilities 
at the University of the District of Columbia. This includes an 
allocation of $8.3 million to expand programs in sectors such as 
nursing, social work, and teacher education; $8.2 million to extend 
opening hours for libraries and to invest in additional facilities; and 
$700,000 in financial aid to support a further 474 students from low-
income backgrounds. The budget request would help address some of the 
problems faced by the District's Education Services, who continue to 
achieve remarkable results in less than favorable conditions, by 
providing funds for vital programs, facilities, and resources.
    Besides money allotted to the education sector, the budget request 
includes a significant allocation to children and family services, 
namely the Children and Youth Trust Corporation, the Department of 
Youth Rehabilitation Services, the Child and Family Services Agency, 
and the Department of Human Services. The District of Columbia has made 
great strides in tackling the problem of juvenile crime over the last 
year, as the falling rate of crimes committed by juveniles illustrates. 
However, we continue to strive to make further progress in this area 
and to tackle the underlying causes of these problems. The Budget 
request provides sufficient resources to be able to attack the causes 
of many of the problems the district faces, and should therefore be 
supported in full.
    Included in the budget request is a $14 million allocation to 
construct or improve 7 recreation centers; $6.5 million for child 
services; and $13.5 million for juvenile intervention initiatives. 
These improvements are crucial to the lives of thousands of juveniles 
in the District who are striving to improve their lives, and who 
deserve the opportunity to fulfill their potential. The budget request 
would help fund these programs that would subsequently help address 
problems such as crime and drug use, which continue to plague the 
District of Columbia. Subsequently, this would reduce the burden on 
your constituents whose taxes are being spent on the problems in the 
District.
    As well as the investment in youth, the budget request also 
allocates significant investment in Health and Welfare services. This 
includes an allocation of $9 million to expand healthcare services, 
including dental and primary healthcare services; $8 million to provide 
school nursing services; $14 million to help address the problem of 
homelessness in accordance with the Districts 10 year plan; and to 
begin the construction of Wellness Centers in Wards 4 & 6. Health and 
welfare are key areas we need further investment if we are to be 
successful in decreasing, and eventually eliminating, poverty in the 
District. It is, therefore, imperative that the budget request should 
be met in full in order for the District Health and Welfare Services to 
continue their good work.
    Congress should focus on the District of Columbia's budget in 
respect to resolving the structural imbalance of the budget. The gap 
between the District's ability to raise revenue at reasonable tax 
rates, and the ability to provide services of reasonable quality to its 
residents, jeopardizes the District's ability to retain residents. 
Instead of being penalized for residing in the District, citizens 
should receive same the constitutional rights as all Americans. I would 
go as far as to suggest that it is fundamentally un-American that the 
population of the District of Columbia is not allowed to spend their 
own taxes.
    The government of the District of Columbia needs to be fairly 
compensated by Congress for the services it provides to federal 
agencies. This would serve as a solution to the structural imbalance 
within the District budget. The District's budget represents the 
citizens of the most unique city in the Nation. The District has 
repeatedly provided Congress with a budget that has proven sensible and 
attainable. The outlook for the current fiscal year 2006 is projected 
as balanced with a surplus. The District Government itself is the best 
evaluator of local expenditures. The reoccurring record of balanced and 
responsible budget management during times of economic hardships and 
declining revenues is yet another fact that proves the District's 
elected officials can govern the district.
    The elected officials are persistent in attaining locally raised 
revenue needed to fund various local interests such as public service 
and education. The city should be allowed to utilize tax dollars in a 
more flexible manner. This would subsequently give the District 
government the ability to provide the community greater benefit from 
the revenue. Flexible use of revenue specifically secures and 
stabilizes public service departments within the city. My constituents 
have the right to receive the needed revenue to meet their children's 
educational needs. I urge you to approve the proposed budget, as it is 
deemed necessary to aid the District. The District of Columbia has 
submitted a timely budget so Congress has appropriate time to approve 
it.
    In closing, I wish to sincerely thank the subcommittee for holding 
this hearing. I know that this subcommittee has been firmly committed 
to meeting its fiduciary obligations. On behalf of my constituents, I 
thank you for all your hard work and dedication and I look forward to 
working with you in the future. In closing let me thank a member of my 
legislative staff, Marta Mudri, for her assistance in preparing my 
testimony.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Brownback. If there are any additional questions, 
they will be submitted to each of the witnesses for their 
response.
    [The following questions were not asked at the hearing, but 
were submitted to the District for response subsequent to the 
hearing:]
               Questions Submitted to Anthony A. Williams
              Questions Submitted by Senator Sam Brownback

    Question. Your fiscal year 2006 budget includes a total of $1.1 
billion in local funds to educate approximately 80,000 students within 
the District of Columbia Public Schools and public charter schools. 
This funding level is a 10.5 percent increase over the fiscal year 2005 
budget. Why do you continue to increase funding for schools while 
enrollment declines?
    Total enrollment for the D.C. Public Schools (DCPS) and the public 
charter schools has in fact been quite stable. In 1997-1998, total 
enrollment was 77,361 students, comprised of 77,111 DCPS students and 
250 charter school students. In 2004-2005, total enrollment of 78,145 
is slightly above the 1997-98 level, with 62,306 students in the D.C. 
public schools and 15,839 students attending public charter schools.
    The increased funding for schools in fiscal year 2006 reflects a 
number of factors. First, the uniform per-student funding formula 
increased by 3.07 percent this year to reflect inflation, but did not 
cover the automatic pay increases provided to school staff that exceed 
the inflation rate and are needed to keep D.C. schools competitive with 
suburban jurisdictions. (At least three of the five surrounding 
suburban jurisdictions offer higher entry-level salaries for teachers, 
and all five have a higher top salary level). Therefore, the Council 
added $14.9 million to the D.C. Public Schools budget to provide 
schools with enough funding to cover these pay increases and avoid 
layoffs, as well as a corresponding increase of $4.9 million to the 
public charter schools to maintain equitable funding through the 
uniform per-student funding formula.
    Second, Mayor Williams proposed and the Council approved funding of 
$21 million to support the reform initiatives of DCPS' new leadership, 
which are squarely focused on academic achievement. Those include:
  --development of standards for all subject areas and professional 
        development for teachers centered around the new content 
        standards;
  --new textbooks aligned to the content standards;
  --art and music programs for all schools that presently lack such 
        instruction;
  --after-school reading and math programs;
  --expansion of Advanced Placement and International Baccalaureate 
        programs;
  --a ``Summer Bridge'' program for students entering high school with 
        low achievement scores;
  --the creation of a principal leadership academy; and
  --the opening of parent and family resource centers.
    Charter schools also received a corresponding sum of $4.2 million 
to institute programs to improve student achievement.
    Special education is the other major area in which the budget has 
grown. DCPS' fiscal year 2006 budget reflects an increase of $20.7 
million in non-public tuition payments for students receiving special 
education services at non-public institutions (much of which reflects 
higher costs of tuition), as well as $6.8 million in tuition payments 
for special education students in foster care ($3.8 million of which 
reflects a budgetary transfer from the State Education Office rather 
than a net increase). DCPS also received a $2.6 million increase to 
provide educational services at a newly opened intake and assessment 
center for youth in the juvenile justice system.
    Question. I understand that only 50 cents of every operational 
dollar spent by DCPS actually goes to directly educate children. The 
national average is 61 percent. Why is this average so low and how have 
city leaders proposed to change this?
    Answer. The statistics cited above are from state-level data 
published by the National Center for Education Statistics (NCES), which 
defines ``classroom instruction'' as the amount of money spent on 
teachers, aides, textbooks, and classroom supplies. Although DCPS is 
below the national average in this category, it spends more than the 
national average on ``student support'' (legally mandated special 
education services such as assessments, speech therapy, occupational 
therapy, and physical therapy, as well as counselors and social 
workers), as well as ``instructional support'' (librarians, 
instructional technology, standards, curriculum, assessments, and 
teacher training, much of which is funded by federal grants that are 
restricted to certain purposes).
    According to the NCES data, DCPS' spending on classroom 
instruction, student support, and instructional support totals 70 
percent of its budget, which is almost identical to the national 
average of 72 percent and is identical to the 70 percent figure for 20 
urban school systems of similar size. The comparison group includes 
such cities as Oakland, Atlanta, Boston, Baltimore, New Orleans, San 
Antonio, and Milwaukee. Therefore, DCPS' spending on classroom and 
instructional activities seems close to the national average and 
similar to the spending patterns in other mid-sized cities, and its 
spending for central administration appears to be just below the 
national average.
    Reducing special education costs through early intervention and 
increasing the capacity of local schools to serve all children is key 
to ensuring that more of the District's educational dollars flow to 
direct instruction. DCPS' expenditures for special education tuition 
payments at non-public schools and the transportation of special 
education students are particularly high, as are costs for litigation 
related to special education.
    A number of initiatives are underway to control special education 
costs and ensure that children can be properly served by the public 
school system. The Prospect Learning Center, which serves elementary 
and middle school students with learning disabilities, is newly 
renovated and can now serve 120 students in a state-of-the-art 
facility. DCPS has increased its internal capacity to educate students 
with severe disabilities by creating more than 600 new seats for 
autistic children; students who are hearing or vision-impaired; 
children who are mentally retarded, learning disabled, or emotionally 
disabled; and early childhood special education students. More than 75 
percent of those seats have been filled. DCPS' data also shows that 200 
students have returned from private placements to DCPS and that DCPS 
has stabilized the number of students going out to private placements. 
Overall, DCPS reports that it has established more than 400 new special 
education seats in local schools for 2004-2005, bringing the number of 
slots created in the past three years to nearly 1,800, and that 
capacity will increase by another 600 seats in 2005-2006.
    Expanding capacity within the school system and reducing the number 
of private placements will in turn enable DCPS to reduce the large 
costs it incurs to transport special education students to school. 
Presently, the transportation office is run by a court-appointed 
administrator. The cost of operating 600 bus routes to serve 4,000 
children is approaching an annual rate of $75 million per year, and 
must be reduced. One important step to reduce transportation costs is 
under consideration by the Board of Education: purchasing buses to 
reduce the cost of operating a fleet presently comprised of leased 
buses. The District's Chief Financial Officer has projected the savings 
at $5.6 million in fiscal year 2006 and $24.1 million between fiscal 
year 2006 and fiscal year 2010.
    The Mayor, Council, and Chief Financial Officer have also 
implemented a system of performance-based budgeting that shows the 
funding provided to particular programs or activities, rather than 
budgeting only by ``object classes'' (such as personnel, fringe 
benefits, and supplies) or organizational units. The fiscal year 2006 
budget is the first that DCPS has prepared in the performance-based 
format. The performance-based budget gives policymakers increased 
ability to track where resources are going and will support the efforts 
of the Mayor, Council, and Board of Education to maximize the funding 
allocated to classroom instruction.
    For example, the performance-based budget presents the budgets for 
all of the central administrative or management functions (personnel, 
procurement, information technology, financial support, policy 
development, oversight, etc.), showing that central administrative 
functions will cost $36.1 million in local funds in fiscal year 2006. 
This amounts to just over 4 percent of DCPS' local funds budget. 
Policymakers will now be able to budget explicitly for central 
administrative and other functions to make sure that administrative 
costs are controlled and that classroom spending is maximized.
    The strong commitment of the Mayor and Council to focus resources 
on academic achievement and classroom instruction was reflected in the 
fiscal year 2006 budget cycle. As described in the answer to question 
#1, Mayor Williams proposed $25.2 million in additional funding to 
support academic improvement initiatives at DCPS and the public charter 
schools. The Council approved the additional funding proposed by the 
Mayor, and also added $19.8 million to the uniform per-student funding 
formula that finances school-based instruction.
    Question. Do you believe that Dr. Gandhi--your CFO--has sufficient 
control over the D.C. Public Schools' expenditures? School spending 
seems to increase every year with no improvement in student 
performance.
    Answer. As provided by the Financial Responsibility and Management 
Assistance Authority (FRMAA) Act of 1995 (Public Law 104-8), the Chief 
Financial Officer (CFO) has sufficient authority and control over DCPS 
expenditures. The broad authority provided by FRMAA includes:
  --implementing appropriate procedures and instituting such programs, 
        systems, and personnel policies to ensure effective budget, 
        accounting, and personnel control systems are in place;
  --supervising and assuming responsibility for financial transactions 
        to ensure adequate control of revenues and resources, and that 
        appropriations are not exceeded;
  --ensuring reliable accounting results to serve as the basis for 
        preparing agency budget requests and controlling the execution 
        of the budget;
  --maintaining custody of all public funds belonging to or under the 
        control of the District government;
  --apportioning all appropriations and funds made available during the 
        year for obligation in order to prevent obligations or 
        expenditures that would result in a deficiency;
  --certifying all contracts prior to execution as to the availability 
        of funds;
  --certifying and approving prior to payment all bills, invoices, 
        payrolls, and other claims, demands, or charges; and
  --preparing monthly financial reports on DCPS' revenue and 
        expenditures.
    The Office of the Chief Financial Officer (OCFO) has effectively 
used this authority to monitor and control spending, identifying 
potential over-spending and developing and recommending gap-closing 
plans for approval by the Board of Education and the superintendent of 
schools. The DCPS CFO has also played an important role in monitoring 
the implementation and expenditure of federal grants, reducing the 
total of lapsed grants from $687,000 in fiscal year 2003 to $165,000 in 
fiscal year 2004.
    For fiscal year 2006, the DCPS CFO will receive additional budget 
authority of $300,000 and three full-time positions to create a special 
education financial accountability unit within his office. This unit 
will work with DCPS' Office of Special Education to implement rate-
setting agreements with special education providers, to document 
information about the placement of children and the duration of these 
placements, and to monitor and control costs.
                                 ______
                                 
               Question Submitted by Senator Mike DeWine

                 BIOTERRORISM AND FORENSICS LABORATORY

    Question. In the fiscal year 2005 appropriations bill, we included 
$8 million for the architectural design and planning costs associated 
with the construction of a new bioterrorism and forensics laboratory in 
the District of Columbia. I am pleased that the President's budget 
request for fiscal year 2006 built on that appropriation and included 
$7 million for the laboratory.
    How are you using the $8 million we provided in fiscal year 2005? 
Please give me an outline of your timeline for completion of the 
construction of the lab, and I would also like you to discuss the 
operational costs for the lab once it is up and running.
    Answer. In fiscal year 2005, the subcommittee provided $8 million 
in funding for design, planning and procurement costs associated with 
the construction of a new consolidated laboratory facility. We will 
have obligated the entire amount by the end of the fiscal year. We have 
been working on programming the services and facility needs for and 
have spent $1 to $2 million to date. We plan to spend the balance to 
conduct the procurement for design services this summer. Starting in 
fiscal year 2006, we will begin the bidding and early construction 
phases of the project and we plan to complete the project by fiscal 
year 2009. We have reviewed more than a dozen sites for the lab and 
have narrowed our choices to two. We expect to make a final decision 
this summer.
    The District plans to incorporate public health, forensics, medical 
examiner, and bio-agent analysis capacity. We will also consider 
options for adding additional local functions to the facility, which 
may result in additional project costs up to as much as $250 million. 
Once the facility is completed, we plan to fund the operational costs 
for the lab with local resources. The District is currently expending 
approximately $21.5 million on the functions to be relocated to the lab 
(excluding detective costs) and once the lab is up and running, costs 
are certain to increase as we have the capacity to provide services 
that were previously beyond our capacity. These costs may rise to as 
much as twice our current expenditures and we plan to fund these at the 
local level.
                                 ______
                                 
                 Questions Submitted to Linda W. Cropp
              Questions Submitted by Senator Sam Brownback

    Question. Nationally, 34 percent of babies are born to single 
mothers. In the District, 57 percent of babies are born to single 
mothers. Research shows that 80 percent of long term child poverty 
occurs in broken or never-married families. The beneficial effects of 
marriage on individuals and society are beyond reasonable dispute. What 
is the District doing to promote healthy marriage and reduce out-of-
wedlock births?
    Answer. The District of Columbia provides a comprehensive network 
of services available to families.
    Within the Department of Human Services, the District initiated the 
Strong Families Program (SFP) in October 2002 to provide comprehensive 
case management services and family preservation support services to 
vulnerable families in the District that present multiple, complex 
challenges which place them at high risk for family separation and/or 
disintegration. This program was created to serve as a ``safety net'' 
for TANF dependent/eligible families experiencing acute social, 
emotional or familial distress. The program is structured to provide 
prevention and early intervention services to families who would 
otherwise become known to the District's child welfare, juvenile 
justice, homeless, mental health or criminal justice systems.
    Since its inception, the Strong Families Program has achieved the 
following outcomes:
  --Served 547 families in fiscal year 2005, and 434 families in fiscal 
        year 2004.
  --Established satellite case management program offices at 13 
        underperforming schools in the District.
  --Provided on-site, in home case management and family support 
        services to two (2) public housing sites.
  --Formed partnerships with faith-based institutions and the District 
        of Columbia Public Schools (DCPS) to open Family Resource 
        Centers at select schools.
  --Sponsored the District's first weekend Family Retreat to promote 
        positive family interactions, communications, parent respite 
        services and family development activities, for families served 
        by the program.
  --Sponsored a range of school-based, family development activities 
        such as mother/daughter luncheons and teas, father/son 
        barbecues and family fun days, in partnership with DCPS. These 
        events are specifically designed to foster parent/child bonding 
        experiences, social skill development and parent to parent 
        socialization.
    Within the Child and Family Services Agency, the District has 
leveraged federal funding to jumpstart the Family Team Meetings (FTM) 
program. This initiative is a strengths-based early intervention family 
engagement model that brings families, community members, and child 
welfare professionals together to discuss the safety concerns and the 
needs of the child and his family. Occurring at the critical moment of 
concern, the FTM process increases the opportunity for family 
participation, identifies supports and resources in the extended family 
and community, speeds the process for permanency, and ensures that 
social workers base decisions on the best information available. Family 
team meetings are being held for all children at-risk of removal and 
for placement changes for children in foster care.
    Since its inception on September 15, 2004, the Family Team Meeting 
initiative has the following outcomes: 171 FTMs have been held; 326 
children have been served; the average number of participants per FTM 
is 11; and total number of family member participants is 732.
    We expect that our focus on reunification through FTMs will result 
in children returning home sooner. In addition, we are just beginning 
to using FTMs for placement changes involving children, so families can 
participate in placement changes and perhaps serve as resources for 
children.
    Question. You have requested a 30 percent increase in the Resident 
Tuition Grant Program. Last year, the Congress provided an increase of 
almost 50 percent over the fiscal year 2004 level. I understand that 
enrollment continues to increase for this popular program. Do you 
believe that this rate of increase will continue?
    Answer. Cost increases for the Tuition Assistance Grant Program 
over the last two years have been driven a rise in program 
participation, nationwide increases in tuition costs, the phase-in of 
the program to a full five cohorts, and our efforts to expand 
eligibility. The District has also required rapidly rising 
appropriations over the last two years because we no longer have a 
balance of funding from prior years to help offset our rising costs.
    Costs in the future will continue to rise, but will slow 
considerably from the growth rates of recent years. We are no longer in 
the program's phase-in stage and growth in tuition nationwide may slow 
as states' budget crises ameliorate. Over the next several years, we 
expect program costs to be driven by tuition cost increases and 
moderately growing program participation, albeit at dramatically lower 
levels than in recent years. (One area where we may see additional 
program growth is within the District's Latino community).
    Although we expect growth to slow, we still expect costs to rise 
steadily over time at a rate that may be difficult for the federal 
government to fund, given limitations on resources. Therefore, the 
District is pursuing authorization for selected cost containment 
measures that will allow us to take administrative measures to contain 
the future growth of program costs.
    Question. As I noted in my opening statement, the city is creating 
jobs at a rate that is twice the national average, but only one-third 
of the jobs that the District is creating are going to city residents. 
Why is this and what is the District doing to change this?
    Answer. During the last six years, we have added more than 60,000 
jobs in the District, yet we still face employment challenges. Last 
year, the unemployment rate in the District increased from 7.2 percent 
to 8.2 percent. And broad citywide figures mask the reality that in 
many communities unemployment is concentrated at much higher levels.
    The District's budget this year included a package of legislative 
proposals and funding initiatives to combat these disparities. These 
initiatives aimed to lower the unemployment rate across the District, 
but especially in communities east of the river, and ensure that 
residents benefit from the city's significant increase in number of 
jobs.
    These proposals will help the District's hard to employ residents 
overcome their barriers to unemployment, successfully compete in 
today's labor market, and achieve economic self-sufficiency by 
dedicating substantial resources to job preparedness, life skills, 
leadership, and pre-apprenticeship training for adults and youth. In 
order to complement these efforts, the District is also working to 
secure cooperation and participation of private sector employers in 
helping employ District residents to the fullest extent possible. These 
proposals include the following:
  --Invests an additional $6.4 million to train and provides summer 
        employment for 10,000 District youth between ages of 14 to 21.
  --Invests $4.9 million in the Youth Leadership Institute and year-
        round education and training for 465 hard-to-reach youth 
        between ages of 16 to 24.
  --Invests $8.9 million in transitional employment and pre-
        apprenticeship training assistance for 800 chronically 
        unemployed residents.
  --Invests $150,000 to increase enforcement and monitoring of current 
        First Source hiring requirements and provide the Mayor 
        additional authority to increase First Source requirements in 
        certain industries.
    In addition to these funding proposals, the District is also 
considering legislation at the local level that will accomplish the 
following:
  --Creates a job opportunity bank, funded by District businesses 
        remitting one-half of one percent of the economic assistance 
        received from the District, to provide job training grants and 
        assistance to low-income District residents.
  --Requires District-assisted employers to pay a living wage of $10.50 
        per hour or $9.25 per hour if health insurance benefits are 
        offered to employees.
    Question. You are requesting $5 million to provide incentives to 
developers and organizations to construct housing specifically for the 
ex-felon community. Could you elaborate on this proposal? How will it 
be implemented? How many ex-offenders are returning to the District 
every year? What is the recidivism rate in the District?
    Answer. The District is proposing federal funding for a new 
initiative that would provide incentives to encourage developers and 
non-profit organizations to rehabilitate or construct new housing for 
reentrants in order to increase the pool of available housing for those 
exiting the criminal justice system. We have identified access to 
housing as one of the most important risks to recidivism for 
individuals making the transition from prisons back into society. We 
expect as many as 2,500 offenders to return to the District on an 
annual basis in the years ahead, making efforts to combat recidivism as 
important as ever.
    Recidivism rates in the District are calculated by CSOSA. In fiscal 
year 2004, the parole rearrest rate was approximately 13 percent; for 
probationers, approximately 20 percent. Approximately 6 percent of the 
total supervised population was convicted of a new offense in fiscal 
year 2004, and approximately 2 percent were incarcerated as a result of 
that conviction. In fiscal year 2004, approximately 11 percent of the 
supervised population was revoked for violations of release conditions 
(including arrest). The majority of revocations result in 
reincarceration; approximately 10 percent of the supervised population 
were incarcerated as a result of revocation.
    Our ex-felon housing program will be integrated with the District's 
ten-year plan to combat homelessness and individuals occupying this 
housing will have access to the full range of social services provided 
by the District of Columbia to at-risk populations, including job 
training, substance abuse and mental health counseling. Integrating 
housing solutions with social services is critical because almost 70 
percent of returning offenders have a history of substance abuse and 
face job placement barriers along with educational challenges.
    We will administer the initiative within the Department of Housing 
and Community Development (DHCD), which has the infrastructure in place 
to monitor housing construction incentives as part of the Housing 
Production Trust Fund. DHCD will issue a special Notice of Funding 
Availability (NOFA) to solicit developers of these housing units. The 
NOFA will include restrictions on developers using the funds: 
developers must derive reentrant tenants from designated non-profit 
support service agency; units must be dedicated to reentrants for a 
period of at least five years; and operating funds for the first six 
months of tenancy are eligible project expenses. This will allow us to 
providing targeted funding that encourages the development of cost-
effective housing options for our ex-felons.
    We will coordinate services for individuals residing in this 
housing through the D.C. Re-entry Initiative. Services provided by the 
initiative will include employment services and job-readiness training 
are provided in partnership with the Department of Employment Services; 
Unity Health Care provides health care delivery and is about to open a 
new clinic for this purpose; UDC provides a GED program, as well as 
college courses. Supportive services will also be provided by the 
Department of Mental Health when needed.
                                 ______
                                 
                Questions Submitted to Natwar M. Gandhi
              Questions Submitted by Senator Sam Brownback

    Question. According to GAO, the District of Columbia Public Schools 
have had significant management problems. What are the critical 
problems that have led to DCPS' inability to even account for the 
number of employees on its payroll?
    Answer. Prior to fiscal year 2004, the DCPS Office of Human 
Resources (OHR) managed the employee roster (Schedule A) for the 
agency. Recognizing that the OHR lacked the capacity and systems to 
accurately manage this function, the new DCPS CFO assumed this 
responsibility in order to accomplish accurate budgeting and achieving 
a balanced budget. Even with the lack of an automated and integrated 
Human Resources and Payroll system, the OCFO manually maintains the 
Schedule A and has brought it to the point where the document is 
current and portrays the correct number of employees, their salaries, 
and their location in the agency. This document is critical in tracking 
current and historic vacancies. A Human Resources and Payroll 
management system is critical to sound management practices. The 
current system is responsible for employees not being paid accurately 
or receiving their salary increases or step movement on time. The DCPS 
OCFO has invested significant resources into cleaning up this problem. 
To date, all DCPS employees are receiving their correct salaries. The 
DCPS OCFO maintains this manual process, but it is critical that the 
system move forward with a more automated and integrated system.
    Question. Why don't the D.C. Public Schools use the same 
administrative and personnel management system as the rest of the 
District government?
    Answer. Several years ago, the DCPS began to develop and implement 
an administrative personnel management system independent from the 
District's systems. However, these systems did not develop to the 
operational stage. The School Board and Superintendent partnered with 
the District's Office of the Chief Technology Officer to move DCPS into 
the District's personnel and procurement management systems. In 
addition to partnering on these systems, the DCPS is also participating 
in the District's budget system with other city agencies. In addition, 
the DCPS will begin participating in the District's human resource and 
payroll systems.
    Question. As CFO, what authority do you have to control escalating 
costs within the D.C. Public School System? What recommendations would 
you make to help DCPS get its financial house in order?
    Answer. With respect to the annual budget for the Board of 
Education in the District of Columbia, the Home Rule Act allows the 
District to establish the maximum amount of funds which will be 
allocated to the Board, but does not allow the District to specify the 
purposes for which such funds may be expended or the amount of such 
funds which may be expended for the various programs under the 
jurisdiction of the Board of Education. The primary control that the 
CFO has with respect to the DCPS budget is to ensure that DCPS does not 
overspend its annual appropriation. While the CFO has the authority to 
require DCPS to curtail spending in the event a potential deficit is 
identified, the specific strategies to implement this requirement falls 
under the purview of the Superintendent and the Board. Over the past 
several fiscal years, the OCFO has worked with the Superintendent and 
the Board to identify potential overspending of the DCPS total budget 
and develop viable and realistic strategies to curtail spending in a 
manner that does not severely impact the main mission of the DCPS, 
which is to educate the District's children. The success of this close 
collaboration is evident in the fact that the DCPS has managed to close 
its last two budgets in balance. For fiscal year 2005, it appears that 
the DCPS budget will once again close in balance.
    With regard to recommendations on strengthening the financial 
position of the DCPS, the most important recommendation is to continue 
the strong collaboration between the Superintendent, the School Board 
and the OCFO in supporting the mission of the Superintendent and DCPS 
strategic plans. It is my opinion that vital, stable and collaborative 
DCPS leadership is the critical element in ensuring DCPS will continue 
to manage its resources in a wise and prudent manner. The OCFO will 
continue to support the DCPS leadership in this regard.
    Question. What, if any, additional authority do you need as CFO to 
focus on and correct the fiscal management problems facing the 
District?
    Answer. The OCFO is required to estimate revenues far in advance of 
the fiscal year in order for the District to participate in the 
congressional budget cycle. Granting the District budget autonomy would 
allow the District to build a budget closer to the start of a fiscal 
year and would allow the OCFO to provide more appropriately timed and 
therefore more informed revenue estimates.
    Question. One criticism of the GAO report on structural imbalance 
is that the District has significant Medicaid billing and claims 
management problems. How are you working to address this problem?
    Answer. In 1999, recognizing that there were significant issues 
with Medicaid billing and claims management, the District hired an 
outside contractor to work with two of the public provider agencies, 
the D.C. Public Schools (DCPS) and the Child and Family Services Agency 
(CFSA), to increase Medicaid revenue for services provided by these 
agencies. Concurrently, key issues relating to Medicaid billing and 
claims management were identified, specifically:
  --Maintaining appropriate documentation supporting Medicaid billing,
  --Developing a clear comprehensive strategy to optimize Medicaid 
        revenues among the public provider agencies; and,
  --Establishing standard business practices leading to the 
        identification of appropriate Medicaid-eligible programs and 
        services.
    Since that time, improvements have been realized in the Medicaid 
billing and accountability system within the public provider agencies. 
Although the OCFO is not directly involved in the development or 
modification of agency programs, the OCFO has been working with the 
District's Office of Medicaid Operations Reform to address the key 
issues noted above and establish a system of ongoing and routine 
reports that will demonstrate improvements in the process for 
calculating the Medicaid revenue each fiscal year and monitor Medicaid 
revenues and expenditures.
    Question. I understand that the District has made great strides to 
get its financial house in order, but what are the remaining 
problematic areas in the D.C. government in terms of financial 
mismanagement? How are you addressing those areas?
    Answer. The 2004 Annual Audit noted that there are no material 
weaknesses to report (compared to three in fiscal year 2001 and two in 
each of fiscal year 2002 and fiscal year 2003) and there were two 
reportable conditions to be addressed (the same number as fiscal year 
2003 but down from six in fiscal year 2001 and three in fiscal year 
2002). Specifically, the areas to be addressed are (1) Management of 
Disability Compensation Program and (2) Unemployment Compensation 
Claimant File Management. A copy of the Management Letter and its 
appendix are being submitted for the record. These documents provide a 
robust explanation of the issues to be addressed as well as the OCFO's 
response to these issues. As the documents will detail, both issues are 
being appropriately addressed.

GOVERNMENT OF THE DISTRICT OF COLUMBIA, OFFICE OF THE INSPECTOR GENERAL 
                           MANAGEMENT LETTER

                                                     April 8, 2005.
The Honorable Anthony A. Williams,
Mayor, District of Columbia, John A. Wilson Building, Suite 600, 1350 
        Pennsylvania Avenue, N.W., Washington, D.C. 20004.
The Honorable Linda W. Cropp,
Chairman, Council of the District of Columbia, John A. Wilson Building, 
        Suite 504, 1350 Pennsylvania Avenue, N.W., Washington, D.C. 
        20004.
    Dear Mayor Williams and Chairman Cropp: In connection with the 
audit of the District of Columbia's general purpose financial 
statements for fiscal year 2004, KPMG LLP submitted the enclosed final 
Management Letter. We are pleased to report, as noted by KPMG LLP, that 
over the last 5 fiscal years there has been a marked improvement in the 
management of the District's financial affairs. This Management Letter 
details certain matters involving internal control and other 
operational matters that require continued management attention which 
is presented as follows:
  --Appendix A--Reportable Conditions in Internal Control Over 
        Financial Reporting; and
  --Appendix B--Other Observations and Recommendations on Internal 
        Control and Financial Operations.
    KPMG set forth recommendations for correcting reportable conditions 
and other deficiencies. While the Office of the Inspector General will 
continue to assess the District agencies' implementation of 
recommendations, it is the responsibility of District government 
management to ensure that agencies correct the deficiencies noted in 
audit reports. This Office will work with managers, as appropriate, to 
help them monitor the implementation of recommendations.
    If you have questions or need additional information, please 
contact William J. DiVello, Assistant Inspector General for Audits, or 
me at (202) 727-2540.
            Sincerely,
                                        Austin A. Andersen,
                                         Interim Inspector General.

Enclosure: See Distribution List

DISTRIBUTION:

    Mr. Robert C. Bobb, Deputy Mayor/City Administrator, District of 
Columbia (1 copy)
    Ms. Alfreda Davis, Chief of Staff, Office of the Mayor (1 copy)
    Mr. Gregory M. McCarthy, Deputy Chief of Staff, Policy and 
Legislative Affairs (1 copy)
    Mr. Vincent Morris, Director, Office of Communications (1 copy)
    The Honorable Vincent B. Orange, Sr., Chairman, Committee on 
Government Operations, Council of the District of Columbia (1 copy)
    Mr. Herbert R. Tillery, Deputy Mayor for Operations (1 copy)
    Mr. Stanley Jackson, Deputy Mayor for Planning and Economic 
Development (1 copy)
    Mr. Neil O. Albert, Deputy Mayor for Children, Youth, Families, and 
Elders (1 copy)
    Mr. Edward D. Reiskin, Deputy Mayor for Public Safety and Justice 
(1 copy)
    Ms. Phyllis Jones, Secretary to the Council (13 copies)
    Mr. Robert J. Spagnoletti, Attorney General for the District of 
Columbia (1 copy)
    Dr. Natwar M. Gandhi, Chief Financial Officer (5 copies)
    Mr. Ben Lorigo, Executive Director, Office of Integrity and 
Oversight, OCFO (1 copy)
    Ms. Deborah K. Nichols, D.C. Auditor (1 copy)
    Ms. Kelly Valentine, Interim Chief Risk Officer, Office of Risk 
Management, Attention: Rosenia D. Bailey (1 copy)
    Mr. Jeffrey C. Steinhoff, Managing Director, FMA, GAO (1 copy)
    Ms. Jeanette M. Franzel, Director, FMA, GAO (1 copy)
    The Honorable Eleanor Holmes Norton, D.C. Delegate, House of 
Representatives Attention: Rosaland Parker (1 copy)
    The Honorable Tom Davis, Chairman, House Committee on Government 
Reform Attention: Melissa C. Wojciak (1 copy)
    Ms. Shalley Kim, Legislative Assistant, House Committee on 
Government Reform (1 copy)
    The Honorable Rodney Frelinghuysen, Chairman, House Subcommittee on 
D.C. Appropriations (1 copy)
    Mr. Joel Kaplan, Clerk, House Subcommittee on D.C. Appropriations 
(1 copy)
    Mr. Tom Forhan, Staff Assistant, House Committee on Appropriations 
(1 copy)
    The Honorable George Voinovich, Chairman, Senate Subcommittee on 
Oversight of Government Management, the Federal Workforce, and the 
District of Columbia (1 copy)
    Mr. David Cole, Professional Staff Member, Senate Subcommittee on 
Oversight of Government Management, the Federal Workforce, and the 
District of Columbia (1 copy)
    The Honorable Richard Durbin, Senate Subcommittee on Oversight of 
Government Management, the Federal Workforce, and the District of 
Columbia (1 copy)
    Ms. Marianne Upton, Staff Director/Chief Counsel, Senate 
Subcommittee on Oversight of Government Management, the Federal 
Workforce, and the District of Columbia (1 copy)
    The Honorable Sam Brownback, Chairman, Senate Subcommittee on D.C. 
Appropriations (1 copy)
    Ms. Mary Dietrich, Appropriations Director, Senator Sam Brownback 
(1 copy)
    The Honorable Mary Landrieu, Senate Subcommittee on D.C. 
Appropriations (1 copy)
    Ms. Kate Eltrich, Clerk, Senate Subcommittee on D.C. Appropriations 
(1 copy)
    The Honorable Susan M. Collins, Chair, Senate Committee on 
Governmental Affairs Attention: Johanna Hardy (1 copy)
    The Honorable Joseph Lieberman, Ranking Minority Member, Senate 
Committee on Governmental Affairs, Attention: Patrick J. Hart (1 copy)
                                 ______
                                 
                                                  KPMG LIP,
                              Washington, DC 20036, March 24, 2005.

GOVERNMENT OF THE DISTRICT OF COLUMBIA LETTER TO MANAGEMENT ON INTERNAL 
                      CONTROL--SEPTEMBER 30, 2004

To the Mayor and Council of the Government of the District of Columbia 
        Inspector General of the Government of the District of Columbia
    Ladies and Gentlemen: We have audited the basic financial 
statements of the Government of the District of Columbia (District), 
for the year ended September 30, 2004, and have issued our report 
thereon dated January 24, 2005. In planning and performing our audit of 
the basic financial statements of the District, we considered internal 
control in order to determine our auditing procedures for the purpose 
of expressing our opinion on the basic financial statements. An audit 
does not include examining the effectiveness of internal control and 
does not provide assurance on internal control. We have not considered 
internal control since the date of our report.
    During our audit we noted certain matters involving internal 
control and other operational matters that are presented in the 
appendices for your consideration. These comments and recommendations, 
all of which have been discussed with the appropriate members of 
management, are intended to improve internal control or result in other 
operating efficiencies.
    Our audit procedures are designed primarily to enable us to form an 
opinion on the basic financial statements, and therefore may not bring 
to light all weaknesses in policies or procedures that may exist. We 
aim, however, to use our knowledge of the District's organization 
gained during our audit work to make comments and suggestions that we 
hope will be useful to you. We would be pleased to discuss these 
comments and recommendations with you at any time.
    This report is intended solely for the information and use of the 
Mayor and Council of the District, the Inspector General of the 
District, District management, and others within the District 
government and is not intended to be and should not be used by anyone 
other than these specified parties.
    Very truly yours,
                                                          KPMG LLP.
Executive Summary
    Over the last five fiscal years, as the District's independent 
auditors, we have witnesses marked improvement in the management of the 
District's financial affairs. Important milestones that the District is 
understandably proud to report to the Council and its citizenry are:
  --Removal of Control Board oversight;
  --Eight consecutive years of unqualified opinions on the District's 
        basic financial statements included in its Comprehensive Annual 
        Financial Report (CAFR);
  --Return of operations that had been placed in receivership by the 
        District courts;
  --Successful implementation of Governmental Accounting Standards 
        Board's Statement No. 34, the most far reaching change in 
        governmental accounting and financial reporting to date;
  --Implementation of a District-wide financial and compliance audit of 
        its federal awards programs;
  --Continuous improvement in General Obligation bond ratings from BBB 
        to A;
  --Continuous acknowledgement of excellence in financial reporting 
        from the Government Finance Officer's Association (for its 
        CAFR, Budget Document, and most recently for its Popular Annual 
        Financial Report); and
  --Continuous improvement in internal control, evidenced by the 
        reduction in the number of reported material weaknesses three 
        and reportable conditions six in fiscal year 2000, to zero and 
        two, respectively in fiscal year 2004.

Address Reportable Conditions
    As noted above, the District has taken corrective actions to 
address and eliminate a number of reportable conditions in internal 
control, some of which were material weaknesses. The next step in 
continuing to improve the District's financial reporting infrastructure 
is to address the remaining reportable conditions highlighted in our 
Report on Compliance and on Internal Control over Financial Reporting 
Based on an Audit of Financial Statements Performed in Accordance with 
Government Auditing Standards (Yellow Book Report), and to implement a 
process to continuously monitor compliance with established internal 
control policies and procedures.
    Reportable conditions relate to significant deficiencies in the 
design or operation of internal control over financial reporting that 
could adversely affect the District's ability to record, process, 
summarize, and report financial data consistent with the assertions of 
management. These reportable conditions, while not as serious as 
material weaknesses, warrant District management attention. Matters 
currently classified as reportable conditions that are not considered 
to be material weaknesses are as follows: Management of Disability 
Compensation Program; and Unemployment Compensation Claimant File 
Management.
    These current year reportable conditions and our recommendations 
are repeated in Appendix A. Our management letter comments, presented 
in Appendix B, highlight other internal control and financial 
management observations made during our audit, and what actions we 
believe the District should take to ensure its financial management 
infrastructure continues to improve. Management responses to our 
observations and recommendations are included in Appendices A and B. We 
have carefully considered those responses where management indicates 
that it disagrees with either our observations or recommendations. We 
continue to believe our comments are valid and that implementation of 
our recommendations will result in stronger internal controls or 
operational and financial management improvements.

New Accounting Pronouncements
    Although there are no significant new accounting pronouncements 
that will need to be implemented during fiscal year 2005, there were 
two significant accounting pronouncements issued during fiscal year 
2004 as Governmental Accounting Standards Board (GASB) Statements that 
will significantly impact the District's future government-wide 
financial position.
    GASB Statement No. 43, Financial Reporting for Postemployment 
Benefit Plans Other Than Pension Plans, an amendment to GASB Statement 
No. 34, and GASB Statement No. 45, Accounting and Financial Reporting 
by Employers for Postemployment Benefits Other Than Pensions addresses 
accounting and financial reporting of post-employment benefits other 
than pension benefits (OPEB) by employers and plans or other entities 
that administer them. The principal impact of this Statement on the 
District relates to post-employment healthcare benefits that the 
District currently reports on a pay-as-you-go basis. GASB Statement No. 
45 will require the District to accrue for post-employment benefits to 
be provided to employees and retirees, thus adding a significant 
liability not currently recorded in the District's government-wide 
financial statements.

 APPENDIX A.--REPORTABLE CONDITIONS IN INTERNAL CONTROL OVER FINANCIAL 
                               REPORTING

I. Management of Disability Compensation Program
    The District, through the Office of Risk Management (ORM), 
administers a disability compensation program under Title XXIII of the 
District of Columbia Comprehensive Merit Personnel Act of 1978. The 
most recent actuarial loss reserve analysis was performed in fiscal 
year 2002. For fiscal years 2003 and 2004, ORM has performed roll-
forward procedures, using underlying assumptions included in the last 
actuarial report, in order to estimate the District's disability 
compensation liability at each year-end. We recommended that an 
actuarial analysis be performed for fiscal year 2004, however this 
recommendation was not implemented. We believe that the use of data 
that is more than one year old as a basis for these roll-forwards could 
lead to significant differences between the estimated liability and 
actual results for individual cases when complete data is available. 
Further, the accuracy of the underlying data used in the District's 
analysis has always been difficult to assess due to weaknesses in the 
maintenance of supporting claims files.
    The ORM does not perform a timely review of past claims to 
determine whether the established reserves remain sufficient. In 
addition, we determined through claims test work that certain reserves 
were not removed timely from the tracking system, once a claim is 
determined to be closed. These conditions increase the risk that the 
underlying data, which is utilized for the District's roll-forward 
procedures, may be over- or understated. Additionally, seven out of 81 
disability claim case files selected for test work could not be located 
for our review, and many of those that were provided for our review 
required extraordinary effort on the part of ORM personnel to locate. 
This is a similar result as noted in prior years.
    We again recommend that ORM contract for an actuarial loss reserve 
analysis to be performed during fiscal year 2005, and each year 
thereafter. Additionally, we recommend that ORM:
  --Review all active claim files on a periodic basis to determine if 
        the recorded reserve is sufficient or if the reserve needs to 
        be increased or decreased. The review of all active claim files 
        is imperative before each actuarial analysis is performed, 
        since an actuary would be utilizing such information in their 
        analysis.
  --Develop an effective managerial system to file and maintain both 
        open and closed case files.
            Management Response
    ORM has requested monies for an actuarial report in its current 
budget. It is expected that the actuarial report will take place within 
the next fiscal year.
    All Disability Compensation Program (DCP) files, both active and 
archived, were housed by the Third Party Administrator (TPA), CLW/CDM, 
Inc. in fiscal year 2004. CLW/CDM was responsible for maintaining all 
supporting documentation in each claim file. ORM acquired these files 
at the conclusion of the contract between the city and CLW/CDM in 
November 2004. The contract expired pursuant to court order on Friday, 
October 29, 2004. The archived files were subsequently moved and placed 
in storage at the District of Columbia General Hospital (DCGH). The 
active files were moved to 441 4th Street, NW, Suite 800 South. It is 
assumed that all files were turned over to ORM; however, at this time, 
it is difficult to verify this assumption. In addition, a number of 
active claim files were erroneously placed in storage when they should 
have been forwarded directly to ORM.
    The Claims Supervisor of CLW/CDM, Inc. was charged with performing 
timely reviews of the adjusters' decisions establishing reserves. ORM 
was responsible for conducting periodic reviews of randomly selected 
claim files to determine if appropriate reserves had been established 
and/or removed. The previous database system did not allow ORM access 
to all of the data maintained by CLW/CDM with regard to this aspect of 
the claims. With the movement of the Third Party Administrator in-
house, and obtaining its own Riskmaster database, ORM now has the 
ability to easily determine whether established reserves are 
sufficient.
    ORM has entered into a contract for services, which entails 
capturing basic information on all claim files currently in storage 
into an Excel spreadsheet. This electronic database will allow ORM to 
effectively manage its closed case files. The new Riskmaster system, 
which went into operation in November 2004, will allow ORM to 
effectively manage all open claims files, and those, which are 
subsequently closed.
    ORM expects to hire additional staff to provide more hands on file/
reserve reviews and to conduct periodic audits.

II. Unemployment Compensation Claimant File Management
    The District's Department of Employment Services (DOES) is 
responsible for the administration of the Unemployment Compensation 
Program. In fiscal year 2004, the District made approximately $114 
million in unemployment benefit payments to unemployed former employees 
of private employers in the District and of the District and federal 
governments.
    While testing internal controls over benefit payments, we observed 
that DOES was unable to locate 8 out of 30 claimant files supporting 
these payments. Federal regulations require that DOES maintain 
documentation supporting all payments of unemployment claims. We noted 
that DOES has established policies and procedures requiring such 
documentation be maintained. However, DOES has not created a system of 
tracking the location of all claimant files and requiring such files to 
be checked in and out by DOES personnel using the files. We recommend 
that DOES create a database tracking the location of all claimant files 
and require that this database be updated each time a file is moved to 
a new location.
            Management Response
    Management concurs with the finding. If funding is available, DOES 
will implement an imaging and retrieval system for Unemployment 
Insurance documents. A pilot project is to commence within the next 
three months for imaging and indexing quarterly contribution reports. 
The imaging will be done by the contractor who currently enters data 
from these reports.

    Question. In his fiscal year 2006 budget request, the President 
recommended that the Federal Government consider transferring ownership 
of some of its property in the City to the District. Have you estimated 
what kinds of revenues would accrue to the city if these transfers 
occurred?
    Answer. The President has not yet released a specific plan for 
transferring ownership. Absent a plan that details the property and the 
method and conditions for the transfer of such land, the OCFO cannot at 
this time estimate revenues.
                                 ______
                                 
              Questions Submitted to Dr. Clifford B. Janey
              Questions Submitted by Senator Sam Brownback

    Question. What has been the historic rate of growth in the Special 
Education budget for the D.C. Public Schools?
    Answer. Special education spending (which includes funds allocated 
to local schools for special education, special education central 
office functions, related service providers, nonpublic tuition, 
transportation, attorney fees and special education hearings and 
appeals) across all funds has increase by 33 percent between fiscal 
year 2000 and projected spending for fiscal year 2005. The compounded 
annual growth rate (CAGR) between fiscal year 2000 and fiscal year 2005 
is 4.88 percent and the average growth across the six fiscal years is 6 
percent.
    Question. I understand that about 20 percent of the children in the 
District have been identified as ``Special Education.'' How does this 
compare to other cities? How does this compare to previous years?
    Answer. Using enrollment figures from the October 2004 audit, 
special education enrollment in DCPS was 18 percent; when the total 
D.C. public enrollment (charter and DCPS) is used, the percentage of 
students in special education drops to 16 percent. Special education 
enrollment has remained relatively static during the last five years, 
however, as DPCS enrollment decreases, the percentage that are special 
education increases.
    Question. Are you concerned that students are being inappropriately 
identified as ``Special Education?''
    Answer. In a comparative analysis of DCPS' Special Education 
enrollment to other urban districts, we have found that DCPS has 
similar levels of special education enrollment:

----------------------------------------------------------------------------------------------------------------
                                                                      Special                         Percent
                            District                                 Education         Total          Special
                                                                    Enrollment      Enrollment       Education
----------------------------------------------------------------------------------------------------------------
Baltimore City..................................................          14,012         108,015              13
Boston..........................................................          11,433          58,310              20
Milwaukee.......................................................          16,518         101,000              16
Oakland, CA.....................................................           5,279          49,214              11
----------------------------------------------------------------------------------------------------------------

    What makes DCPS extraordinary different from nearly every other 
school district in the country is the number of students attending 
nonpublic schools. Twenty-four percent of DCPS special education 
students are in nonpublic day programs, residential treatment 
facilities or are wards of the District placed in foster homes and 
attending public schools in surrounding counties. When students in 
surrounding counties are moved to the ``public'' side of the count--
that is, they are served in public schools--the percentage of students 
in nonpublic programs decreases to 21 percent of DCPS special education 
enrollment and 19 percent of all D.C. public school (DCPS and charters) 
special education enrollment.
    For comparison, the percentage of special education students in 
nonpublic placements is 4.5 percent in Boston and 5 percent in 
Baltimore.
    Question. What percent of DCPS' budget is being spent on special 
education tuition and transportation?
    Answer. Of the $1 billion DCPS budget for fiscal year 2005, 
approximately 12 percent ($120 million) will be spent on special 
education tuition and 8 percent ($75 million) on transportation.
    Question. Why do DCPS budgets continue to rise every year, even 
though enrollment is declining?
    Answer. While enrollment at DCPS has declined over time, the number 
of students for whom DCPS pays tuition at private institutions and 
suburban schools has risen from 1,400 (SY 1999-2000) to 3,067 (SY 2004-
2005). These increases have resulted in higher costs for the provision 
of mandated services.
    The Local budget for DCPS has only grown at an average rate of one 
percent since fiscal year 2002 when a budget reduction of five percent 
that occurred in fiscal year 2003 is taken into account.

----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal year--
                                                               -------------------------------------------------
                                                                  2002      2003      2004      2005      2006
----------------------------------------------------------------------------------------------------------------
Local Budget..................................................    $749.2    $713.4      $753    $767.3    $815.2
Growth From Previous Fiscal Year (percent)....................       N/A    094.78      5.55      1.90      6.24
----------------------------------------------------------------------------------------------------------------

    Even though DCPS has experienced a modest growth in budget, DCPS 
has not had the ability to leverage these increases to support 
programmatic expansion. In fact, the increases have not kept pace with 
rising labor and mandated costs. As a result, DCPS has had to eliminate 
and curtail viable academic programs.
    Recent budget increases have been used to support previously 
approved negotiated pay raises. Surrounding suburban districts, our 
primary competition for teachers and principals, have been raising 
salaries substantially beyond inflation, and as of next year, at least 
three of the five are offering higher entering salaries than DCPS. All 
offer higher maximum salaries than DCPS.
    Additionally, DCPS has incurred higher costs associated with 
payments in tuition for D.C. students in private special education and 
suburban foster care placements, special education transportation, and 
a few state agency costs such as educational services at juvenile 
justice facilities; amounts that have grown enormously in recent years.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal year--
                                                                 -----------------------------------------------
                                                                       1995            2005            2006
----------------------------------------------------------------------------------------------------------------
Negotiated Pay \1\ Raises.......................................  ..............            40.4  ..............
Tuition-private placement \2\...................................            12.5            76.0            86.4
Tuition-foster care & DMH wards.................................         ( \3\ )            20.0            20.0
Transportation-special education \2\............................            12.7            62.0            62.0
Attorneys' fees (winning parties)...............................  ..............             9.8             6.8
                                                                 -----------------------------------------------
      Total.....................................................            25.2           208.2           175.2
----------------------------------------------------------------------------------------------------------------
\1\ Reflects incremental costs associated with fiscal year 2004 entitlement that permanently affected the base
  in fiscal year 2005.
\2\ Will be higher than budgeted in fiscal year 2005 and fiscal year 2006 due to cost overruns incurred by court-
  appointed transportation administrator ($75 million).
\3\ Not in DCPS budget.

    Recognizing the shortfalls in DCPS' academic program, 
Superintendent Janey presented $38.5 million worth of unmet initiatives 
in an effort to move the system towards adequacy in programming. DCPS 
identified $4.5 million in internal resources to be re-directed to 
support this program and the City has proposed an additional $21 
million. The remaining balance will be offset by the $13 million in 
Federal Payment funding that is being requested as part of the Federal 
Appropriation. This funding will support important programming such as: 
their development of a comprehensive Art & Music program, and intensive 
reading and math program for at-risk students, establishment of Parent 
Resource Centers and continuation our School Accountability Model.
    Question. It appears that, because of declining enrollment, it is 
imperative that some schools be closed or co-located. What are your 
plans to do that?
    Answer. DCPS has developed a plan that serves as a bridge through 
this transition period while the Superintendent's Master Education Plan 
(MEP) is being developed. The MEP will provide recommendations 
regarding academic program offerings, grade configurations, 
neighborhood or cluster delivery models, Special Education 
Instructional models as well as address issues relative to school 
closures and co-locations. In line with this transition plan and as 
required by law, the Board of Education has already approved the 
Superintendent's plan for co-location in DCPS facilities. We are 
currently reviewing responses to invitations to co-location for the 10 
potential sites. This transition plan calls for the co-location of ten 
schools that have been identified as potential co-location sites. Upon 
completion of the Superintendent's Master Education Plan, this 
transitional plan would be revised to specifically address issues such 
as declining enrollment and/or requirements for closing schools.
    Question. I understand that about one-third of DCPS teachers are 
not certified. What progress are you making to ensure that all DCPS 
teachers have the proper teaching credentials for the 2005-2006 school 
year?
    Answer. In March of 2005, we estimated that approximately 1,400 
teachers did not have a current license. After requesting that these 
individuals update their credential, as of June 20, 2005, DCPS has 
identified 455 teaches with expired licenses and 533 teachers with no 
record of licensure or slightly less than 20 percent (988) of the 
teacher workforce. These teachers will be placed on a structured 
program that will facilitate licensure update by June 2006. Those who 
do not meet the respective milestones of this plan will be terminated 
at the end of the 2005-2006 school year. To enhance compliance with 
actions required to obtain licensure, DCPS has created the position of 
Licensure Specialist that will oversee and monitor licensure status. 
The position is expected to be filled by July 11, 2005. Additionally, 
we are ensuring that all newly hired teachers have the proper 
credentials prior to hire.
    The State Education Office of Academic Credentials and Standards 
(SEA-OACS) have collaborated with the DCPS-LEA Office of Human 
Resources (HR) in identifying those individuals who hold a state 
teaching license. The SEA-OACS is prepared to handle the large volume 
of applications for license renewal that will occur as a result of the 
DCPS Office of Human Resources' notification efforts. Our goal is to 
maintain an application processing time of less than two weeks, 
therefore ensuring that all applications received prior to August 19, 
2005 are processed and licenses sent out before the beginning of 
school.
    Question. I understand that only 50 cents of every operational 
dollar spent by DCPS actually goes to directly educate children. The 
national average is 61 percent. Why is this average so low and how have 
city leaders proposed to change this?
    Answer. The source of the 50 percent figure is the U.S. Department 
of Education's Fiscal Year 2002 Common Core of Data, by a definition 
that includes only teachers, aides, texts and classroom supplies and 
excludes such direct educational services as speech therapy, 
librarians, library books, computer labs, guidance counselors and 
school nurses. In that year:
  --The District of Columbia reported spending for teachers, aides, 
        texts and classroom supplies was 50 percent.
  --The District of Columbia was very high on the ``non-instruction'' 
        category of ``student support,'' which means legally mandated 
        special education services (such as assessments, speech 
        therapy, OT/PT, psychological counseling), counselors, social 
        workers, attendance counselors, health services and the like.
  --The District of Columbia was also very high on spending for 
        ``instruction support,'' which means librarians; instructional 
        technology; and standards, curriculum, testing, teacher 
        training and testing.
  --The District of Columbia was comparatively high on ``operations and 
        maintenance,'' which means custodians, utilities, repairs, 
        security, as well as on transportation, which is court-ordered.
  --The District of Columbia was comparatively low on school 
        administration and food service, and average on central 
        administration/business services.
  --Many of the ``non-classroom'' expenditures were funded by 
        restricted federal grants, including food service, anti-drug 
        and violence grants and No Child Left Behind grants for 
        standards, curriculum, testing and professional development. 
        Others are required by federal law and court mandates, 
        including special education assessments, special education 
        related services, and special education transportation.
    In our own valuation of what is allocated to supporting students in 
the classrooms, we expend nearly 60 percent of our resources to do so. 
What worries me is that the definition of ``classroom,'' taken from the 
National Center for Education Statistics (NCES), does not take into 
account expenditures for critical services such as librarians, 
counselors, nurses, attendance officers, and assessments, therapy and 
transportation for special education students. We have high costs in 
these areas because of high enrollment in special education.
    The issue with the NCES definition is that DCPS funds much more 
than teacher salaries and bureaucracy. According to NCES, we spend only 
2.7 percent on general administration and 3.0 percent on business 
services such as payroll, human services, and procurement. The rest 
covers principals, libraries, counseling, special education related 
services (e.g., speech therapy, OT/PT, social workers, psychologists), 
teacher training, curriculum, testing, facilities, utilities, security, 
transportation, and the free lunch program.
    Further when you factor in our unique role as both a State and 
Local Education Agency, we experience high expenditures in other 
categories. For example, 11 percent of our work force is engaged in 
transporting special education students to public, charter and private 
schools, under the direction of a court-appointed administrator. This 
translates into higher expenditure levels on the ``non-instruction'' 
category of ``support,'' which is required as part of court orders and 
Individuals with Disabilities Education Act.
    We do believe more classroom support is needed but not by 
sacrificing librarians and counselors and elements of the 
accountability system such as curriculum and standards, teacher 
training, testing and other measures needed to comply with No Child 
Left Behind. Moreover, it cannot come at the expense of disobeying 
mandated special education requirements and health/safety issues DCPS 
must face.
    DCPS is aggressively pursing strategies to ensure that as much 
resources as possible can be directed towards the classroom. In fact, 
the Superintendent has commissioned the Council of Great City Schools 
to conduct an adequacy study to determine system needs, if any. It is 
hopeful that the findings from this study will provide District 
Stakeholders with the total investments needed to fully support the 
implementation of Statewide Standards and provide a better prescription 
of how to allocate resources.
    Question. What additional tools do you need to better manage the 
D.C. Public Schools?
    Answer. As I begin to implement the goals outlined in our 
Declaration of Education, the strategic plan for the District of 
Columbia Public Schools, I am cognizant that the managerial tools 
needed to reform a school system are different from those needed to 
sustain routine operations. In order to better align our educational 
program objectives and priorities with our fiscal resources as we plan 
long-term school improvements, it would be highly advantageous to have 
an independent Financial Officer that reports to the Board of Education 
and School Superintendent. While the school district would continue to 
be governed by all applicable fiscal regulations, the perspective of an 
independent CFO would be consistent with the mission of the school 
district in service to children, rather than the mission of a financial 
agency.
    Also, because we have established new standards and will completely 
overhaul our educational infrastructure, multi-year budgeting would 
enable us to implement scheduled reforms without the threat of funding 
uncertainties from year to year. In short, an independent Chief 
Financial Officer and multi-year budgeting would anchor a long-term 
strategic framework and afford the long-range planning and 
implementation necessary to implement and sustain school improvements.
    Question. How do you plan to use the $13 million that this 
subcommittee provided in fiscal year 2005 and how do you plan to use 
the $13 million that is being requested for fiscal year 2006?
    Answer. I intend to use these funds appropriated in fiscal years 
2004, 2005 and 2006 to specifically to accelerate the quality of 
teaching in preparation for the implementation of the new academic 
standards, curriculum, and aligned assessments. This will serve as the 
basis for a carefully structured framework for accountability.
    It is important to point out that all the improvement programs must 
focus directly on teaching and learning. Research clearly shows that 
for reform efforts to have a measurable impact, they must dramatically 
change what occurs in the classroom. I believe by implementing new 
standards, developing curriculum and school- and system-level 
assessments, training administrators and teachers, securing high 
quality curriculum materials, and providing the means to hold schools 
accountable for results--all are critical elements that must come 
together to achieve significant and sustainable improvements in 
teaching and learning.
    Through the plan, all of these elements will be optimized as part 
of a coherent and mutually reinforcing whole. We will be able to 
provide all District of Columbia Public Schools students with the kind 
of high-quality classrooms they deserve:
  --Classrooms where standards, curriculum, instruction, and 
        assessments are carefully aligned.
  --Classrooms where every teacher clearly understands what is to be 
        taught and assessed.
  --Classrooms where all students learn.
    Question. Dr. Janey, in your written testimony, you mention school 
improvement funds to be used to continue your investment in 
professional development. I am aware of the statistic that some 30 
percent of the teachers in the D.C. Public School system are not 
certified. I believe that teachers are the most fundamental aspect of a 
child's education and this fact concerns me greatly. What have you been 
doing, and what are you planning to do, specifically, to ensure that 
the teachers in your classrooms are qualified to provide a good 
education?
    Answer. To ensure our teachers are qualified to provide a good 
quality education, we've developed a Professional Development Master 
Plan that is intended to provide direction, guidance, and resources to 
educators as they develop their Individual Professional Development 
Plan (IPDP). We believe that effective professional development is on-
going, school-based (job embedded) and organized around collaborative 
problem solving. The focus of our Professional Development Master Plan 
is as follows:
  --Develop knowledge and skills in teachers in order to impact student 
        achievement.
  --Prioritization of goals based upon best practices with decisions 
        based upon objective evidence gathered over time.
  --Linkage to district goals to support the improvement of the whole 
        system.
  --Focused on enhancing the individual's knowledge of their field and 
        knowledge of learners and learning. To this end, there must be 
        an on-going assessment process, including self-evaluation and 
        feedback from others, to guide further development.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                          SCHOOL CONSTRUCTION

    Question. Chairman Cropp and Dr. Janey, what mechanisms are you 
considering to manage the $150 million bond proposal for school 
construction? Would a venture capital entity work?
    Answer. Project and capital program management for the D.C. Public 
Schools is under the purview of the Board of Education and 
Superintendent. A third-party entity, such as a venture capital entity 
could work, and has been considered. The Superintendent has made clear 
that he intends to transform his Office of Facilities Management to 
better manage its projects and more efficiently use its capital 
resources. The Superintendent has also stated that he is creating an 
office of strategic partnerships that would leverage DCPS resources 
with public and private entities to create alternative financing 
mechanisms for the DCPS capital program. Additionally, the Office of 
the City Administrator, Council staff, and DCPS staff are working 
collaboratively to identify partnership opportunities and other means 
to share and maximize resources through joint capital planning and 
coordination.
    Question. Can we finance some of the debt service from rent paid by 
charter schools in co-location?
    Answer. No. District law mandates that rent paid by charter schools 
through co-location/lease arrangements must stay with the local 
school--D.C. Code, Section 38-1831.01(b)(2).
    Question. Dr. Janey, you have provided a list of 10 school 
properties, which will be offered for co-location. When will a request 
for proposals be issued to charter schools and what time frame will you 
be signing leases for the fall semester?
    Answer. Requests for Letters of Interest were posted on the DCPS 
website from mid-May to mid-June. They are being reviewed now by Co-
location Review Committees (one for each school that received a Letter 
of Interest). A public hearing is scheduled for June 29th, 2005 from 6-
8 p.m. at 825 N. Capitol St. The Superintendent will present his 
recommendation for specific co-locations in July. It is anticipated 
that the Board of Education will approve or disapprove any co-location 
recommendations in July, and then for approved recommendations, direct 
the Superintendent to execute leases on its behalf in July.
    Question. Dr. Janey, for the record, please provide the per pupil 
spending in DCPS and the components of that allotment (local, Federal, 
other)? Please provide a comparison with per pupil spending in other 
cities of similar size.
    Answer. The referenced chart reflects the updated report conducted 
by the NCES and the Census Bureau. Fiscal year 2003 is the most recent 
year for which expenditure data are available, and if it follows 
previous timing, the Census Bureau will put out fiscal year 2004 data 
next March. That's as soon as an update could be provided. The only 
national data for school districts that's collected using comparable 
definitions are the NCES/Census data.
    However, the following represents a regional comparison of Per 
Pupil Expenditures conducted by an independent watch organization in 
the D.C. area. We believe that regional comparisons are more useful 
tools as they provide insight to the competitive landscape in the 
Washington area and it accounts for regional cost differences that 
national comparisons fail to incorporate.
Comparison with Suburban District Budgets
    The chart below depicts the fiscal year 2005 per pupil budgets of 
DCPS and its surrounding school districts. The Washington Area Boards 
of Education (WABE) calculates the suburban numbers by a standardized 
methodology that meets all the criteria above. We have applied the same 
methodology to the DCPS budget and enrollment, but subtracted 
transportation for all districts, since the transportation systems are 
not comparable.
    The WABE methodology as applied to DCPS includes most federal grant 
funds and teacher retirement, which we added from the city budget. In 
fiscal year 2005 DCPS has about $3,800 less per pupil than Arlington 
County, about $2,100 less than Alexandria, and roughly the same as 
Montgomery and Fairfax Counties. Prince George's County is far behind 
all the others.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The WABE methodology includes all local and federal funding in the 
districts' budgets except: Food service; Construction/capital; Debt 
service; Summer school; Adult education; Special ed tuition and 
transportation; Other state level costs (DCPS only): state agency 
functions, charter school oversight; Federal funding for state agency 
functions, private & charter schools, and short-term restricted 
programs; and Private grants and intra-District transfers.
    WABE figures include: Teacher retirement; Federal 2005 funding for 
DCPS LEA: Titles I, II, IV, VI, VII, Vocational education, Special 
education, Impact Aid, Indirect Cost, Head Start, Reading First, Tech 
Literacy Challenge Fund, Comprehensive School Reform, State 
Assessments.
    What the chart above does not reflect is any factor for student 
needs. As the chart below illustrates, DCPS has by far the highest 
percentage of low-income students in the area, and a much higher 
percentage of special education students, who receive higher cost 
services, than do Fairfax and Montgomery Counties. Based on student 
characteristics, DCPS should spend significantly more per pupil on 
average than any of its suburbs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Because Fairfax County Public Schools use the WABE overall per 
pupil number and issue breakouts with per student budget allocation 
figures for general education, special education and ESL education, we 
have applied the WABE definitions and calculated DCPS budget 
allocations for fiscal year 2005 for these three categories to compare 
with Fairfax County allocations. Although the chart and figures are in 
the same format as the chart above for Basis 2, the numbers are 
different: those below include federal funds as well as local funds, 
add Teacher Retirement, and eliminate a few local budget lines not 
included in the WABE methodology.\1\
---------------------------------------------------------------------------
    \1\ Food service $2.8 million, summer school $2.4 million, capital 
planning $0.3 million.
---------------------------------------------------------------------------

                         CONCLUSION OF HEARINGS

    Senator Brownback. Thank you for being here. Thank you for 
your hearts and your commitments that are making lives better 
for all people here and the people that come here.
    With that, the hearing is recessed.
    [Whereupon, at 11:43 a.m., Wednesday, June 15, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Allard, Senator Wayne, U.S. Senator From Colorado, Statement of..    58

Brownback, Senator Sam, U.S. Senator From Kansas:
    Opening Statements of........................................ 1, 53
    Questions Submitted by........................44, 97, 100, 102, 108
Buchanan, Avis E., Esq., Director, Public Defender Service, 
  District of Columbia...........................................    28
    Prepared Statement of........................................    31

Cropp, Hon. Linda, Chairman, City Council, District of Columbia..    66
    Prepared Statement of........................................    69
    Questions Submitted to.......................................   100

DeWine, Senator Mike, U.S. Senator From Ohio:
    Question Submitted by........................................    99
    Statement of.................................................     4

Gandhi, Natwar M., Ph.D., Chief Financial Officer, District of 
  Columbia.......................................................    72
    Prepared Statement of........................................    74
    Questions Submitted to.......................................   102

Janey, Clifford, Ph.D., Superintendent of Schools, District of 
  Columbia Public Schools, District of Columbia..................    83
    Prepared Statement of........................................    85
    Questions Submitted to.......................................   108

King, Hon. Rufus, III, Chief Judge, Superior Court of the 
  District of Columbia, District of Columbia.....................    17
    Prepared Statement of........................................    19

Landrieu, Senator Mary L., U.S. Senator From Louisiana:
    Prepared Statements of....................................... 3, 56
    Questions Submitted by.......................................   112
    Statement of.................................................    55

Quander, Hon. Paul A., Jr., Director, Court Services and Offender 
  Supervision Agency, District of Columbia.......................    24
    Prepared Statement of........................................    26
    Questions Submitted to.......................................    44

Strauss, Paul, Prepared Statement of.............................    94

Wagner, Hon. Annice M., Chief Judge, District of Columbia Court 
  of Appeals, and Chair, Joint Committee on Judicial 
  Administration, District of Columbia...........................     1
    Prepared Statement of........................................     6
Williams, Hon. Anthony A., Mayor, District of Columbia...........    53
    Prepared Statement of........................................    61
    Questions Submitted to.......................................    97
    Statement of.................................................    59


                             SUBJECT INDEX

                              ----------                              

                          DISTRICT OF COLUMBIA

                                                                   Page

Additional Committee Questions...................................    96
Beginning Fund Balance, General Fund.............................    75
Bioterrorism and Forensics Laboratory............................    99
Budget Autonomy..................................................    67
Capital Improvements Plan........................................    77
Continuing Financial Strength....................................    74
Democracy for the Nation's Capital...............................    66
Federal:
    Budget Request...............................................67, 70
    Contribution.................................................68, 71
Financing the Budget Request.....................................    76
Fiscal Year 2006:
    Budget.......................................................    85
    Proposed Expenditures........................................    75
    Revenues.....................................................    75
Funding Citizen Priorities.......................................    63
Highlights of the Fiscal Year 2006 Budget........................67, 70
Maintaining Fiscal Responsibility................................    62
Performance Budgeting............................................    77
Priority Federal Funding for Critical Projects...................    64
Proposed Fiscal Year 2006 Gross Funds Budget.....................    76
School Construction..............................................   112
Structural Imbalance in the District's Budget....................    77
The Budget Process...............................................66, 70

                                 Courts

Additional Committee Questions...................................    44
Administrative Accomplishments...................................30, 37
Capital Funding in Fiscal Year 2006..............................    13
Community Supervision Program....................................    44
Complete Budget Request Summary..................................    14
Court Services and Offender Supervision Agency...................    24
Critical Fiscal Year 2006 Priority--Infrastructure...............     8
Facilities in the Courts' Strategic Plan.........................     9
Family Court:
    Implementation...............................................    20
    In the Master Plan...........................................    12
Fiscal Year 2005 Accomplishments.................................29, 32
General Program Accomplishments..................................    32
Historic Judiciary Square........................................    11
Integrated Justice Information System............................    21
Judiciary Square Master Plan.....................................    11
Master Plan for Facilities.......................................    12
Pretrial Services Agency.........................................    50
Problem Solving Courts...........................................    22
Program Accomplishments..........................................    29
Public Defender Service..........................................    28
Recent Achievements..............................................     7
Status of Key Capital Projects...................................    14
The D.C. Courts' Facilities......................................    10

                                   - 

</pre></body></html>
